No. __-____

IN THE

Supreme Court of the United States
>>>>
TOM ROSSLEY,
Petitioner,
v.

DRAKE UNIVERSITY;
DRAKE UNIVERSITY BOARD OF TRUSTEES,
Respondents.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

February 2, 2021

Philip A. Byler
Counsel of Record
Andrew T. Miltenberg
NESENOFF & MILTENBERG, LLP
Attorneys for Petitioner
363 Seventh Avenue, 5th Floor
New York, New York 10001
212-736-4500
pbyler@nmllplaw.com

i
QUESTIONS PRESENTED
1. Does the conflict in fact among the Circuits
involving, on the one hand, Doe v. Purdue, 928 F.3d
652 (7th Cir. 2019) (Barrett, J.), Doe v. University
of Sciences, 961 F.3d 203 (3d Cir. 2020), Doe v.
Oberlin, 963 F.3d 580 (6th Cir. 2020), Doe v. Univ.
of Arkansas–Fayetteville, 974 F.3d 858 (8th Cir.
2020), and Schwake v. Arizona Bd. of Regents, 967
F.3d 949 (9th Cir. 2020), and, on the other hand,
Doe v. University of Denver, 952 F.3d 1182 (10th
Cir. 2020). and Rossley Jr. v. Drake, 979 F.3d 1184
(8th Cir. 2020), regarding the cause of action for
Title IX discrimination in college and university
disciplinary decisions present important federal
questions of law that the U.S. Supreme Court
should consider?
2. Does the dismissal on summary judgment of
a disability discrimination claim involving failure
to provide reasonable accommodations under
the Americans with Disabilities Act (“ADA”), 42
U.S.C. § 12182(a), brought by a plaintiff university
student with disabilities, present important federal
questions of law the U.S. Supreme Court should
consider when the dismissal is on the ground that
the disabled student failed to request accommodations in a university disciplinary proceeding when:
(a) the university was on constructive notice of the
disabilities due to the provision of accommodations
in the academic context, (b) the university has no
formal mechanism for requesting accommodations
in the disciplinary context, and (c) the student’s
father, who was also a Trustee at the university

ii
and who had submitted FERPA papers to the university, made a request to the university’s Dean
who headed the university’s Office of Disability
Services that the student be accommodated in an
upcoming disciplinary hearing?
PARTIES
Plaintiff-Appellant-Petitioner Thomas Rossley
Jr. (“Thomas”) was a Drake University senior student when he was expelled on April 8, 2016, about
one month short of his graduation. He has ADHD,
anxiety and language-based disabilities. Thomas
was a member of the Theta Chi fraternity.
(JA1443-1444, 1447-1448, 1454, 1476, 1492-1493,
1797, 2312-2313, 2331, 2540-2562.)
Drake University (“Drake”) is a private university
located in Des Moines, Iowa, governed by its Board
of Trustees and a recipient of federal funding.
Jerry Parker was the acting Dean of Students in
the fall of 2015 and the Associate Dean of Students
in the spring of 2016, was the Dean’s designee with
respect to Jane Doe’s complaint, and was the head
of Drake’s Office of Disability Services. Kathryn
Overberg was Drake’s Title IX Coordinator. Mary
Sirna as lead investigator teamed with Tricia
McKinney to investigate Jane Doe’s complaint.
Jerry Foxhoven was Drake’s Hearing Officer in
Thomas’ case. (JA320, 1657-1659, 1696, 1672,
1858, 1862, 1965-1966, 2628.)

iii
TABLE OF CONTENTS
Page

QUESTIONS PRESENTED ..........................

i

PARTIES .......................................................

ii

TABLE OF AUTHORITIES ..........................

vii

DECISIONS BELOW ....................................

1

STATEMENT OF JURISDICTION...............

1

STATUTORY PROVISION INVOLVED .......

1

STATEMENT OF FACTS .............................

2

A. October 8-9, 2015: Alleged
Sexual Assault and Notice of
Investigation......................................

3

B. The Investigation ..............................

3

C. Thomas’ Issue of Sexual Assault
Against Him ......................................

5

D. The Investigation Report ..................

6

1.
2.
3.

Jane’s Account To
Investigators ...............................

6

Thomas’ and Student B’s
Accounts ......................................

8

Student I’s Account.....................

10

iv
Page

4.

Student J’s Account ....................

11

5.

No Analysis Of Arguable Jane
Assault Of Thomas .....................

11

6.

Sirna’s Conclusions .....................

11

7.

Eighth Circuit Misstatements ....

12

E. Formal Disciplinary Process .............

13

F.

The Hearing.......................................

15

G. Foxhoven’s Ruling .............................

17

H. The Appeal.........................................

18

I.

Thomas’ Expulsion ............................

18

J.

Court Proceedings .............................

19

ARGUMENT .................................................

20

A. The Grounds For Granting
The Petition .......................................

20

B. Conflicts Among Circuits On
Important Federal Question..............

21

1.

Title IX On Campus....................

21

2.

Doe v. Purdue: The Lodestar ......

23

3.

Doe v. University of Denver ........

24

4.

Rossley Jr v. Drake .....................

26

v
Page(s)

(a) Case Precedents ...................

26

(b) Overwhelming Evidence.......

27

(c) Investigator Sirna
Irregularities ........................

28

(d) Hearing Officer Foxhoven
Irregularities ........................

29

(e) Irregularities As To
Capacity................................

29

(f) Trauma .................................

30

(g) Drake’s Gender Biased
Victim Centered
Disciplinary Process .............

31

(h) University Responsibility
and 2011 Dear Colleague
Letter....................................

33

(i) Selective Enforcement
Gender Bias ..........................

34

C. ADA Important Federal Question .....

34

1.

Constructive Notice ....................

35

2.

No Formal Request
Mechanism For Disciplinary
Process ........................................

37

Actual Accommodations
Request Made .............................

38

3.

vi
Page(s)

CONCLUSION ..............................................

41

APPENDIX
Eighth Circuit Opinion ............................

1a

District Court Opinion and Judgment.....

30a

vii
TABLE OF AUTHORITIES
Page(s)

Cases
Argenyi v. Creighton University,
703 F.3d 441 (8th Cir. 2013) ....................

35

Corbett v. National Prods. Co.,
1995 WL 133614 (E.D. Pa.
Mar. 17, 1995) ..........................................

40

Davis v. Monroe Bd. of Education,
526 U.S. 629 (1999) ..................................

22

Doe v. Columbia,
831 F.3d 46 (2d Cir. 2016)...................25, 27, 33
Doe v. Miami,
882 F.3d 579 (6th Cir. 2018) ....................

33

Doe v. Oberlin,
963 F.3d 580 (6th Cir. 2020) .........20, 21, 23, 27
Doe v. Purdue,
928 F.3d 652 (7th Cir. 2019)....................passim
Doe v. Univ. of Arkansas–Fayetteville,
974 F.3d 858 (8th Cir. 2020) ...............20, 21, 23
Doe v. University of Denver,
952 F.3d 1182 (10th Cir.
2020) .........................................20, 21, 23, 24-26
Doe v. University of Sciences,
961 F.3d 203 (3d Cir. 2020).................20, 21, 23
EEOC v. CR England, Inc.,
644 F.3d 1028 (10th Cir. 2011) ................

39

viii
Page(s)

Forbes v. St. Thomas Univ., Inc.,
768 F. Supp.2d 1222, (S.D. Fla. 2010) .....

38

Mershon v. St. Louis Univ.,
442 F.3d 1069 (3d Cir. 2006) ................... 37, 39
Nathanson v. The Medical College
of Pennsylvania,
926 F.2d 1368 (3d Cir. 1991) ...................

36

Redding v. Nova Southeastern Univ., Inc.,
165 F. Supp. 3d 1274 (S.D. Fla. 2016) .....

37

Rossley Jr. v. Drake,
979 F.3d 1184 (8th Cir. 2020)..................passim
Schwake v. Arizona Bd. of Regents,
967 F.3d 949 (9th Cir. 2020)............... 20, 21, 23
Schmidt v. Safeway Inc.,
864 F.Supp. 991 (D. Ore. 1994) ...............

40

Taylor v. Phoenixville Sch. Dist.,
184 F.3d 296 (3d Cir. 1999) .....................

40

Yusuf v. Vassar College,
35 F.3d 709 (2d Cir. 1994) ....................... 22, 34
Constitutional Provisions, Statutes & Rules
Americans with Disabilities Act,
42 U.S.C. § 12181 et seq. ..........................

19

Americans with Disabilities Act,
42 U.S.C. § 12182(a) ....................2, 20-21, 34-40

ix
Page(s)

Article III, Section 2
of the U.S. Constitution ...........................

1

Rule 10, Rules of the Supreme Court
of the United States .................................

20

Title IX of the Education Amendments Act
of 1972,
20 U.S.C. § 1681 et seq .............................

19

Title IX of the Education Amendments Act
of 1972,
20 U.S.C. § 1681(a) ...........................1, 20, 21-34
28 U.S.C. § 1254(1) ........................................

1

28 U.S.C. § 1331 ............................................

19

28 U.S.C. § 1343 ............................................

19

28 U.S.C. § 1367 ............................................

19

Other Authorities
A. Scalia, Reading Law: The Interpretation
of Legal Texts (West Pub. 2012)...............

22

“Biden Administration Expected to
Reverse DeVos’s Title IX Regulations,
Legal Experts Say,” Jan. 21, 2021,
https://www.thecrimson.com/article/
2021/1/20/experts-on-title-ix-underbiden.........................................................

23

Gruber, Anti-Rape Culture,
64 U. Kansas L. Rev. 1027 (2016)............

26

x
Page(s)

Rape and Sexual Assault Victimization
among College Age Females, 1995-2013
(Special Report), U.S. Department of
Justice, December 2014 ...........................

32

Secretary DeVos Announces New
Title IX Regulation,
https://www.youtube.com/watch?v=
hTb3yfMNGuA .........................................

23

U.S. Department of Education Archives,
“Secretary DeVos Prepared Remarks on
Title IX Enforcement,” Sept. 7, 2017 .......

34

U.S. Department of Education, Office for
Civil Rights, Dear Colleague Letter
(Apr. 4, 2011) .......................................32, 33, 34
U.S. Department of Education, Office for
Civil Rights, Dear Colleague Letter
(Sept. 22, 2017) ........................................

34

U.S. Department of Education Press
Release, “Secretary DeVos Takes
Historic Action to Strengthen Title IX
Protections for All Students,”
May 6, 2020 ..............................................

23

U.S. Department of Education Press
Release, “U.S. Department of
Education Launches New Title IX
Resources for Students, Institutions
as Historic New Rule Takes Effect,”
Aug. 14, 2020 ...........................................

23

DECISIONS BELOW
The Eighth Circuit ruled that Drake’s expulsion
of Thomas following disciplinary proceedings in
connection with sexual assault of a female student
“Jane Doe” was not motivated by gender bias, as
required to support Thomas’ Title IX claim and
that Thomas failed to make an adequate request
for accommodations during the disciplinary proceedings, as required to support Thomas’ ADA
claim. The opinion concluding with a dismissal of
Thomas’ case is reported at 979 F.3d 1184 (8th Cir.
2020) (1a-29a).
The District Court granted Drake’s motion for
summary judgment dismissing the Complaint
except for the selective enforcement Title IX claim
and related breach of contract claim. The opinion is
reported at 342 F.Supp.3d 904 (S.D. Iowa 2018)
(30a-123a).
STATEMENT OF JURISDICTION
This Court’s jurisdiction is established by 28
U.S.C. § 1254(1) and Article III, Section 2 of the
U.S. Constitution. The Eighth Circuit’s opinion was
issued November 5, 2020.
STATUTORY PROVISION INVOLVED
Title IX of the Education Amendments Act of
1972, at 20 U.S.C. § 1681(a), provides: “No person
in the United States shall, on the basis of sex, be
excluded from participation in, be denied the bene-

2
fits of, or be subjected to discrimination under any
educational program or activity receiving Federal
financial assistance.”
The Americans with Disabilities Act, 42 U.S.C.
§ 12182(a), provides: “No individual shall be discriminated against on the basis of disability in the
full and equal enjoyment of the goods, services,
facilities, privileges, advantages, or accommodations of any place of public accommodation by any
person who owns, leases (or leases to), or operates
a place of public accommodation.”
STATEMENT OF FACTS
Thomas had put in a fulsome summary judgment
record of depositions, expert testimony and documents; the Appendix was 3,051 pages. The District
Court’s statement of facts, however, does not comply with summary judgment rules and is rendered
from Drake’s perspective: here are Drake’s Policies,
this is what the investigation showed, this is what
happened at the hearing and this is what the
appeal panel said (32a-63a); the statement
obscures how the timeline of events indicates the
alleged sexual assault did not occur and ignores
what witness depositions and Dr. Barden’s report
showed about gender bias as a motivating factor for
Drake’s erroneous expulsion. The Eighth Circuit
“summary of facts,” without citations to the record
(3a-15a), omits and misstates material facts and
does not in fact comply with summary judgment
rules. The following statement of facts is based on

3
the record per summary judgment rules with citations to Eighth Circuit Appendix.
A. October 8-9, 2015: Alleged Sexual Assault
and Notice of Investigation.
The alleged sexual assault by Thomas occurred
the night of October 8-9, 2015. Whereas Thomas
consistently described Jane Doe (“Jane”) giving
him oral sex in his car, having erectile dysfunction
from Adderall and alcohol and denied sexual intercourse with Jane in his room, Jane’s account varied
from what she told the Drake Public Safety Office,
the Drake investigators and at the university hearing. Her first story to the Drake Public Safety
Office did not include what she later admitted: she
had initiated and performed oral sex on Thomas,
Thomas could not maintain an erection and she
had performed oral sex on another Student I that
night. (JA282-286, 294-298, 307-308, 310, JA1457,
1466, 1468, 2027, 2406, 2423-2424, 2716-2718,
3051.)
Thomas received a letter dated October 9, 2015,
from Drake, giving notice that a complaint of sexual misconduct had been made against Thomas by
Jane, there would be an investigation and Thomas
was not to have contact with Jane and not to
engage in retaliation. (JA485, 1561-1562.)
B. The Investigation.
The two Drake investigators into Jane’s report of
sexual misconduct were Mary Sirna, a former sex

4
crimes prosecutor, and Tricia McKinney. Both had
received training that included gender biased
notions of “trauma” and the assumption the complainant is telling the truth. (JA 1671-1672, 17171718, 1726, 1753, 1857, 1860, 1870-1872,
2563-2616.)
Sirna and McKinney interviewed Jane and
Thomas, as well as other witnesses, regarding
Jane’s allegation of sexual assault. They also collected some documentary evidence, but there was
no forensic medical evidence because Jane did not
take the rape test and no physical evidence (DNA)
because Jane did not provide her underwear as she
said she would and Drake’s investigation did not
include DNA testing. The effects of Adderall were
not verified, and Jane did not tell investigators
about the oral sex she initiated before the alleged
sexual assault and was not asked about it despite
Thomas telling the investigators, Title IX Coordinator Overberg and Dean Parker about it. (JA17261729, 1740, 1863-1872, 1875-1876, 1904-1948,
2027.)
Thomas told investigators he has ADHD and language-based and word-retrieval disabilities.
Thomas testified Sirna should have surmised he
needed an accommodation and offered one to him
by checking with Drake’s Disabilities Services.
Thomas was “scared shitless,” “feeling attacked”
and “could tell they [the investigators] were not on
my side.” (JA1472-1474, 1476, 1916-1917.)

5
C. Thomas’ Issue of Sexual Assault Against
Him.
On November 9, 2015, Overberg and Dean Parker met with Thomas at his request. Thomas
advised them that a friend had told him that he
might be a victim of sexual misconduct by Jane
performing oral sex when Thomas was not capable
of giving consent. (JA1467-1469, 1479, 1671, 1676.)
Dean Parker said Thomas could not take action to
retaliate against Jane and Thomas’ raising the
issue of Jane committing sexual assault against
Thomas could be punished as retaliatory. (JA14671469, 1479, 1521-1522, 1676, 1700-1701, 1917,
2617-2623.)
On November 10, 2015, McKinney and Sirna
interviewed Thomas concerning his concern about
having been a victim of sexual assault. Thomas
referred to a female friend who suggested Thomas
may have been sexually assaulted that night by
Jane. Sirna’s interest was limited to the identity of
the female friend; Thomas refused to say. (JA17351736, 1888-1889, 1943, 2462-2463.)
Investigator Sirna asked if Thomas wanted conduct charges filed against Jane. Thomas said “I’m
just verbalizing the issue.” Thomas testified that
Sirna was a mandatory reporter: an investigation
should be done regardless of Thomas’ personal feelings. (JA1489-1490, 1943, 2462-2463.)

6
D. The Investigation Report.
On December 9, 2015, Dean Parker, Overberg
and McKinney received Sirna’s report. (JA1863,
1904-1948.)
1. Jane’s Account To Investigators. The
report gave accounts of witness interviews, starting with Jane who is reported as saying she
believed she was intoxicated, having consumed
multiple alcoholic beverages the evening of October
8, 2015, even before arriving at the Drake Bakery,
where she encountered Thomas that evening and
continued drinking. The report states that after
leaving the Drake Bakery with Thomas, “things
became ‘blurry’” in Jane’s memory. Sirna’s report
states that Jane recalled being in a vehicle “parked
in Theta Chi’s parking lot,” and remembers
Thomas “trying to make out with her,” to which she
“recalls telling him, ‘No, I don’t like you like that,”
then after stating she felt ill, she “ran into the
Theta Chi house in order to get away from him.”
This account had credibility issues because Jane
could not run into the Theta Chi house because
there is a security code. This account is also different from: (i) what would be stated at the university
hearing when she testified initiating and giving
oral sex to Thomas; (ii) the account told to Mark
Risvold of the Drake Security Office, which had
Thomas and Jane walking to Theta Chi; (iii)
Thomas’ recollection given to the investigators
which included Jane giving him oral sex; and (iv)
the safe cab driver Student B’s recollection.

7
(Add. 69; JA1492, 1910-1918, 1920-1922, 2027,
2406, 2423-2424, 3051.)
Sirna’s report states that Jane then recalled
vomiting in the bathroom in the Theta Chi house,
realizing she didn’t have her purse, going to “look
for [Thomas], and then ‘everything goes black’ until
the sexual assault.” The report then describes Jane
waking up to Thomas on top of her and assaulting
her with her pants unbuttoned and pushed down,
underwear on pushed to the side and multiple tops
not removed. (JA1912.) The Eighth Circuit never
said that the account of Jane made sexual intercourse impossible and never notes the credibility
problems with Jane’s account: Thomas’ erectile
dysfunction from the effects of Adderall and alcohol, the description of the alleged sexual assault
scene that would not permit there to be vaginal
penetration and some of Jane’s friends arrived at
the fraternity to check on her but then left.
(JA1457, 1466, 1740-1741, 1876-1881, 1885, 1888,
1910-1918, 1922-1924.)
Sirna’s report describes Jane, after leaving
Thomas, going to an annex to the Theta Chi fraternity and jumping on Student P there. Student P
told her to get out of his room. Texts show Jane texting Student M at 1:54 AM saying she was going to
Student P’s and Student P texting Jane Doe at 2:03
AM asking where she went. Jane then went to Student I’s room where “she admitted to ‘making out’
with him, which she described as kissing and taking her shirt off” and where she chatted with and
slept next to him until morning. (Add. 70; JA1670-

8
1671, 1870, 1889, 1910-1918, 1949-1951, 22872290, 3051.)
Sirna’s report discusses Jane’s actions the morning of October 9: meeting with friends “to recreate”
the night; giving a report to Drake’s Public Safety
Office; and going (allegedly) to Mercy Hospital, but
doubting there she had been sexually assaulted
and deciding not to take the “forensic sexual
assault exam.” Jane said to investigators she would
provide text messages and had retained her underwear, but while doctored text messages were provided to Drake, the underwear was not. Drake
investigators did not seek medical records.
(JA1491, 1726-1728, 1868, 1890-1891, 1913.)
2. Thomas’ and Student B’s Accounts. For
Thomas, the night of October 8-9, 2015 began by
doing school work and taking Adderall for his
ADHD. At around 11:00 to 11:30 pm, Thomas went
to a fraternity gathering and then to Drake Bakery
where he met up with Jane, a Drake junior and a
social but not romantic friend of Thomas. (JA14471448, 1457, 1468-1469, 1487, 1587, 1920, 3051.)
When Jane arrived at Drake Bakery, she and
Thomas flirted; Thomas asked Jane if she wanted
to leave; she said yes. Thomas called the fraternity’s safe cab driver Student B. Thomas and Jane
went outside to wait for the safe cab and made out.
At around 1:15 AM to 1:20 AM, Student B picked
up the two and asked where they wanted to go;
Jane said the Theta Chi House. According to Stu-

9
dent B, he drove them there, with Thomas and
Jane making out in the cab, arriving at Theta Chi
no later than 1:40 AM, probably closer to 1:30 AM
or 1:35 AM. (Add. 74; JA1447-1448, 1468-1469,
1587-1588, 1915, 1920-1922, 3051.)
When Jane and Thomas arrived at Theta Chi,
they went inside to Thomas’ room where two of
Thomas’ fraternity brothers, Student G and Student H, were playing a video game. Jane asked
Thomas if he had his car and asked if they could go
there. Jane and Thomas went outside the Theta
Chi house to Thomas’ car and got inside it. There,
Jane initiated performing oral sex on a drunk
Thomas; but Thomas said he could not maintain an
erection and was drifting in and out of a blackout
state when Jane abandoned fellatio. According to
Thomas, Adderall cuts off sex drive, and he had
taken Adderall and drank alcohol that night.
Thomas and Jane left his car and returned to the
fraternity house. (JA1468-1469, 1588, 1740, 1892,
1915-1916.)
Thomas next remembers being in his fraternity
room, lying on his loft bed with Jane standing on a
mesh chair and kissing him. Thomas was not concerned about Jane’s state because she could stand
on the mesh chair which was hard to stand on.
Jane then said to Thomas “Alright, I’m going to go.”
Thomas did not recall any sexual interaction with
Jane in Thomas’ room other than kissing, denied
having intercourse and denied having any novelty
or colored condoms. Sirna’s report states “[s]pecifically, he did not recall having sexual intercourse

10
with [Jane] on his bean bag chair in his room.”
(Add. 72-73, JA1463, 1588-1589, 1883, 1916-1917.)
Thomas consistently stated he does not recall having sexual intercourse with Jane. (Add. 72-73; JA
1463, 1916-1917, 2239, 2248-2249.) The Eighth
Circuit opinion never acknowledges that Thomas
said he did not recall having intercourse (while
referring to unverified, contradicted hearsay as if
Thomas said it).
At around 3:59 AM, Thomas texted Jane asking
“Make it back?”, to which Jane Doe texted “Yeah
I’m good thks babe” to which Thomas in turn
responded “Okay, wanted to make sure.” (Add. 71;
JA1471, 1589, 1727-1728, 1736-1737, 1741, 1888,
1917, 1955.)
3. Student I’s Account. Student I described
Jane in the early morning hours of October 9, 2015,
as appearing “normal,” “intoxicated but not overly
intoxicated,” with “nothing unusual about her
appearance.” Jane climbed into Student I’s bed
where they “spooned.” The report continued that
Student I said Jane expressed the view they would
make a good couple. When asked if Jane had
divulged anything that had occurred between her
and Thomas earlier, Jane only said Thomas was
being weird but nothing else. Student I indicated
before Jane left in the morning, she performed oral
sex on him. At no time during the hours that Student I spent with Jane on October 9, 2015, did Jane
say that Thomas had sexually assaulted her. The
investigators learned nothing contrary to Student

11
I’s account of receiving oral sex from Jane. (Add.
76-77; JA 1891-1892, 1933-1934, 3051.)
4. Student J’s Account. Student J was a roommate of Thomas who was in the room in his bed at
the time of the alleged sexual assault. Where Student J’s bed and the bean bag chair were located
would have given him a clear view to see and hear
activity in the room, making him a potential eyewitness. Student J heard Thomas and Jane in the
room and heard the ladder to Thomas’ bed creaking, but Student J did not hear any sex act in the
room. Sirna interviewed Student J a second time
beginning with Sirna’s warning Student J about
violating the Student Code by aiding and abetting
non-academic misconduct. In that second interview, despite hostile questioning, Student J stated
he did not want to change what he had said during
the first interview. (Add. 78; JA1491, 1731-1734,
1876-1877, 1887, 1895, 1935-1938, 1945, 1952,
3051.)
5. No Analysis Of Arguable Jane Assault Of
Thomas. Sirna’s report described the investigators’ second interview with Thomas, but otherwise
did not address Thomas’ issue about having been
sexually assaulted by Jane performing oral sex on
him when he incapacitated from giving consent.
Sirna’s report shows that Jane was not even asked
about the oral sex Thomas had reported to investigators. (JA1889, 1911, 1942-1944.)
6. Sirna’s Conclusions. Sirna’s report observed
that the case was unusual because both Jane and

12
Thomas stated they did not recall the initiation of
the alleged complained of sex act of penile vaginal
penetration and that “[Thomas] claims to have no
knowledge of this sex at all, and only recalls [Jane
Doe] performing oral sex on him.” (JA1876, 18941895, 1944-1948.)
Sirna’s report concluded that Thomas had
engaged in the sex act of penile vaginal penetration
based on the hearsay statement of Student K and
crediting the account given by Jane. The report
states Sirna’s belief that non-consensual intercourse occurred based on Jane’s incapacity and
lack of consciousness. The report, however, does
not find that Jane was not so incapacitated so as
not to be able to initiate and perform oral sex on
Thomas and on Student I. (JA1902, 1945-1948,
3051.)
7. Eighth Circuit Misstatements. The Eighth
Circuit opinion omitted the oral sex in the car in
recounting the basic sequence of facts and states
that after Thomas assaulted Jane, she went to
another person’s room to ask to sleep on his couch
and then to a second person’s room—which is
nowhere in the record. As discussed above, the
record shows that Jane went to another fraternity
brother’s room and jumped in bed with him and
after he kicked her out, Jane went to another fraternity brother and spent the rest of the night with
him, giving him oral sex. Some of these facts later
come up in the Eighth Circuit opinion when discussing why Sirna credited Jane (12a), that she
gave an account not helpful to her complaint. But

13
the Eighth Circuit does so without recognizing that
why Sirna credited Jane and rationalized away her
inconsistent and problematic story was “trauma,”
which Dr. Barden testified was a gender biased
pseudo-science popularized in Title IX “training”
(JA 2563-2616).
E. Formal Disciplinary Process.
Dean Parker, based on the Sirna investigation
report, decided to seek the sanction of expulsion
against Thomas, triggering Drake’s formal disciplinary process. (JA1761, 1804-1805.)
In December 2015 Thomas’ father, then a Drake
Trustee who had signed FERPA papers, had a telephone call with Dean Parker, who headed Drake’s
Office of Disability Services. (The Eighth Circuit
never recognizes that Dean Parker was head of
Drake’s Office of Disability Services, 12a.) Dean
Parker told Tom Sr. that Thomas’ disciplinary case
would be moving to a formal university hearing
and that he (Dean Parker) believed Thomas to be
guilty of sexual assault and would be seeking his
expulsion. Tom Sr. told Dean Parker that he (Tom
Sr.) had grave concerns they were ignoring the sexual assault on Thomas and investigating that sexual assault might have an effect on the outcome of
the case. Dean Parker told Tom Sr. that it didn’t
matter what Jane Doe did sexually either immediately before or immediately after the alleged
assault as claimed by Jane because all that mattered was whether or not she consented to it. (Dean
Parker did not address whether Thomas consented

14
to the oral sex.) In response, Tom Sr. demanded
that Dean Parker both accommodate Thomas’ disabilities in the upcoming hearing and investigate
Thomas’s claim he had been sexually assaulted
while incapacitated. Dean Parker never addressed
the request for disability accommodations, and the
call ended abruptly when Dean Parker’s response
was that Drake would not be investigating Thomas’
claim because they believed Thomas’ claim to be
retaliatory and the investigation report was very
damning. (JA2617-2623.)
On or about January 6, 2016, Dean Parker’s
office sent an e-mail notification to Thomas of a formal university hearing and the fact that Dean
Parker or his designee would present the evidence
to the hearing officer selected by Dean Parker and
would seek the sanction of expulsion. (JA17611762, 1804-1805.)
Jerry Foxhoven was designated as Drake’s hearing officer by Dean Parker. Foxhoven had conducted only one other disciplinary hearing for Drake
and it did not involve Title IX. (JA1769, 1962-1963,
1966.) Prior to the hearing, Foxhoven issued a ruling stating that under the Drake Code, there were
three parties in the hearing: Thomas, Jane, and the
Dean. Foxhoven gave equal time to Jane and
Thomas for opening and closing statements and
Dean Parker half their time for opening and closing; Foxhoven later equalized the time between
Thomas and Jane/Dean Parker. (JA1105, 1108,
1257,1963-1964, 1968-1969, 1988-1990.)

15
Prior to the hearing, Jane requested redactions
to the investigation report that included her performance of oral sex on Student I. The investigation report admitted at the hearing had Jane’s
redactions. (JA1591-1633, 1680, 1687, 1774-1776,
1863, 3051.)
F. The Hearing.
On February 12, 2016, Foxhoven convened a disciplinary hearing for Thomas. (JA1765.) All the
witnesses at the hearing were called either by
Dean Parker or Thomas—none by Jane. Opening
statements were made by Dean Parker, by Jane’s
legal representative (made available by Drake),
and by Thomas’ attorney. Dean Parker acted as a
prosecuting attorney making an opening statement
saying Jane should be believed and he (the Dean)
was seeking the expulsion of Thomas and calling
witnesses to achieve expulsion. (The Eighth Circuit
never says that Dean Parker was effectively the
prosecuting attorney at the hearing.) During the
presentation of witnesses, Thomas had to conduct
the questioning of witnesses himself; it was a two
versus one situation (Dean Parker and Jane as
complainant versus Thomas as respondent). When
Thomas attempted to cross-examine Sirna, he was
met with a cascade of objections from Dean Parker
and Jane’s representative. No disability accommodations were extended to Thomas in the hearing
procedure. Thomas commented in his deposition:
“[H]aving a kid with a learning disability and a
word retrieval problem acting as his lawyer for a

16
whole hearing is a task and a half, and something
that should not have been expected and put on me.
(JA1475, 1785-1786, 1792-1793, 1851-1852, 1970,
2000-2002, 2011-2012, 2151-2158, 2329.)
At the hearing, Jane admitted that she initiated
oral sex on Thomas in his car. She testified she
then blacked out until she suddenly “came to” lying
on a bean bag chair in Thomas’ room, and remembered Thomas “being on top of me, violating me.”
She testified that her pants were down and her
underwear was pushed to the side. Jane testified
that she pushed Thomas off and asked him to stop
and remembered Thomas “getting off of me and
saying something along the lines of ‘I’ve got whisky
dick anyways.” (Add. 69; JA1787, 2027, 2029-2030.)
Jane also said her ability to trust people was
destroyed (JA2036, 2044)—which was inconsistent
with what Student I had told investigators that
Jane said to him about having a relationship with
him (JA1892, 1933-1934.) Jane’s testimony about
discomfort (JA2031-2032) was contradicted by her
behavior with Students P and I discussed above
that Foxhoven excluded.
At the hearing, Thomas testified he had no memory “at all” of sexual intercourse with Jane and the
timeline did not permit it. Thomas testified if he
used the word “hook up” it would have been in reference to the oral sex. (JA1646, 1976, 2000-2002,
2192, 2239, 2245, 2249, 3051.)
At the hearing, Foxhoven ruled that evidence of
Jane’s activity on the night in question after Jane

17
went to see Student P and Student I was not
admissible. Foxhoven acknowledged there was no
evidence submitted from a rape test and no evidence submitted from DNA physical evidence.
(JA1776, 1976, 1980-1981, 2037-2039.)
The Eighth Circuit’s “summary” of the hearing
(13a) obscures the problems of the hearing being
two (Parker and Jane) versus one (Thomas) and the
unfairness of having Thomas try to do cross-examination.
G. Foxhoven’s Ruling.
On February 17, 2016, Foxhoven issued a ruling
on Thomas’ disciplinary matter. (JA1491, 1974,
2292-2303.) Foxhoven wrote that a preponderance
of the evidence supports the fact that vaginal intercourse between Jane and Thomas was “either
attempted or completed on the evening in question,” that Jane’s “pants were off and her underwear were pushed aside.” (JA2293.) Foxhoven’s
ruling re-wrote the facts that Jane’s pants were off
to make sex possible, which was not supported by
the record (JA1740-1741, 1815, 2030) and was
inconsistent with the evidence he excluded about
Jane’s conduct after the alleged assault. Foxhoven
recommended expulsion because, he wrote, Thomas
had taken advantage of a drunk, incapacitated girl.
(JA2300-2301.)
The Eighth Circuit’s “summary” (14a-15a)
obscures Foxhoven’s gender biased rulings and

18
treatments of evidence and Foxhoven’s concoction
of a “black out” argument never made by Thomas.
H. The Appeal.
Thomas appealed the disciplinary ruling. Dean
Parker and Jane filed separate responses in support of the Foxhoven ruling. The appeal panel
denied Thomas’ appeal. (JA1633-1651, 2482, 25032536, 2538-2539.)
I.

Thomas’ Expulsion.

On April 8, 2016, President Martin sent a letter
to Thomas, informing him that he (President
Martin) had concurred in the hearing officer’s and
appeal panel’s decision and that Dean Parker may
impose the sanction of expulsion. When President
Martin made his concurrence decision, he had
before him only the appeal panel decision and the
Foxhoven ruling. When pointed to the difference
between Jane’s hearing testimony concerning the
alleged sexual assault and the Foxhoven ruling,
President Martin said he did not review the hearing. (JA2312-2313, 2319, 2322-2323, 2331.)
Also on April 8, 2016, Dean Parker e-mailed
Thomas that President Martin had concurred in
the hearing officer’s and appeal panel’s decision
and sanctioned him with expulsion from Drake.
Thomas had no prior disciplinary complaints
against him for sexual misconduct, Thomas was
one month away from graduation when expelled
and Thomas’s case was the only case of expulsion

19
for sexual misconduct at Drake. (JA1445, 1492,
1653-1654, 1731, 1797, 1873, 2313.)
J.

Court Proceedings.

Thomas brought this case. Subject matter jurisdiction arose under 28 U.S.C. §§ 1331, 1343 and
1367 because the claims brought under Title IX of
the Educational Amendments of 1972, 20 U.S.C.
§ 1681 et seq., and Title III of the ADA, 42 U.S.C.
§ 12181 et seq. arose under the laws of the United
States and are civil rights claims and the state law
claims are part of the same case or controversy.
After the parties conducted fact and expert discovery, Drake moved for summary judgment dismissing the Complaint, and Thomas opposed those
motions. The District Court entered an opinion and
order granting summary judgment dismissing all
claims except the selective enforcement Title IX
claim and the breach of contract claim regarding a
failure to investigate, which opinion and order
became a final judgment based on the stipulation of
the parties dismissing without prejudice those two
claims. (Add. 1-68, JA1022-1023.)
The Eighth Circuit affirmed in a result driven
opinion based on a supposed “summary” of the facts
without citations to the record and that in its omissions and misstatements disregarded the rules on
summary judgment which the Eighth Circuit purported to recognize.

20
ARGUMENT
A. The Grounds For Granting The Petition.
This Court, per its Rule 10, should grant the petition for a writ of certiorari for two reasons:
1. The conflict in fact among the Circuits involving, on the one hand, Doe v. Purdue, 928 F.3d 652
(7th Cir. 2019) (Barrett, J.), Doe v. University of
Sciences, 961 F.3d 203 (3d Cir. 2020), Doe v. Oberlin,
963 F.3d 580 (6th Cir. 2020), Doe v. Univ. of
Arkansas–Fayetteville, 974 F.3d 858 (8th Cir.
2020), and Schwake v. Arizona Bd. of Regents, 967
F.3d 949 (9th Cir. 2020), and, on the other hand,
Doe v. University of Denver, 952 F.3d 1182 (10th
Cir. 2020), and Rossley Jr. v. Drake, 979 F.3d 1184
(8th Cir. 2020), regarding the cause of action for
Title IX discrimination in college and university
disciplinary decisions present important federal
questions of law that the U.S. Supreme Court
should consider and also in a supervisory capacity.
2. The dismissal on summary judgment of a disability discrimination claim involving failure to
provide
reasonable
accommodations
under
the Americans with Disabilities Act (“ADA”), 42
U.S.C. § 12182(a), brought by a plaintiff university
student with disabilities, presents important federal questions of law the U.S. Supreme Court should
consider when the dismissal is on the ground that
the disabled student failed to request accommodations in a university disciplinary proceeding when:
(a) the university was on constructive notice of the

21
disabilities due to the provision of accommodations
in the academic context, (b) the university has no
formal mechanism for requesting accommodations
in the disciplinary context, and (c) the student’s
father, who was also a Trustee at the university
and who had submitted FERPA papers to the university, made a request to the university’s Dean
who headed the university’s Office of Disability
Services that the student be accommodated in an
upcoming disciplinary hearing.
B. Conflicts Among Circuits On Important
Federal Question.
The first reason for granting the writ of certiorari is the conflict in fact among the Circuits
involving, on the one hand, Doe v. Purdue, 928 F.3d
652 (7th Cir. 2019) (Barrett, J.), Doe v. University
of Sciences, 961 F.3d 203 (3d Cir. 2020), Doe v.
Oberlin, 963 F.3d 580 (6th Cir. 2020), Doe v. Univ.
of Arkansas–Fayetteville, 974 F.3d 858 (8th Cir.
2020), and Schwake v. Arizona Bd. of Regents, 967
F.3d 949 (9th Cir. 2020), and, on the other hand,
Doe v. University of Denver, 952 F.3d 1182 (10th
Cir. 2020). and Rossley Jr. v. Drake, 979 F.3d 1184
(8th Cir. 2020), regarding the cause of action for
Title IX discrimination in college and university
disciplinary decisions present important federal
questions of law that the U.S. Supreme Court
should consider and also in a supervisory capacity.
1. Title IX On Campus. Title IX provides, in relevant part, that “[n]o person in the United States
shall, on the basis of sex, be excluded from partici-

22
pation in, be denied the benefits of, or be subjected
to discrimination under any educational program
or activity receiving Federal financial assistance.”
20 U.S.C. § 1681(a). Title IX may be violated by a
school’s failure to prevent or remedy sexual harassment or sexual assault, Davis v. Monroe Bd. of
Education, 526 U.S. 629 (1999), or by “the imposition of university discipline where gender is a motivating factor in the decision to discipline,” Yusuf v.
Vassar College, 35 F.3d 709, 715 (2d Cir. 1994). In
either case, the statute is enforceable through an
implied private right of action. Yusuf, 35 F.3d at
714.
The crux of the problem is that the campus sexual tribunals have operated in ways at odds with the
text of Title IX passed by Congress. A. Scalia,
Reading Law: The Interpretation of Legal Texts
(West Pub. 2012). Title IX by text and original legislative history is a non-discrimination statute,
requiring equally fundamental fairness for women
and men. Neither the text nor the original legislative history of Title IX justifies biased decisionmakers and investigators who treat females as
“victims” presumptively telling the truth and
males as rapists unlikely to be telling the truth.
Nor does Title IX countenance institutions to
choose to address sexual assault through favoring
female complainants and discriminating against
male respondents.
Current Title IX regulations, influenced in part
by Doe v. Purdue, were announced May 6, 2020 and
went into effect August 20, 2020, and those regula-

23
tions have brought greater due process and fairness. U.S. Department of Education Press Release,
“Secretary DeVos Takes Historic Action to
Strengthen Title IX Protections for All Students,”
May 6, 2020; U.S. Department of Education Press
Release, “U.S. Department of Education Launches
New Title IX Resources for Students, Institutions
as Historic New Rule Takes Effect,” Aug. 14, 2020;
“Secretary DeVos Announces New Title IX Regulation,” https://www.youtube.com/watch?v=hTb3yfMNGuA. But legal experts are already predicting the
Biden Administration will reverse the DeVos regulations. “Biden Administration Expected to Reverse
DeVos’s Title IX Regulations, Legal Experts Say,”
Jan. 21, 2021, https://www.thecrimson.com/article/
2021/1/20/experts-on-title-ix-under-biden.
2. Doe v. Purdue: The Lodestar. Doe v. Purdue
has become the lodestar for interpreting Title IX in
discrimination suits against universities who were
respondents in university sexual misconduct disciplinary proceedings. Four Circuits have cited Doe
v. Purdue when reinstating the Title IX federal
court suits brought by the male plaintiffs: the
Third Circuit in Doe v. University of Sciences, the
Sixth Circuit in Doe v. Oberlin, the Eighth Circuit
in Doe v. Univ. of Arkansas–Fayetteville, and the
Ninth Circuit in Schwake v. Arizona Bd. of
Regents. Two Circuit Court decisions, the Tenth
Circuit in Doe v. University of Denver and the
Eighth Circuit in this case, while paying lip service
to Doe v. Purdue, went to extraordinary inappropriate lengths to dismiss Title IX federal court suits

24
brought by males who were respondents with rationales at odds with Doe v. Purdue.
3. Doe v. University of Denver. The Tenth Circuit opinion begins with the 2011 Dear Colleague
Letter, citing Doe v. Purdue, 928 F.3d at 668, saying that the evidence of the 2011 Dear Colleague
Letter is not enough unless coupled with “something more,” but then goes through the following
six other areas of proof rationalizing each away to
deny that “something more” was provided, as it was
in Doe v. Purdue:
(a) Between 2011 and 2016, all but one of the
complainants were female and all respondents
were male, yet the Tenth Circuit panel said inferring gender bias on the part of the school is not reasonable because the statistical disparity “might be”
explained by “non-discriminatory possibilities”
(e.g., males commit the assaults), but the establishment of a victim-centric system favoring complainants such as the one at the University of
Denver means that males are discriminated
against de facto.
(b) University Title IX training treated (female)
complainants as survivors, and support resources
were only for (female) complainants and not (male)
respondents. This evidence of anti-respondent bias
was deemed, however, not to create a reasonable
inference of anti-male bias because both males and
females “can be” respondents—never mind the
reality at the University of Denver and elsewhere
is that males are almost always the respondents.

25
(c) Evidence of railroading investigator bias was
discussed in a long footnote 18 of the panel opinion,
and from that evidence, a reasonable factfinder
could infer gender bias. Yet, the panel essentially
ignored it.
(d) The panel opinion noted the statement in the
Second Circuit opinion in Doe v. Columbia, 831
F.3d at 57-58 (2d Cir. 2016), that “[w]hen the evidence substantially favors one party’s version of a
disputed matter but an evaluator forms a conclusion in favor of the other side (without an apparent
reason based in the evidence), it is plausible to
infer . . . that the evaluator has been influenced by
bias.” The panel opinion denied Doe v. Columbia
helped the male plaintiff because it was said university investigators were not faced with a comparable situation. That supposed distinction depends
upon the panel not grappling with the evidence
recounted in footnote 18 of railroading investigator
bias that explains how the investigators reached
the conclusion of the male plaintiff’s responsibility
despite the evidence. The male plaintiff told a
largely consistent story of consensual sexual intercourse involving a more sexually experienced
female complainant; the female complainant, while
claiming “coercion,” had to account for how she got
into the male plaintiff’s bed, “spooned” with him at
her request until they engaged in sexual intercourse multiple times, switching positions, but
never attempted to wake the male plaintiff’s roommate who was sleeping a few feet away, and was
not physically restrained or otherwise prevented

26
from leaving the room; the female complainant further had to account for six months passing before
her new boyfriend filed a complaint on her behalf.
(e) The male plaintiff had no prior misconduct
record; after their tryst, plaintiff and the female
complainant met socially and no interim suspension was imposed; yet the male plaintiff was
expelled for what was treated as non-consensual
sexual intercourse, reflecting a gender biased belief
that males need to be sanctioned severely for sexual misconduct. Gruber, Anti-Rape Culture, 64 U.
Kansas L. Rev. 1027 (2016).
4. Rossley Jr v. Drake. The Eighth Circuit
noted it had in Doe v. Univ. of Arkansas–Fayetteville
adopted Doe v. Purdue, but then purported to analyze the case per the “erroneous outcome” doctrine
to rule that the record did not show that a motivating factor for the expulsion of Thomas Rossley Jr.
was his sex. In doing so, the Eighth Circuit failed
to address Thomas’ real arguments and misstated
the record.
Thomas made nine arguments (not four) that the
Eighth Circuit does not really address:
(a) Case Precedents were reviewed identifying
facts showing gender bias that were present here—
disregard of facts showing consensual sex, investigator bias, finding males guilty regardless of
evidence, disregarding witnesses in respondent
favor. The Eighth Circuit recognizes the cases, but
says Thomas does not have comparable facts (20a22a), but does so on the basis of conclusory asser-

27
tions while ignoring the record evidence that
makes those cases right on point.
(b) Overwhelming Evidence showed erroneous
outcome pointing to bias to find otherwise, citing
Doe v Columbia: Jane decided not to take rape test;
no medical evidence; before the alleged assault,
Jane’s initiating and performing oral sex on
Thomas that stopped when Thomas could not
maintain an erection; Thomas does not recall having sexual intercourse with Jane; Jane’s description of the sexual assault would make vaginal
intercourse impossible; Thomas’ roommate Student
J did not hear any sex occurring; Thomas was suffering from erectile dysfunction; timeline of events
did not allow for the alleged sexual assault to
occur; Jane, right after the alleged sexual assault,
went to Student P’s room in the fraternity annex
across the street, “jumping” on him in his bed and
being kicked out; in response to Thomas texting at
3:59 am whether she got home, Jane texted
Thomas saying “Yeah I’m good thx babe”; Jane
going to Student I’s room where she got into bed
with him, made out, talked with Student I about
having a relationship but never telling Student I
about any sexual assault and then performed oral
sex on Student I before leaving in the morning;
Thomas woke up the next day fully clothed. Overwhelming evidence showed an erroneous outcome
pointing to bias was the ground of decision in Doe
v. Oberlin relying upon Doe v. Purdue. The Eighth
Circuit does not address this argument.

28
(c) Investigator Sirna Irregularities: (i) failing to
interview key witnesses; (ii) misusing gender
biased “trauma” to explain away Jane’s inconsistent accounts of events and of her behavior inconsistent with a sexual assault by Thomas having
occurred; and (iii) in order to conclude Thomas
committed rape, relying on a uncorroborated
hearsay statement of Student K and credited Jane
despite the accumulated evidence, which reflected
a gender biased reaching for a conclusion that
objective evidence did not permit. Dr. Barden’s
expert testimony explained how the investigators
relied upon the gender biased junk science of “trauma,” suffered from confirmation bias in wanting to
find a sexual assault against Jane leading to disregard of evidence for Thomas. (JA 2563-2617.)
The Eighth Circuit’s treatment of this issue is to
deny in conclusory terms that Sirna was biased
(19a) and to fail to deal with the record facts on
summary judgment there was evidence of Sirna
being biased: (i) Dr. Barden’s testimony; (ii) Sirna’s
gender biased misuse of “trauma” to rationalize
away Jane Doe’s inconsistencies and problematic
account; (iii) Sirna’s threatening Thomas’s roommate for testifying he did not hear sexual activity
in the room; and (iv) Sirna’s not asking about Jane
Doe performing oral sex on Thomas. The Eighth
Circuit also does not address specifically whom
Sirna did not interview (for two examples, first fraternity brother on whom Jane jumped after being
with Thomas, ex-boyfriend of Jane); Sirna’s supposed “belief” about whether whom she did not

29
interview was duplicative cannot be determinative
as it was product of gender biased pre-judgment
according to Dr. Barden.
(d) Hearing Officer Foxhoven Irregularities: (i)
excluding evidence of Jane’s behavior the night in
question after the alleged sexual assault, ruling as
inadmissible the conduct of Jane that was highly
inconsistent with a sexual assault having occurred;
(ii) rewriting the facts of the alleged sexual assault
without supporting evidence to make penetration
possible—Jane’s pants were said to have been
pulled off instead of just pulled down as Jane had
testified; (iii) inconsistently treating Jane as not
incapacitated to give oral sex to Thomas but 15
minutes later as incapacitated to have intercourse
with Thomas; and (iv) making up what was said to
be Thomas’ “black out” argument about not being
responsible for his behavior for the purpose of
demonizing Thomas as an irresponsible male.
The Eighth Circuit’s defense of Foxhoven was
based on rationalizing away investigation bias
(19a) and did not address Foxhoven’s irregularities.
(e) Irregularities As To Capacity: Jane was not
incapacitated to give Thomas oral sex in the car,
but incapacitated 15 minutes later to be unable to
consent to intercourse (which never happened), but
was then not incapacitated right thereafter to jump
on one fraternity brother in his bed, to text Thomas
“all’s good, babe,” and then spend the rest of the
night with another fraternity brother in his bed

30
and to whom she gave oral sex? Foxhoven excluded
evidence and avoids dealing with it. Sirna rationalized Jane’s behavior as “trauma,” but according to
Dr. Barden, it is gender bias to view that way (JA
2563-2617); and Eighth Circuit’s treatment is conclusory.
(f) Trauma: The District Court impermissibly
ruled “no reasonable jury could find” that Drake’s
application of trauma in their decision-making
showed a motivating factor for the erroneous outcome was gender bias (77a), and the Eighth Circuit
gave a back of the hand treatment to it (22a). The
record did not allow those treatments. Dr. Barden’s
expert report explains how gender biased notion of
“trauma” critically influenced Drake’s proceedings
against Thomas to Thomas’ prejudice. (JA25712596.) The testimony of Sirna, McKinney and Dean
Parker showed the embrace of the idea of “trauma”
which was used to explain away Jane’s inconsistencies and “counterintuitive” behavior that pointed to
no sexual assault having occurred and led to a
prosecutorial approach toward witnesses such as
Student J whose information pointed to no sexual
assault having occurred. Drake’s treatment of this
subject reflected the “training” Drake personnel
had in “trauma.” (Add. 75, 79, 82-83; JA1726, 17491750, 1870-1872.) It also led to Dean Parker’s
denunciation, as “slut shaming,” of citing Jane’s
“counterintuitive” behavior to show a sexual
assault did not occur. (Add. 80-81, 83; JA1777-1779,
1871.)

31
(g) Drake’s Gender Biased Victim Centered Disciplinary Process: The District Court accepted and
there was no dispute that Drake has a victimcentric sexual misconduct disciplinary process
(78a). Drake’s Sexual Misconduct Policy shows that
victim-centric nature by having a whole section for
“Option for Survivors of Sexual or Interpersonal
Misconduct” with a statement of victims’ rights,
orders of protection and accommodations and interim measures. There is another section for
“Resources for Victims of Sexual or Interpersonal
Misconduct” with a listing of telephone numbers.
There is another section on “Prevention and
Awareness” of sexual assault and misconduct.
There is no section in Drake’s Misconduct Policy for
respondents’ rights and resources. (JA1539-1559,
1697, 1700-1702.) The Eighth Circuit ignored these
facts.
The dispute was whether Drake’s victim-centric
sexual misconduct disciplinary process is gender
biased. Thomas testified in his deposition that
Drake railroaded him and treated Jane “as the victim because she was female and I was just the
male, and like I said, Drake leaned one way. They
were very into the Dear Colleague Letter and they
picked a side and they backed it the whole way.”
(JA1444, 1446-1447.)
To say the process is “victim centered, but not
gender biased” ignores: (i) the norm is female complainant/male respondent; and (ii) what these university sexual misconduct tribunals have been
about. If the system is victim-centered, it is not

32
neutral and impartial; and the norm at Drake and
elsewhere is that females are the “victim” complainants and males are the “accused” respondents.
The express conception of these campus sexual
misconduct tribunals has been to protect women.
The 2011 Dear Colleague Letter (p. 2) premised the
need for universities to discipline sexual misconduct, using a preponderance of the evidence standard, with the statistic that 1 in 5 women on
campus were victims of sexual assault. While the
real number of college women assault victims is .03
in 5, Rape and Sexual Assault Victimization among
College Age Females, 1995-2013 (Special Report),
U.S. Department of Justice, December 2014, the 1
in 5 statistic has propelled the establishment of
campus sexual misconduct tribunals to protect
women. To deny the female protectionist nature of
campus sex tribunals is not law, but gender identity politics aimed at undercutting fairness for male
respondents for the sake of female “survivors” and
protecting the campus sex tribunals from challenge.
The Eighth Circuit treated this issue by saying
that sexual assault materials are worded gender
neutral and thus not inherently discriminatory,
which is not responsive to the de facto gender bias;
and the Eighth Circuit’s invoking the mantra that
anti-respondent does not mean anti-male (18a,
22a-23a) ignored reality reflected in the record: all
respondents in the 2015-2016 school year at Drake
were male; to talk about anti-respondent does not
mean anti-male ignores the reality of who are the

33
complainants (female) and who are the respondents (male). (JA1667, 2346-2355, 2631, 26362646.) The Eighth Circuit’s speculation about
possibly being other explanations than gender bias
for the statistical reality is not appropriate on summary judgment.
(h) Universities Responsibility and 2011 Dear
Colleague Letter: Thomas’ position was that while
the 2011 Dear Colleague Letter called universities
into policing sexual misconduct, universities still
had the responsibility of establishing fair procedures that did not discriminate against men and
that the 2011 Dear Colleague Letter led Drake into
punitive, one-sided investigations against male
respondents and very differently than how Doe v.
Purdue discussed the 2011 Dear Colleague Letter.
Drake, knowing the gender make up of complainants and respondents, wrongly established a
“victim-centered” process and did not attend to
what is required for fairness to male respondents.
University administrators’ employment of processes that unfairly favor a female complainant over a
male respondent provides the basis for an inference
that the administrators were in fact so motivated
by gender bias. Doe v. Columbia, 831 F.3d at 57-58;
Doe v. Miami, 882 F.3d 579 (6th Cir. 2018).
The Eighth Circuit’s response was to defend the
2011 Dear Colleague Letter, asserting that it ushered in a more rigorous approach to sexual misconduct (25a), as if former Secretary of Education
DeVos had not denounced the 2011 Dear Colleague
Letter campus tribunals for setting up an “un-

34
American” denial of due process, U.S. Department
of Education Archives, “Secretary DeVos Prepared
Remarks on Title IX Enforcement,” Sept. 7, 2017,
and vacated the 2011 Dear Colleague Letter with a
2017 Dear Colleague Letter, Department of Education, Office for Civil Rights, Dear Colleague Letter
(Sept. 22, 2017). The Eighth Circuit also cited what
were false statistics in the vacated 2011 Dear Colleague Letter on sexual assault (25a-26a) for which
there was no evidence in the record. To the contrary, Dr. Barden testified, inter alia, that the 1 in
5 statistic was false, citing the 2014 Department of
Justice study. (JA 2563-2617.)
(i) Selective Enforcement Gender Bias: The District Court, while denying the record showed gender bias for erroneous outcome, ruled the record
showed evidence of gender bias for selective
enforcement (92a-94a). If, however, gender bias
played a role in the decision not to pursue charges
against Jane, then it is reasonable for a jury to
believe that gender bias affected other actions and
decisions of Drake in the disciplinary case against
Thomas. This is an illustration of how the Doe v.
Purdue’s approach is the better legal method of not
adhering to the Yusuf doctrinal classifications.
C. ADA Important Federal Question.
The second reason for granting the writ of certiorari is that important questions of federal law are
presented by this case’s claim of disability discrimination involving failure to provide reasonable

35
accommodations
§ 12182(a).

under

the

ADA,

42

U.S.C.

The university was granted summary judgment
dismissing the ADA claim of a plaintiff university
student with disabilities on the ground, affirmed
by the Eighth Circuit, that he failed sufficiently to
request accommodations in a university disciplinary proceeding even though: (a) the university
was on constructive notice of the disabilities due to
the provision of accommodations in the academic
context, (b) the university has no formal mechanism for requesting accommodations in the disciplinary context and (c) the student’s father, who
was also a Trustee and who had submitted FERPA
papers to the university, made a request to the university’s Dean who headed the university’s Office
of Disability Services that the student be accommodated in an upcoming disciplinary hearing.
The District Court’s and Eighth Circuit’s technical decisions are contrary to the recognition of the
ADA’s remedial purpose. Argenyi v. Creighton University, 703 F.3d 441, 447 (8th Cir. 2013) (citing 42
U.S.C. § 12182(a)). The two versus one hearing in
which Thomas was obstructed while attempting to
cross-examine Sirna (objection, objection, objection) puts to shame the District Court’s and Eighth
Circuit’s technical arguments, which is contrary to
basic policy of ADA.
1. Constructive Notice. Any requirement for a
request for accommodations was satisfied by
Drake’s constructive notice of Thomas’ disabilities.

36
Drake was aware of Thomas’ disabilities because
he had requested and received accommodations in
the academic setting. Information about Thomas’
disabilities and the reasonable accommodations
afforded him were in Thomas’ disability file, accessible to University officials. Dean Parker, who
supervised the Office of Disabilities, had access to
information concerning Thomas’ disabilities, and
who as the Associate Dean of Students at the time
of the alleged sexual assault, had responsibility for
enforcing Drake’s Code and supervised Thomas’
disciplinary proceeding. (JA1471, 1745, 1747, 1749,
1784.)
At his first meeting with investigators, Thomas
disclosed his ADHD, anxiety and language-based
disabilities. (JA1914.) Thomas considered his
statements to be a request for accommodation and
believed that Drake would engage with him to provide appropriate accommodations during the investigation. (JA1472.) Thomas’ father also considered
his son’s statement to the investigators to be a
request for accommodations. (JA2621-2622.) At the
hearing, Thomas stated he has ADHD and a “wordbased learning disability” causing him to be “very
bad at retrieving words.” (Add. 55 n.10; JA14431444, 2217.) Drake wrongly failed to provide
Thomas reasonable accommodations during either
the investigation or the hearing. (JA1471-1475.)
Other courts have found that a university can be
required to provide accommodations when it is
already aware of a student’s disability even absent
a formal request. Nathanson v. The Medical Col-

37
lege of Pennsylvania, 926 F.2d 1368, 1382-83 (3d
Cir. 1991) (medical school was on notice of student’s disability based on administrator’s conversation with student and there were issues of fact
concerning whether request was made for reasonable accommodations); Redding v. Nova Southeastern Univ., Inc., 165 F. Supp. 3d 1274, 1296 (S.D.
Fla. 2016) (university was on notice of disability
based on informal request for an accommodation).
The Eighth Circuit’s reliance upon its own
Mershon v. St. Louis Univ., 442 F.3d 1069 (3d Cir.
2006), to foreclose constructive notice in this case
(28a-29a) does not serve the purposes of the ADA.
2. No Formal Request Mechanism For Disciplinary Process. The District Court acknowledged “there was no formal process to request
accommodations during the disciplinary procedure.” (Add. 54.) Neither Drake’s Student Conduct
Code nor its Sexual Misconduct Policy contained
any formal mechanism by which a respondent in a
sexual misconduct investigation proceeding could
make a specific request for a disability accommodation. (JA 1505-1560.) Yet, the District Court asserted Thomas “understood” from his academic
accommodations and conversations with his disability coordinator, that “he must, at a minimum,
ask that his disabilities be accommodated” in the
hearing. (Add. 54.) That is flatly contrary to
Thomas’ testimony about his understanding.
(JA1472.) The Eighth Circuit fails to recognize that
Drake had no formal mechanism for requesting
accommodations in disciplinary context.

38
The absence of a formal procedure further invalidates the District Court’s and Eighth Circuit’s reasoning. Forbes v. St. Thomas Univ., Inc., 768 F.
Supp.2d 1222, 1231-1232 (S.D. Fla. 2010) (because
“[t]he [Academic Standing] Committee knew the
pertinent facts of [plaintiff’s] ordeal,” there were
“sufficient . . . facts for a jury to conclude that
[she] identified her disabilities and presented a
case to [the university] for specific accommodations”).
The Eighth Circuit position that Thomas needed
to make specific accommodation requests (27a-28a)
is not satisfactory. Why is a burden placed on
Thomas to make specific accommodation requests
when he does not know the disciplinary process
and there was no mechanism to make requests?
3. Actual Accommodations Request Made.
Reasonable accommodations were requested. In a
phone call in December 2015 with Dean Parker
(who headed Drake’s Office of Disability Services),
Thomas’ father (who was also a Drake Trustee and
had signed FERPA papers after being advised of
the disciplinary case against Thomas) requested
accommodations for Thomas in the upcoming hearing, but Dean Parker never addressed the request.
(JA2617-2621.)
Dean Parker, the head of Office of Drake’s Disability Services, had a responsibility to enter into a
discussion of what accommodations would be
appropriate for Thomas and not just concentrate on

39
his role as prosecuting attorney aiming to expel
Thomas on the eve of Thomas’s graduation.
The District Court asserted that Thomas was an
adult who himself had to request reasonable
accommodations, instead of his father doing so on
his behalf (98a-101a), ignoring Dean Parker’s position as head of the university Office of Disability
Services, Thomas’ father having FERPA papers
and that no case law supported the District Court.
The Eighth Circuit managed to ignore Dean
Parker’s position as head of the university Office of
Disability Services and fault Thomas’ father for not
making specific accommodations requests. The
Eighth Circuit says that the plaintiff has the burden of requesting accommodations, but Thomas’
argument was that the request requirement of
Mershon v. St. Louis Univ. was satisfied by: (i) the
constructive notice from academic accommodations; and (ii) the request by Thomas’s father
armed with FERPA papers to Dean Parker, the
head of Drake’s Office of Disability Services.
In the employment context, courts have found
that third party requests for accommodations, like
the one made by Thomas’ father, are sufficient to
support ADA claims, and that should be the rule in
this case’s context. See, e.g., EEOC v. CR England,
Inc., 644 F.3d 1028, 1049 (10th Cir. 2011)
(“Although the notice or request ‘does not have to be
in writing, be made by the employee, or formally
invoke the magic words “reasonable accommodation,” ’ it ‘nonetheless must make clear that the

40
employee wants assistance for his or her disability.’ ”) (emphasis added); Corbett v. National Prods.
Co., 1995 WL 133614, at *4 (E.D. Pa. Mar. 17,
1995) (“While [plaintiff] did not specifically request
a reasonable accommodation from [his employer],
he did so in essence when his wife called to inform
[his employer]. . . . ‘The statute does not require
the plaintiff to speak any magic words before he is
subject to its protections. The employee need not
mention the ADA or even the term ‘accommodation’ ”); Schmidt v. Safeway Inc., 864 F.Supp. 991,
997 (D. Ore. 1994) (The jury could have reasonably
inferred that [plaintiff’s employer] knew that [he]
wanted to retain his job while in rehabilitation
even if he did not specifically request that [his
employer] provide him with such an accommodation.”); Taylor v. Phoenixville Sch. Dist., 184 F.3d
296, 303, 313-14 (3d Cir. 1999) (son requested
accommodations for mother).

41
CONCLUSION
Based on the foregoing, this Court should grant
the petition for a writ of certiorari and such other
and further relief as deemed just and proper.
Dated:

New York, New York
February 2, 2021
By: /s/
PHILIP A. BYLER, ESQ.
Philip A. Byler, Esq.
Counsel of Record
Andrew T. Miltenberg
NESENOFF & MILTENBERG, LLP
Attorneys for Petitioner
363 Seventh Avenue, 5th Floor
New York, New York 10001
212.736.4500
pbyler@nmllplaw.com

APPENDIX

1a
UNITED STATES COURT OF APPEALS,
EIGHTH CIRCUIT.
No. 18-3258
Filed: November 5, 2020
Submitted: November 12, 2019
Thomas ROSSLEY, Jr.
Plaintiff-Appellee
v.
DRAKE UNIVERSITY, et al.
Defendant-Appellant
Appeal from United States District Court
for the Southern District of Iowa – Des Moines
Before COLLOTON, WOLLMAN, and BENTON, Circuit
Judges.
Opinion
WOLLMAN, Circuit Judge.
Drake University and its Board of Trustees
(Drake) expelled student Thomas Rossley, Jr. after
university officials found that he had sexually
assaulted a female student (hereinafter referred to
as Jane Doe or Doe). Rossley sued Drake in an
eight-count complaint, which alleged, as relevant

2a
here, violations of Title IX and the Americans with
Disabilities (ADA), as well as claims related to
breach of contract. The district court1 granted summary judgment in favor of Drake on all but Rossley’s Title IX claim based on a selective
enforcement theory and his breach of contract
claim based on Drake’s failure to investigate his
allegation of sexual misconduct on Doe’s part.
Rossley v. Drake Univ., 342 F. Supp. 3d 904 (S.D.
Iowa 2018). Following the district court’s ruling,
the parties stipulated to the dismissal without
prejudice of those two claims. On appeal, Rossley
challenges the district court’s grant of summary
judgment on his Title IX claim based on an erroneous outcome theory, his ADA claim, and his
breach of implied duty of good faith and promissory
estoppel claims.
We address first whether we have jurisdiction to
review Rossley’s appeal in light of the stipulated
dismissal of the two above-described claims. We
have “jurisdiction of appeals from all final decisions of the district courts.” 28 U.S.C. § 1291; see
Ruppert v. Principal Life Ins. Co., 705 F.3d 839,
842-43 (8th Cir. 2013). When a district court dismisses a claim “without prejudice pursuant to the
parties’ stipulation,” there is “no final decision” for
purposes of appellate jurisdiction. W. Am. Ins. Co.
v. RLI Ins. Co., 698 F.3d 1069, 1071 n.1 (8th Cir.
2012). During oral argument before us, however,
Rossley agreed to dismiss these claims with preju1

The Honorable Rebecca Goodgame Ebinger, United
States District Judge for the Southern District of Iowa.

3a
dice. We accordingly conclude that we have jurisdiction to consider the appeal. See Ruppert, 705
F.3d at 843 (“[U]nless the appellant’s claims are
unequivocally dismissed with prejudice, there is no
final appealable decision.”).
We review de novo the district court’s grant of
summary judgment dismissing Rossley’s Title IX,
ADA, breach of implied duty of good faith, and
promissory estoppel claims. See Quinn v. St. Louis
Cty., 653 F.3d 745, 750 (8th Cir. 2011) (standard of
review). Summary judgment is appropriate if,
when the record is viewed in the light most favorable to the nonmoving party, there are no genuine
disputes of material fact and the moving party is
entitled to judgment as a matter of law. Woods v.
DaimlerChrysler Corp., 409 F.3d 984, 990 (8th Cir.
2005). “An issue of fact is genuine when ‘a reasonable jury could return a verdict for the nonmoving
party’ on the question.” Id. (quoting Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S.Ct.
2505, 91 L.Ed.2d 202 (1986)). “We may affirm the
district court’s grant of summary judgment on any
ground supported by the record.” Id.
Drake, a private university in Des Moines, Iowa,
receives federal funding. Two documents govern
Drake’s sexual assault investigations and disciplinary hearings: the Code of Student Conduct (Code)
and the Sexual and Interpersonal Misconduct
Policy and Notification of Complainant’s Rights
(Policy). The Code proscribes certain forms of misconduct, including sexual misconduct. It states
that Drake may “take whatever disciplinary action
is appropriate (up to and including expulsion from

4a
the University) to protect the safety and well-being
of students.” The Policy addresses Drake’s policies
and procedures relating to sexual and interpersonal misconduct and is “intended to ensure that
[these policies] are interpreted and applied consistently with Title . . . IX.” The Policy also “notif[ies]
victims/survivors of their rights and resources that
are available to them” and “explains the investigatory and disciplinary procedures . . . and possible
sanctions” Drake may impose.
The Code and Policy define sexual assault as “an
extreme form of sexual misconduct ranging from
forcible rape to nonphysical forms of pressure that
compel individuals to engage in sexual activity
against their will.” Sexual assault includes
“[e]ngaging in sexual activity with a person who is
unable to provide consent due to the influence of
drugs, alcohol, or other condition[s].” The Policy
defines “consent” in the context of sexual activity
as “clear, unambiguous action, agreeing, giving
permission or saying ‘yes’ to sexual activity with
someone else.” The Policy states that “an individual cannot give consent if incapacitated from doing
so due to the influence of . . . alcohol.”
The Code provides that any student or staff
member may file a complaint against a student
suspected of sexual misconduct by contacting the
Dean of Students Office or the Title IX Coordinator. The Dean of Students is assigned the responsibility of overseeing the investigation of the
complaint. The individuals who coordinate and
investigate the complaint shall have “received special training or have experience in (1) handling

5a
complaints of sexual and/or interpersonal misconduct; and (2) applicable confidentiality requirements.” Both the complainant and the accused
student are advised that they may have a “personal
advisor” present “at any stage of the process,”
including at “any meeting or hearing.” Formal disciplinary proceedings may be initiated if the Dean
forms a “reasonable belief that the charge . . . can
be proven by a preponderance of the evidence.”
The hearing officer at the disciplinary hearing
“shall determine (1) whether a preponderance of
the evidence establishes the accused student
engaged in . . . misconduct; and (2) recommended
disciplinary sanction(s), if any.” “The accused, the
complainant and Dean/designee may call witnesses,
conduct cross-examination, and may answer any
evidence presented by others through rebuttal.”
The accused’s personal representative’s sole role is
to “provide counsel and advice.” An attorney personal representative may “make an opening statement, a closing argument and may present written
questions to be read by the hearing officer to a witness.” The complainant and accused may crossexamine witnesses, but may not cross-examine one
another. Rather, the hearing officer will pose to the
adverse party the questions that each party has
submitted, as well as asking such questions as the
hearing officer may decide to pose at any time. The
hearing officer will provide to all parties a posthearing written opinion.
The accused student may appeal any adverse
finding and proposed sanction by requesting a
hearing before a three-member appeals panel, at

6a
which the appeals panel will “meet with the
appealing and responding parties (and their personal representatives, if any) for the purpose of
hearing argument.” If the appeals panel determines that none of the enumerated grounds for an
appeal has been shown, the appeal is dismissed
and the hearing officer’s decision becomes final. If
the appeals panel finds a showing of grounds for an
appeal, the panel may affirm or reverse the hearing
officer’s decision or modify the sanction imposed. If
the President of Drake concurs with the panel’s
findings, the Dean “shall have the authority to
impose the sanction of expulsion,” and only the
President “may recommend readmission.”
The district court’s comprehensive opinion sets
forth a detailed account of the interactions between
Rossley and Jane Doe that resulted in the expulsion from Drake that led to this appeal. Our summary of those events follows.
Jane Doe, a female student at Drake, contacted
Drake Public Safety on October 9, 2015, to report
that Rossley had sexually assaulted her earlier
that morning. She reported that she had consumed
a large amount of alcohol, “blacked out” for an
“unknown amount of time,” and next remembered
being on a bean bag chair in Rossley’s room, with
Rossley being on top of and having intercourse with
her. Drake Public Safety filed Doe’s report with
Gerald Parker, the acting Dean of Students. Rossley was sent a letter notifying him of the complaint
of sexual misconduct and requiring him to attend a
later-scheduled meeting regarding the complaint,
to which he could “bring a personal representa-

7a
tive.” Because Dean Parker was ill at the time,
Drake employed Mary Howell Sirna to serve as the
lead investigator. Sirna had been a prosecutor for
thirteen years, during which time she prosecuted
sexual violence crimes and served as Iowa State
University’s interim Title IX coordinator. She had
also received training on handling students’ complaints of sexual assault. Sirna worked with similarly trained Tricia McKinney, Drake’s Assistant
Director of Public Safety, in conducting the investigation.
Sirna and McKinney interviewed Doe and Rossley separately on October 23, 2015. Rossley did not
bring a personal representative with him to the
meeting and admitted that he had not finished
reading the email that informed him of his right to
do so. Sirna questioned Rossley about the evening
of October 8 and early morning of October 9. Sirna
and McKinney interviewed twelve witnesses and
collected documentary evidence during the course
of their investigation. Sirna chose not to interview
any additional witnesses, believing that their
statements might be duplicative.
Dean Parker and Drake’s Title IX Coordinator
met with Rossley a month later. Rossley said that
a friend had told him that Rossley might have been
a victim of sexual assault, as Rossley himself did
not remember the event. At a meeting with Sirna
and McKinney the following day, Rossley reiterated that perhaps he had been a victim of sexual
assault. Sirna asked Rossley if he wanted to file
a sexual assault charge against Doe, to which

8a
Rossley replied, “I’m not doing that right now. I’m
just verbalizing the issue.”
Sirna’s investigative report to Parker, Rossley,
and Doe set forth the following account: Rossley
said that he and Doe had exchanged text messages
and were friends, but had not “hung out one on
one.” To help him focus on an assignment that he
was working on the evening of October 8, Rossley
took his prescribed ADHD/dyslexia medication.
After completing the assignment, Rossley played a
drinking game with friends, resulting in his becoming “pretty drunk.” Rossley explained that his medication often extends his sobriety, lowers his sex
drive, and exacerbates the severity of any resulting
blackout.
Sirna and McKinney found that Doe believed
that she was intoxicated when she arrived at the
bar at which she had met Rossley on the evening of
October 8. Bar witnesses stated that Doe was
noticeably drunk, including a bartender who
recalled having refused to serve Doe because of her
intoxicated condition. Rossley recalled thinking
that he himself was “more drunk tha[n] [Doe] was”
and that Doe was acting in a “flirty way” towards
him. Doe agreed with Rossley’s suggestion that
they leave the bar. A fraternity brother (the driver
of the “sober cab,” whose bounden duty it was to
transport his intoxicated brethren to the fraternity
house) picked them up at Rossley’s request. Doe
stated that once she and Rossley left the bar,
things became “blurry.” Rossley stated that he
could not remember what had happened in the car,
but a witness reported seeing him and Doe “making

9a
out.” Rossley alleges, and the fraternity brother so
stated, that Doe asked to go to the fraternity house
at which Rossley resided.
Witnesses observed Doe “stumbling over herself”
when she and Rossley reached the fraternity house.
Doe remembered throwing up upon entering the
house, after which point “everything [went] black.”
Doe and Rossley then went to Rossley’s room,
where they found two fraternity members playing
video games. Rossley stated that Doe asked if he
had a car and suggested that the two go there.
Rossley remembered Doe’s performing oral sex on
him in the car before he blacked out. He stated that
he did not believe he had ejaculated. Doe and Rossley then left the car and returned to the fraternity
house.
Rossley stated that his last memory involving
Doe once they were back in his room was her standing on a chair near his bed. He remembered her
kissing him good night and leaving. He stated that
he was “confused about the situation” and did not
“know what happened” or whether they “had sex.”
He stated that his night with Doe did not result in
the post-intercourse pain he suffers as a result of a
back injury. Rossley also stated that Doe had complained to a friend about Rossley’s inability to ejaculate. Rossley’s roommate, who was present in the
room during the alleged assault, reported that he
remembered Rossley and a girl walking into the
room, but did not recall hearing anything indicative of sexual activity.
Sirna and McKinney’s report stated that Doe
next remembered waking up to Rossley’s being “on

10a
top of [her] and assaulting [her].” She reported as
having been confused and asking herself, “How did
I get here,” as well as thinking that she was “not
passed out and [Rossley’s] having sex with me.”
She remembered that they were having penetrative
intercourse, as she had felt his weight on her. After
pushing him off her body, she noticed that he was
wearing a yellow condom, that her pants were
pushed down, and that her underwear had been
“pushed to the side.” Doe remembered telling Rossley to “get off of [her]” and his saying, “Fine. I’ve
got whiskey dick anyway.” Rossley told Doe not to
leave, to which she responded by saying, “I’m going
to be sick” and running to the bathroom.
Doe recalled sending a text message to another
witness while in the bathroom, asking if she could
sleep on his couch. Receiving no response, she went
to the witness’s house and started kissing him. The
witness recalled that Doe appeared to be intoxicated, but not “overly intoxicated.” Doe expressed having felt “weird around [Rossley]” and that Rossley
“was being weird.” At 3:59 a.m., October 9, Rossley
sent a “Make it back?” text to Doe, to which she
responded, “Yeah I’m good thx babe.”
Upon returning to her apartment, Doe asked
friends to help her recreate the events of the previous evening and the remainder of the night. At
midmorning, she filed a report against Rossley
with Drake Public Safety and went to Mercy Hospital, where she received a preliminary exam. She
reported “freaking out” and doubting herself, wondering whether she had consented, if she was
wrong, or had made a mistake. She declined to

11a
undergo a forensic exam. When asked about her
doubts, Doe replied that she did not recall giving
consent and did not think she was capable of doing
so. She stated that she had noticed blood stains on
the underwear that she was wearing that night.
Neither the underwear nor Doe’s medical record
was made available to Sirna during the investigation.
When asked by Sirna about Doe’s account,
Rossley replied that in addition to the oral sex in
the car, he remembered only Doe’s kissing him goodbye. A witness reported, however, that Rossley had
said that he had “hook[ed] up” with Doe and had
“wasted a condom” because he could not ejaculate.
Sirna determined that a reasonable person could
conclude “based on the preponderance of the evidence” that Rossley had engaged in the sex act
alleged in Doe’s complaint. Sirna wrote that “given
that there are no eye witnesses to the event, and
[Rossley] claims not to recall the event we then
must turn to the evidence provided by [Doe].” She
pointed to the testimony regarding Doe’s incapacitated state, as well as to Rossley’s contradictory
admission to a friend that he had had intercourse
with Doe despite his inability to ejaculate—an
admission supported by Doe’s recollection of Rossley’s statement that he was suffering from alcoholinduced erectile dysfunction. Sirna also noted that
Rossley seemed to have been less incapacitated
than Doe. Moreover, she found Doe credible in light
of the statements she had made to investigators
“against her own interest,” including her expression of self-doubt and the fact that she had engaged

12a
in sexual activity with a different person after the
assault. Sirna’s report mentioned Rossley’s
thought that he himself might have been a victim
of sexual assault, but she made no findings regarding that allegation. After reviewing Sirna’s report,
Dean Parker determined that a disciplinary hearing was warranted and so informed Rossley.
Later that month, Rossley’s father, then a Drake
Trustee, called Parker, who told him that Rossley’s
case would be moving to a formal hearing. Rossley’s
father expressed concern that the investigators had
refused to investigate his son’s claim of having
been sexually assaulted on the ground that it
would have constituted a retaliatory action. He
demanded that Parker accommodate Rossley’s disabilities during the upcoming hearing.
Jerry Foxhoven, who had received training on
sexual misconduct investigations, was Drake’s
hearing officer at the time. Foxhoven determined
that there would be three parties at the hearing:
Rossley, Doe, and Parker, who would be acting as
the Dean. Rossley argued through his representative that because Parker and Doe were on the same
“side,” it was unfair to give equal time to all parties. Foxhoven ruled that Doe and Rossley could
have five minutes for opening statements and ten
minutes for closing statements, while Parker could
have five minutes for opening and closing but could
not make statements that were cumulative of
Doe’s.
Foxhoven notified the parties and their representatives that he would not admit “any testimony or
evidence of the prior sexual conduct or mental

13a
health issues of either” Doe or Rossley. Rossley’s
representative argued that evidence regarding
Doe’s post-Rossley encounter performance of oral
sex on another person should be admissible as probative of her state of mind on that night and her
capacity to consent mere hours earlier. Foxhoven
then ruled that this evidence would be admitted.
Parker stated during his opening statement at
the disciplinary hearing that the Dean of Students
Office had “found [Doe’s] account of this incident as
being more credible” and recommended that “the
appropriate sanction be expulsion.” Rossley’s representative argued during his opening statement
that “the two people involved were both blackout
drunk,” but later during the statement argued that
“we can know that [Doe] was not incapacitated.”
Foxhoven interpreted the opening statement as an
admission by Rossley that Doe was incapacitated
during the time in question, rending the extent of
her incapacitation uncontestible. Foxhoven accordingly amended his previous order by precluding
any testimony and evidence regarding Doe’s
actions after leaving Rossley’s room.
In addition to Doe’s and Rossley’s testimony,
eleven witnesses testified and were cross-examined
during the hearing, with Foxhoven reading Doe’s
and Rossley’s respectively submitted questions. In
addition to reiterating that which she had told
investigators regarding the events of October 8 and
9, Doe testified that in an attempt to persuade
Rossley to take her to her home, she had provided
that which she knew he wanted by “giving him oral
sex” while the two were in the back seat of his car.

14a
She denied having initiated or consented to having
vaginal intercourse.
Foxhoven’s order stated that sufficient evidence
existed to support a finding of sexual misconduct.
Although he noted “a lack of definitive evidence” in
light of the absence of corroboration, as well as the
lack of any test conducted on Doe’s underwear,
Foxhoven ultimately concluded that the remaining
evidence was sufficiently probative of his findings.
He first determined that “a preponderance of evidence supports the fact that vaginal intercourse
between [Doe] and [Rossley] was either attempted
or completed on the evening in question,” noting that
the Code provides that contact with genitals without
consent constitutes sexual assault. Foxhoven pointed
to Doe’s not being “conscious during the assault,”
awakening to Rossley’s “violating” her while her
pants were off, later remembering Rossley’s mentioning his alcohol-induced erectile dysfunction,
and her stating that “walking was painful in a way
that indicated to her that she had been subjected to
vaginal sex.” Foxhoven also determined that “a preponderance of evidence supports the fact that [Doe]
did not give her consent to the sexual contact in
question” because she was “so intoxicated . . . that
she was rendered unable to give her consent.” He
pointed to Doe’s pain-resulting experiences with
penetrative sex, to the testimony from numerous
witnesses, and to Rossley’s representative’s statement that both Rossley and Doe were “blackout
drunk on the night in question.”
Foxhoven rejected Rossley’s argument that he
should not be responsible for his conduct because

15a
he was “blacked out.” Foxhoven concluded that the
evidence showed that Rossley was “clearly more in
control of himself than [Doe was]” and that he was
aware of her level of intoxication. Foxhoven did not
address Rossley’s allegation that he had not consented to Doe’s performance of oral sex on him
before his alleged assault on her.
Foxhoven recommended that Rossley be expelled,
rejecting Rossley’s representative’s request that
Rossley be allowed to graduate as planned just a
month later and emphasizing Rossley’s awareness
of Doe’s intoxicated state.
Upon receiving Rossley’s notice of appeal, the
appeals panel scheduled a hearing, following which
the panel affirmed Foxhoven’s findings and recommended expulsion. Parker notified Rossley of the
panel’s decision and of Drake’s President’s concurrence therein, as well as of Rossley’s immediate
expulsion from the university. Rossley then filed
the action that gave rise to this appeal.
Title IX prohibits federally funded universities
from discriminating against students on the basis
of sex. See 20 U.S.C. § 1681(a). As relevant here,
Rossley pursued his Title IX claim under the two
categories set forth in Yusuf v. Vassar College, 35
F.3d 709, 715 (2d Cir. 1994)—“selective enforcement” and “erroneous outcome.”2 With respect to
2

We had not applied or adopted the Yusuf framework at
the time of the district court’s ruling on Drake’s summary
judgment motion, but a number of courts of appeals had done
so. E.g., Robinson v. Wutoh, 788 F. App’x 738, 738 (D.C. Cir.
2019) (per curiam); Klocke v. Univ. of Tex., 938 F.3d 204, 210
(5th Cir. 2019); Austin v. Univ. of Or., 925 F.3d 1133, 1138

16a
erroneous outcome, Rossley argued that there was
a genuine dispute of material fact whether gender
bias had resulted in an erroneous outcome in his
disciplinary proceedings. See Id. at 715 (explaining
that the erroneous outcome category involves
claims that “the plaintiff was innocent and wrongly
found to have committed the offense”). The district
court applied Yusuf and dismissed Rossley’s Title
IX claim to the extent it was based on an erroneous
outcome theory. As set forth above, Rossley decided
to dismiss with prejudice the remainder of his Title
IX claim so that he could obtain final judgment and
appellate jurisdiction.
Subsequent to the submission of Rossley’s
appeal, we announced the following pleading standard for Title IX claims: a plaintiff “must allege
adequately that the University disciplined [the
plaintiff] on the basis of sex—that is, because he is
a male.” Doe v. Univ. of Ark.-Fayetteville, 974 F.3d
858, 864 (8th Cir. 2020). In so holding, we cited the
Seventh Circuit’s decision in Doe v. Purdue University, 928 F.3d 652, 667-68 (7th Cir. 2019), which
rejected Yusuf’s categories of Title IX claims and
asked instead whether “the alleged facts, if true,
raise a plausible inference that the university discriminated against [the plaintiff] ‘on the basis of
sex.’ ” The court explained that Yusuf’s categories
(9th Cir. 2019); Doe v. Loh, 767 F. App’x 489, 491 (4th Cir.
2019) (per curiam); Doe v. Valencia Coll., 903 F.3d 1220, 1236
(11th Cir. 2018); Doe v. Trs. of Bos. Coll., 892 F.3d 67, 90 (1st
Cir. 2018); Doe v. Miami Univ., 882 F.3d 579, 592 (6th Cir.
2018).

17a
“simply describe ways in which a plaintiff might
show that sex was a motivating factor in a university’s decision to discipline a student.” Doe v.
Purdue Univ., 928 F.3d at 667.3
To survive summary judgment, then, Rossley
was required to set forth sufficient evidence to
allow a reasonable jury to find that Drake disciplined him on the basis of sex. See Id.; Doe v. Univ.
of Ark.-Fayetteville, 974 F.3d at 864. The district
court’s application of Yusuf is of no consequence,
however, in light of its ultimate conclusion that no
reasonable jury could find that Drake’s “actions
were motivated by gender bias.” Rossley, 342 F.
Supp. 3d at 926. As explained below, we similarly
conclude that there is no genuine dispute of material fact whether being male was a motivating factor for Rossley’s expulsion from Drake.
Rossley advances several theories in support of
his argument to the contrary. Specifically, he contends that:
(1) Drake countenanced various procedural
flaws in the investigation, disciplinary hearing, and appeals process and reached a decision against the weight of the evidence; (2)
3
The United States Courts of Appeals for the Third and
Ninth Circuits have adopted the Seventh Circuit’s pleading
standard. Schwake v. Ariz. Bd. of Regents, 967 F.3d 940, 947
(9th Cir. 2020); Doe v. Univ. of the Scis., 961 F.3d 203, 209
(3rd Cir. 2020); see also Doe v. Univ. of Denver, 952 F.3d 1182,
1190 (10th Cir. 2020) (considering whether the plaintiff had
adduced “sufficient evidence to raise a genuine dispute that
gender was a motivating factor in [the university’s] decision
to expel him”).

18a
Drake’s “victim-centered” approach punishes
male respondents; (3) gender-specific data of
those accused of sexual misconduct at Drake
reveals gender bias; and (4) the Department of
Education’s guidance document (the “Dear
Colleague” letter—of which more later) pressured Drake to protect female victims at the
cost of erring against accused male students.
Rossley argues that he has shown a genuine dispute whether Drake’s actions during the investigation and disciplinary hearing were motivated by
gender bias. He points to alleged flaws in Drake’s
decisions throughout the disciplinary process,
including Foxhoven’s decision allowing Doe and
Drake separate time in the hearing, the requirement that Rossley and Doe conduct their own
cross-examination of certain witnesses, and Foxhoven’s reliance on Doe’s unverified statements
regarding intercourse-induced pain. He argues that
the appeals panel failed to take into account his
imminent graduation date, condoned the decision
to allow both Doe and Drake to proceed against
him, and viewed only the evidence presented to it.
The Code and Policy processes Rossley challenges use gender-neutral language. As recounted
above, the Policy allows the accused student’s representative to be present during the disciplinary
hearing for the purpose of making opening and
closing statements and presenting questions to the
hearing officer. The accused student is given the
opportunity to submit a written response to the
complaint. We conclude that these procedures,

19a
although not equivalent to those provided in nonacademic settings, are not reflective of gender bias,
either in statement or in application.
Rossley contends that the hearing panel reached
decisions contrary to the weight of the evidence,
which he argues demonstrates that gender bias
permeated the investigation, the hearing, and the
decision that resulted in his expulsion. He points to
Sirna’s decision to not interview certain witnesses,
her reliance on hearsay, and her finding that
Rossley’s roommate lacked credibility. He points
also to Foxhoven’s and the appeals panel’s reliance
on the alleged erroneous findings that flowed from
Sirna’s flawed investigation. We conclude, however, that whatever the deficiencies in Sirna’s investigation, they did not result in findings so devoid of
substantive content as to be unworthy of credence.
As pointed out earlier, for example, Sirna’s decision
not to interview certain witnesses was based on her
belief that such an effort might prove to be duplicative of her other interviews. Likewise, the alleged
deficiencies did not rise to the level of the “clear
procedural irregularities” that occurred in Menaker
v. Hofstra University, 935 F.3d 20, 35 (2nd Cir.
2019).
We also find to be without merit Rossley’s argument that the decision regarding Doe’s alcoholimpaired decision-making capacity was contrary to
the substantial weight of the evidence. True
enough, as was also the case in Doe v. University of
Arkansas-Fayetteville, 974 F.3d at 864-65, Doe was
able to converse, to send text messages (including a
post-encounter thank-you reply), and to return

20a
safely to her apartment, but there was also substantial, if indeed not overwhelming evidence of
her intoxication that greatly exceeded that which
existed in the Arkansas case.
Rossley argues that a university official’s actions
during a disciplinary process can raise a plausible
inference of gender bias. See, e.g., Doe v. Purdue
Univ., 928 F.3d at 669 (crediting female accuser
“on her accusation alone” and taking “no other evidence into account” raised a plausible inference of
gender bias); Doe v. Columbia Univ., 831 F.3d 46,
57 (2d Cir. 2016) (“When the evidence substantially
favors one party’s version of a disputed matter, but
an evaluator forms a conclusion in favor of the
other side (without an apparent reason based in
the evidence), it is plausible to infer . . . that the
evaluator has been influenced by bias.”); Prasad v.
Cornell Univ., No. 5:15-cv-322, 2016 WL 3212079,
at *17 (N.D.N.Y. Feb. 24, 2016) (holding that allegations of a slanted investigative report, a drastic
change in position by one investigator, and a possibility that male respondents are invariably found
guilty at the university “plausibly establishes a
causal connection between gender bias and the outcome of [plaintiff’s] disciplinary proceeding”); Doe
v. Washington & Lee Univ., No. 6:14-CV-00052,
2015 WL 4647996, at *10 (W.D. Va. Aug. 5, 2015)
(holding that investigators’ omissions in witness
summaries and failure to consider evidence of
plaintiff and accuser’s post-incident consensual
sexual encounter “plausibly established a causal
link between [plaintiff’s] expulsion and gender
bias”). Whatever force similar arguments might

21a
have in a given case, we conclude that Rossley has
failed to make a sufficient showing that the procedural or substantive deficiencies that he alleges
occurred in his case were the equivalent of those in
these cases.
As was also the situation in Doe v. University of
Arkansas-Fayetteville, the cases Rossley cites were
being considered at the pleadings stage of the proceedings. They also concerned allegations more
probative of gender bias than any of the evidence
Rossley points to here. In Doe v. Columbia University, the court noted that “substantial criticism”
attacking the manner in which the university
treated female accusers could motivate officials “to
refute those criticisms by siding with the accusing
female and against the accused male.” 831 F.3d at
57-58. In Doe v. Purdue University, the dean of students and Title IX Coordinator reached a decision
without ever having spoken with the complainant,
and the university center dedicated to supporting
victims of sexual violence had posted an article
insinuating that men were “the cause of campus
sexual assault.” 928 F.3d at 669. Similarly, in Doe
v. Washington & Lee University, the court held that
“gender bias could be inferred” from the Title IX
Coordinator’s hosting a presentation that endorsed
the idea “[a]lmost [e]very [g]irl” experiences nonconsensual sex. 2015 WL 4647996, at *10. In
Prasad v. Cornell University, the district court
noted that it had to accept as true plaintiff’s allegation of “a gender stereotype adverse to males
charged with sexual assaults . . . at Cornell causing . . . disciplinary proceedings to ‘invariably’ end

22a
adversely to male respondents.” 2016 WL 3212079,
at *16. We conclude that Rossley has not established the existence of any comparatively similar
facts in his case.
Rossley contends that in addressing allegations
of sexual misconduct, Drake officials employ a “victim-centered approach” rooted in “bad science,” in
which they “rationalize away” behavior “plainly
inconsistent with a sexual assault having occurred.”
Rossley, 342 F. Supp. 3d at 927 (citing Rossley’s
brief in opposition to summary judgment).
Although Drake itself does not use the term “victim-centered,” Rossley infers its existence from
the literature Drake provides on resources for sexual assault survivors, as well as from the Policy’s
information on prevention and awareness of
assault. As the district court observed, however,
the language in the Policy is gender-neutral and
Sirna and McKinney used gender-neutral language
in describing why victims may engage in counterintuitive behavior following a sexual assault. Whatever descriptive phraseology one might use to
characterize Drake’s approach in dealing with sexual misconduct cases, we do not believe that it can
fairly be found to be inherently gender-biased. See
Sahm v. Miami Univ., 110 F. Supp. 3d 774, 778
(S.D. Ohio 2015) (“Demonstrating that a university
official is biased in favor of the alleged victims of
sexual assault claims, and against the alleged perpetrators, is not the equivalent of demonstrating bias against male students.”); Haley v. Va.
Commonwealth Univ., 948 F. Supp. 573, 579 (E.D.
Va. 1996) (explaining that certain allegations “at

23a
best reflect bias against people accused of sexual
harassment and in favor of victims and indicate
nothing about gender discrimination”).
Rossley asserts that the “norm” of female complainant and male accused at Drake and nationwide show gender bias. Rossley alleges that all
fifty-one persons accused of sexual misconduct at
Drake during the 2015-16 academic year were
male. Although Drake points out that in several of
the cases there is no evidence regarding the
accused student’s gender, we agree with the district court that even assuming that all of the cases
involved males, the data does not demonstrate gender bias.
Again, Rossley bases his argument on cases that
were being considered at the pleadings stage of the
proceedings. In Doe v. Miami University, the Sixth
Circuit held that it was plausible to infer gender
bias from the evidence that every male student
accused of sexual misconduct had been found
responsible for the alleged sexual misconduct, from
the fact that ninety percent of the students found
responsible for such conduct between 2011 and
2014 had male names, and from an attorney’s affidavit that the university pursued investigations
involving only male students. 882 F.3d at 593-94.
The Sixth Circuit also expressed its cautiousness,
however, observing that “[d]iscovery may reveal
that the alleged patterns of gender-based decisionmaking do not, in fact, exist. That information,
however, is currently controlled by the defendants.” Id. at 594. Drake has produced its evidence,
however, and the statistical account does not on its

24a
own, nor in conjunction with Drake’s “victim-centered” approach and the hereinafter discussed
“Dear Colleague” letter, demonstrate a pattern of
preordained gender-based decision-making. We
concur in the First Circuit’s assessment in Doe v.
Trustees of Boston College that “[i]t is unreasonable
to draw such an inference from this information
rather than recognize that other non-biased reasons may support the gender makeup of the sexual
misconduct cases at [the university].” 892 F.3d at
92. We also concur in that court’s observation that
the statistical “data fail to address an array of
alternative explanations” for the disparity between
the number of males and females charged with sexual assault. Haidak v. Univ. of Mass.-Amherst, 933
F.3d 56, 75 (1st Cir. 2019); see also Doe v. Univ. of
Denver, 952 F.3d at 1193-94.
We turn, then, to the then-governing “Dear
Colleague” Letter, which provided guidance on how
universities may comply with Title IX’s requirements pertaining to sexual harassment and violence. Department of Education, Dear Colleague
Letter (Apr. 4, 2011), https://www2.ed.gov/about/
offices/list/ocr/letters/colleague-201104.pdf p. 1. It
cited a statistic that one in five women are victims
of sexual assault or attempted sexual assault while
in college, together with a statistic that 6.1 percent
of males were also “victims of completed or
attempted sexual assault during college.” Id. at 2.
It then discussed the relevant enforcement mechanisms in gender-neutral terms, referring to “students,” “harassers,” “victims,” and characterizing
complainants as male or female (“his or her” com-

25a
plaint, name, etc.). Id. at 4. The letter explicitly
stated that Title IX “prohibits gender-based
harassment, which may include . . . hostility
based on sex or sex-stereotyping.” Id. at 3 n.9.4
The letter, aptly characterized as the “nowfamous ‘Dear Colleague’ letter . . . ‘ushered in a
more rigorous approach to campus sexual misconduct allegations’ by defining ‘ “sexual harassment”
more broadly than in comparable contexts’ and
requiring that ‘schools prioritize the investigation
and resolution of harassment claims’ and adopt a
lower burden of proof when adjudicating claims of
sexual misconduct.” Menaker, 935 F.3d at 26 (quoting Doe v. Purdue Univ., 928 F.3d at 668); see also,
e.g., Doe v. Univ. of the Scis., 961 F.3d at 213-14
(discussing potentially ruinous loss of federal funds
that might result from noncompliance with the letter’s requirements); Doe v. Univ. of Denver, 952
F.3d at 1192 (“[A]s other plaintiffs have in recent
years, Plaintiff sets the stage for his Title IX claim
by shining a spotlight on the 2011 Dear Colleague
Letter. . . . .”).
Rossley argues that a reasonable juror could conclude that the letter coerced Drake into pursuing
punitive, one-sided investigations of male respondents in sexual misconduct disciplinary cases. He
argues that the letter’s false statement that one in
five women on campus are victims of sexual assault
led to the establishment of tribunals and proce4
The Department’s current stance regarding the “Dear
Colleague Letter” is set forth in Doe v. University of
Arkansas-Fayetteville, 974 F.3d at 868 n.1.

26a
dures specifically geared to the prosecution of cases
of sexual assaults against women. Whatever the
validity of Rossley’s allegation that the letter’s statistics are inaccurate, his argument ignores the letter’s data that both men and women have been
victims of campus sexual assault, as well as the letter’s use of gender-neutral language. We thus do
not accept Rossley’s argument that, influenced by
the “Dear Colleague” letter’s in terrorem effect,
Drake “did not attend to what is required for fairness to male respondents.” Appellant’s Brief 53. We
instead affirm the district court’s grant of summary judgment on Rossley’s Title IX claim. In so holding, we note that the pressure that was being put
on Drake to investigate and adjudicate IX complaints by females against males does not appear to
have approached that described in Doe v. University of Arkansas-Fayetteville, 974 F.3d at 865, nor
was it combined with the clearly irregular investigative and adjudicative processes that were found
to support a prima facie claim of sex discrimination
in Doe v. Columbia University, 831 F.3d at 56-57,
and in Menaker, 935 F.3d at 34-37.
Rossley argues that the district court erred
granting summary judgment on his claim that
Drake failed to accommodate his ADHD, dyslexia,
and word-retrieval issues during the investigation,
disciplinary hearing, and appeals hearing. Title III
of the ADA “prohibit[s] public accommodations
from discriminating against individuals because of
their disabilities.” PGA Tour, Inc. v. Martin, 532
U.S. 661, 681-82, 121 S.Ct. 1879, 149 L.Ed.2d 904
(2001); see also 42 U.S.C. § 12182(a).

27a
[I]n the higher education context, a person
alleging a failure to accommodate under Title
III . . . must show (1) that the plaintiff is disabled and otherwise qualified academically,
(2) that the defendant is a private entity that
owns, leases or operates a place of public
accommodation . . . , and (3) “that the defendant failed to make reasonable modifications
that would accommodate the plaintiff’s disability without fundamentally altering the
nature of the public accommodation.”
Mershon v. St. Louis Univ., 442 F.3d 1069, 1076
(8th Cir. 2006) (quoting Amir v. St. Louis Univ.,
184 F.3d 1017, 1027 (8th Cir. 1999)). Drake does
not dispute that Rossley can establish the first two
elements of a Title III claim. Rossley, 342 F. Supp.
3d at 936. On the third element, the plaintiff “bears
the initial burden of demonstrating that he
requested reasonable accommodations.” Mershon,
442 F.3d at 1077. Additionally, the plaintiff must
“explain how each requested accommodation was
necessary to enable him to participate in light of
his disabilities.” Id. Drake argues that Rossley
failed to produce evidence that he—or anyone on
his behalf—adequately requested an accommodation for his disabilities during the disciplinary
process.
To accommodate Rossley’s dyslexia, ADHD, and
word-retrieval difficulties, Drake had previously
provided him “time and a half” for exams, as well
as other accommodations “var[ying] from class to
class” based on his discussions with professors.

28a
Rossley alleges that he had made Sirna, McKinney,
Foxhoven, and Parker aware of his disabilities.
Rossley concedes, however, that neither he nor his
representative explicitly requested that he be provided accommodations during the disciplinary
process. He instead alleges that legally sufficient
requests were made (1) constructively, because
Drake was aware of his academic accommodations,
which he mentioned during the hearing, and (2) infact, when his father asked a university official to
accommodate those disabilities.
Rossley relies on Nathanson v. Medical College of
n Pennsylvania, 926 F.2d 1368, 1382-83 (3d Cir.
1991), and Redding v. Nova Southeastern University, Inc., 165 F. Supp. 3d 1274, 1293-94 (S.D. Fla.
2016), in support of his constructive-notice argument. In Nathanson, the court determined that
plaintiff had shown that she had requested a specific kind of chair to accommodate her disability.
926 F.2d at 1382. In Redding, the plaintiff made
a specific, albeit informal request for accommodation. 165 F. Supp. 3d at 1296. Here, however,
Rossley made no specific request, formal or informal, for an accommodation.
Rossley argues that Mershon v. St. Louis University does not foreclose his constructive notice argument. Mershon nonetheless requires a plaintiff to
connect a request to the stated disability by
explaining “how each requested accommodation
was necessary to enable him to participate in light
of his disabilities.” 442 F.3d at 1077. Rossley’s
requests for extra time during the disciplinary
hearing “were consistently raised as an issue of

29a
procedural fairness.” Rossley, 342 F. Supp. 3d at
937. Rossley’s demand that he “deserved time and
a half for anything and everything” or “double anything” did not “explain how each requested accommodation was necessary to enable him to
participate in light of his disabilities.” Mershon,
442 F.3d at 1077. Rossley thus failed to connect his
demands to his disability, nor did he allege that he
could not participate effectively in the disciplinary
proceedings without those accommodations.
Rossley argues that his father requested reasonable accommodations during his December 2015
phone call with Dean Parker. Putting aside the
question whether third-party requests are cognizable, Rossley’s father did not request any specific
accommodation and did not explain how an accommodation would enable Rossley to better participate in the hearings. We therefore affirm the
district court’s ruling that no genuine issue of
material fact existed regarding Rossley’s need for
accommodations.
We have considered Rossley’s argument that the
district court erred in granting summary judgment
on his breach of implied duty of good faith and
promissory estoppel claims and conclude that it did
not err in ruling as it did.
We affirm the district court’s grant of summary
judgment in favor of Drake and remand with
instructions to dismiss with prejudice the claims
that had previously been dismissed without prejudice by stipulation.

30a
UNITED STATES DISTRICT COURT,
SOUTHERN DISTRICT IOWA, CENTRAL DIVISION.
No. 4:16-cv-00623-RGE
Signed October 12, 2018
Thomas ROSSLEY, Jr.,
Plaintiff,
v.
DRAKE

DRAKE UNIVERSITY and
UNIVERSITY Board of Trustees,
Defendants.

David Harris Goldman, Phillip F. Van Liew,
Babich Goldman, P.C., Des Moines, IA, Andrew T.
Miltenberg, Diana R. Warshow, Pro Hac Vice,
Philip Arwood Byler, Pro Hac Vice, Nesenoff &
Miltenberg, LLP, New York, NY, for Plaintiff.
Frances M. Haas, Nyemaster Goode PC, Cedar
Rapids, IA, Frank B. Harty, Mary E. Funk, Nyemaster Goode PC, Des Moines, IA, for Defendants.

31a
ORDER RE: DEFENDANTS’ MOTION
FOR SUMMARY JUDGMENT
Rebecca Goodgame Ebinger, United States District
Judge
I. INTRODUCTION
Plaintiff Thomas Rossley, Jr. brings this suit
against Defendants Drake University and Drake
University Board of Trustees, challenging Defendants’ Title IX investigation that concluded Plaintiff sexually assaulted a female student, and
contesting Defendants’ failure to investigate his
own sexual assault allegations. Plaintiff asserts
Defendants violated both Title IX of the Education
Amendments Act of 1972 and the Americans with
Disabilities Act (ADA). Plaintiff also brings state
law claims alleging breach of contract, breach of
the covenant of good faith and fair dealing, and
estoppel.
Defendants move for summary judgment on all of
Plaintiff’s claims, asserting: 1) Plaintiff has not
identified any genuine issues of material fact showing gender was a motivating factor in the disciplinary process; 2) Plaintiff did not request a
reasonable accommodation and thus cannot bring
an ADA claim; and 3) Plaintiff has not shown
Drake violated any promise or contractual provisions contained in its Code of Conduct or Sexual
Misconduct Policy. The Court grants Defendants’
motion for summary judgment as to Plaintiff’s Title
IX claim regarding Plaintiff’s erroneous outcome

32a
and deliberate indifference theories, but denies
Defendants’ motion for summary judgment on
Plaintiff’s Title IX claim regarding Plaintiff’s selective enforcement theory. The Court grants Defendants’ motion for summary judgment as to
Plaintiff’s Americans with Disabilities Act claim.
As for Plaintiff’s state law claims, the Court first
determines Plaintiff’s estoppel and breach of
covenant of good faith and fair dealing claims are
subsumed by his breach of contract claim. The
Court denies Defendants’ motion for summary
judgment on some but not all of Plaintiff’s alleged
breaches of contract. The Court also dismisses
Plaintiff’s claim of negligent infliction of emotional
distress because Plaintiff does not resist Defendants’ motion for summary judgment on this claim.
II. FACTUAL & PROCEDURAL
BACKGROUND
The following facts are either uncontested or, if
contested, viewed in the light most favorable to
Plaintiff. See Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587–88, 106 S.Ct. 1348,
89 L.Ed.2d 538 (1986); Munz v. Michael, 28 F.3d
795, 796 (8th Cir. 1994).
A. Drake’s Code of Conduct & Sexual
Misconduct Policy
Two documents govern sexual assault investigations and discipline at Drake: the Code of Student
Conduct (“the Code”) and the Sexual and Interpersonal Misconduct Policy and Notification of Com-

33a
plainant’s Rights (“the Policy”). Defs.’ Suppl. App.
Supp. Defs.’ Mot. Summ. J. at APP. 099–132, 133–
51, ECF No. 137. The Code addresses various forms
of academic and non-academic misconduct. Id. at
APP. 102–03. The Policy specifically addresses
Drake’s “policies and procedures related to [s]exual
and [i]nterpersonal [m]isconduct” and is meant to
ensure those policies are “interpreted and applied
consistently with Title . . . IX . . . and other applicable law.” Id. at APP. 133. Additionally, the Policy
is “intended to notify victims/survivors of their
rights and resources that are available to them
when [s]exual or [i]nterpersonal [m]isconduct
occurs.” Id.
“Sexual assault” is defined in the Code and Policy
as “an extreme form of sexual misconduct ranging
from forcible rape to nonphysical forms of pressure
that compel individuals to engage in sexual activity
against their will.” Id. at APP. 111, 134. “The term
‘consent,’ in the context of sexual activity, means
by clear, unambiguous action, agreeing, giving permission or saying yes to sexual activity with someone else . . . an individual cannot give consent if
incapacitated from doing so due to the influence of
drugs, alcohol, or other condition.” Id. at APP. 105;
see also id. at APP. 134. Neither the Code nor the
Policy defines “incapacitation.” When there is no
consent, “[s]exual intercourse (vaginal, anal, oral)”
and “[o]ral sex,” among other conduct, constitute
sexual assault. Id. at APP. 111–12, 134. Additionally, “[e]ngaging in sexual activity with a person
who is unable to provide consent due to the influence of drugs, alcohol, or other condition” is consid-

34a
ered sexual assault. Id. The Code states Drake students “acknowledge[ ] the right of the University to
initiate disciplinary procedures when an allegation
or a complaint of non-academic misconduct is made
and to impose disciplinary sanctions when it has
been determined that non-academic misconduct
has occurred.” Id. at APP. 103. Such discipline may
include expulsion from the University. Id.
In cases of alleged non-academic misconduct,
“[a]ny student, student organization, faculty member or staff member may initiate a complaint
against a student or student organization . . . by
contacting the Dean of Students office or Title IX
Coordinator in the case of alleged sexual misconduct.” Id. at APP. 116. “Alternatively, the Dean of
Students office may initiate a complaint on his or
her own initiative, in which case the Dean/designee
will be considered the complainant.” Id. Under the
Policy, “[a]ny University employee who is not
statutorily prohibited from doing so . . . who
becomes aware of [s]exual or [i]nterpersonal
[m]isconduct should bring the information to the
Title IX Coordinator/Equity and Inclusion Policy
Specialist, Dean of Students, or the Director of
Human Resources.” Id. at APP. 138.
Following a report of alleged sexual misconduct,
the Dean of Students will conduct an investigation
into the complaint. Id. at APP. 116–17.1 The indi1
The Policy governs conduct of students, employees, and
certain third parties. ECF No. 137 at APP. 134. If the Policy
is invoked in a complaint against a student, the Policy
instructs that the procedures outlined in the Code govern the
investigation and adjudication process. Id. at APP. 138.

35a
viduals responsible for coordinating and investigating the complaint “receive special training or have
experience in (1) handling complaints of sexual
and/or interpersonal misconduct; and (2) applicable
confidentiality requirements.” Id. at APP. 131.
Both the complainant and respondent are advised
they may have a personal advisor present “at any
stage of the process.” Id. at APP. 138. Following the
investigation, the Dean of Students or his designee
may initiate formal disciplinary proceedings if he
has a “reasonable belief that the charge . . . can be
proven by a preponderance of the evidence.” Id. at
APP. 117; see also id. at APP. 119–20 (setting forth
disciplinary hearing process). “A preponderance of
the evidence exists when it is more likely than not,
or the greater weight of the evidence suggests, a
violation occurred.” Id. at APP. 106.
At the disciplinary hearing, a hearing officer
must determine “(1) whether a preponderance of
the evidence establishes the accused student
engaged in non-academic misconduct; and (2) recommended disciplinary sanction(s), if any.” Id. at
APP. 121. All of the University’s evidence against
the accused will be presented by the Dean of Students or his designee. Id. Each party’s personal
representative may only provide counsel and advice
and is otherwise prohibited from “advocat[ing] or
tak[ing] an active role in the hearing.” Id. at APP.
121–22. However, a personal representative who is
an attorney “may make an opening statement, a
closing statement and may present written questions to be read by the hearing officer to a witness.”
Id. at APP. 122. The hearing officer is not required

36a
to read any written questions he determines “to be
inappropriate or irrelevant.” Id.
During the hearing, “[t]he accused, the complainant and the Dean/designee may call witnesses,
conduct cross-examination, and may answer any
evidence presented by others through rebuttal.” Id.
Following the hearing, the hearing officer will provide a written decision to the complainant, respondent, and Dean of Students detailing the hearing
officer’s decision and any associated sanctions. Id.
at APP. 123.
If a respondent is found to be responsible for sexual misconduct, the respondent, complainant, or
the Dean of Students may appeal the decision or
sanctions in writing. Id. Following notice of an
appeal, the parties can submit a written response.
Id. at APP. 123–24. A party may request a hearing
before the appeals council. Id. at APP. 125. The
appeals council will then “meet with the appealing
and responding parties (and their personal representatives, if any).” Id. at APP. 124–25. “[A]n
appeal is limited to a review of the record from the
disciplinary hearing, the notice(s) of appeal and the
response(s).” Id. at APP. 124. After reviewing the
applicable materials, the appeals council may dismiss the appeal, affirm the hearing officer’s determination, or reverse the previous decision. Id. at
APP. 125. If the President concurs with the council’s findings, “the Dean/designee shall have the
authority to impose the sanction of expulsion.” Id.
at APP. 126. “Only the President of the University
may recommend readmission of a student who has
been expelled.” Id.

37a
B. Factual Background
Plaintiff is a former student of Defendant Drake
University, a private university located in Des
Moines, Iowa. Am. Compl. ¶¶ 5–6, ECF No. 46; Pl.’s
Resp. Defs.’ Statement Undisputed Material Facts
¶¶ 1–2, ECF No. 111-2. Defendant Drake University
Board of Trustees is Drake’s governing body. ECF
No. 46 ¶ 7; ECF No. 111-2 ¶ 2.
In the fall of 2015, Jerry Parker was the acting
Dean of Students. ECF No. 111-2 ¶ 3; Defs.’ App.
Supp. Defs.’ Mot. Summ. J. at APP. 041, Parker
Dep. 14:1–22, ECF No. 103. In the spring of 2016,
Parker was the Associate Dean of Students, acting
as the Dean’s designee for the disciplinary proceeding against Plaintiff. Id. In these positions, Parker
was responsible for enforcing Drake’s Code of Conduct. ECF No. 111-2 ¶ 3; Parker Dep. 164:8–10,
ECF No. 103 at APP. 049. Kathryn Overberg was
Drake’s Title IX Coordinator and her duties included overseeing Defendants’ response to complaints
of sexual misconduct. ECF No. 111-2 ¶ 4; see Overberg Dep. 16:21–17:2, ECF No. 103 at APP. 025.
Overberg began working in her position shortly
after the female student known to the Court as
Jane Doe filed her complaint of sexual misconduct
against Plaintiff. See Parker Dep. 40:22–41:1, ECF
No. 103 at APP. 042.
1.

Plaintiff’s Disabilities

Plaintiff suffers from a mild form of dyslexia,
ADHD, and word-retrieval issues. Defs.’ Resp. Pl.’s
Statement Material Facts ¶ 1, ECF No. 133; see

38a
Pl.’s Dep. 129:1–9, 172:20–173:4, ECF No. 103 at
APP. 009, APP. 014–15; Pl.’s Sealed App. Supp.
Pl.’s Resp. Defs.’ Mot. Summ. J. at APP. 775–76,
Hr’g Tr. 218:17–219:12, ECF No. 118-8. Due to his
disabilities, Plaintiff regularly requested and
received academic accommodations through Drake’s
Disability Services. See Pl.’s Dep. 169:16–170:24,
ECF No. 103 at APP. 014; Defs.’ Br. Supp. Mot.
Summ. J. 27–28, ECF No. 104. Although Plaintiff
was generally awarded “time and a half” for exams,
the accommodations he requested and utilized
“varie[d] class to class.” Pl.’s Dep. 170:6–14, ECF
No. 103 at APP. 014. In order to secure accommodations, Plaintiff met with each professor individually to determine what accommodations were
necessary. Pl.’s Dep. 169:23–170:5, ECF No. 103 at
APP. 014. Due to his word-retrieval disability,
Plaintiff was often permitted to refer to written
notes during oral presentations rather than doing
the presentations by memory. Pl.’s Dep. 171:2–15,
ECF No. 103 at APP. 014.
1.

The Report & Investigation

On the morning of October 9, 2015, Jane Doe, a
female Drake student, contacted Drake Public
Safety reporting she had been sexually assaulted
by Plaintiff. See App. Supp. Defs.’ Mot. Summ. J. at
APP. 155, ECF No. 103-1 (noting in Drake University Public Safety Report “Incident Discovered/
Called In” at 10:21 a.m. on October 9, 2015). Jane
Doe explained the previous night she had consumed a large amount of alcohol and had accompa-

39a
nied Plaintiff, who she considered a friend, to his
fraternity house, Theta Chi. Id. at APP. 172. Jane
Doe stated she “blacked out for an unknown
amount of time” after they arrived. Id. She
explained that, the next thing she remembered was
that she was on a bean bag chair and Plaintiff was
on top of her having sexual intercourse with her.
Id. Jane Doe reported Plaintiff was wearing a condom. Id. Jane Doe stated she told Plaintiff to stop
but he refused. Id. When she explained she was
going to be sick, he stopped and let her go to the
bathroom. Id. Jane Doe reported she did not get
sick at that time but instead left Theta Chi and
went to a friend’s house in the area. Id. Jane Doe
did not file a report with the police but, per the Policy, Drake University Public Safety filed a case
report with the Dean of Students. See id. at APP.
155; ECF No. 137 at APP. 138 (“Reports to Campus
Public Safety . . . will automatically be referred to
. . . the Dean of Students . . . , who will follow up
for further processing.”).
The same day Jane Doe filed her report with
Drake University Public Safety, the Dean of Students’ Office sent Plaintiff an email with a letter
informing him about the complaint. ECF No. 103-1
at APP. 152–53. The letter provided Jane Doe’s
name and noted the section of the Code of Conduct
the complaint was filed under. Id. It also explained
two “interim provisions” prohibiting Plaintiff from
contacting Jane Doe or retaliating against her for
filing the complaint. Id. at APP. 152. The letter
also listed the University Counseling Center as an
available service. Id. at APP. 153. Finally, Plaintiff

40a
was informed he would need to attend a laterscheduled meeting and that he was permitted “to
bring a personal representative to this meeting.”
Id. at APP. 152.
At the time Jane Doe filed her complaint, Parker
was ill and thus could not conduct the investigation
himself. Overberg Dep. 65:25–66:6, ECF No. 103 at
APP. 027–28; Parker Dep. 39:5–24, ECF No. 103 at
APP. 042. Consequently, Drake hired an outside
investigator, Mary Howell Sirna, to serve as the
lead investigator. Parker Dep. 39:14–24, ECF No.
103 at APP. 042; ECF No. 111-2 ¶ 041. At the time
she was appointed to investigate Jane Doe’s complaint, Sirna was serving as Iowa State University’s interim Title IX coordinator. Sirna Dep.
9:12–10:5, ECF No. 103 at APP. 054–55. Prior to
working at Iowa State University, Sirna served as
a prosecutor for thirteen years and prosecuted
crimes of sexual violence. Sirna Dep. 8:14–23, ECF
No. 103 at APP. 054; ECF No. 111-2 ¶ 42. She had
received training on handling student complaints
of sexual assault. Sirna Dep. 18:2–21:24, ECF No.
103 at APP. 056. Sirna was paired with Tricia
McKinney, Drake’s Assistant Director of Public
Safety, to conduct the investigation. McKinney had
also received training on how to handle sexual
assault complaints. See McKinney Dep. 14:16–
15:16, ECF No. 103 at APP. 097.
According to the investigative report Sirna and
McKinney produced, on October 14, 2015, Parker
met with Plaintiff to discuss Jane Doe’s complaint
and the investigative process. ECF No. 103-1 at
APP. 185. Parker discussed “internal and external

41a
resources” available to Plaintiff, Jane Doe’s ability
to bring criminal charges, and Plaintiff’s right to
“have a personal representative of his choosing to
attend any and all meetings throughout the disciplinary process.” Id. Parker also met with Jane Doe
that day and discussed the same topics. Id.
On October 23, 2015, Sirna and McKinney interviewed Jane Doe. Id. at APP. 188. Jane Doe
explained that, although she and Plaintiff had
never interacted one-on-one, they had mutual
friends and had each other’s cell phone numbers.
Id. Jane Doe stated she believed Plaintiff was
attracted to her and that he often texted Jane Doe
to invite her to hang out with him or visit him at
Theta Chi, which Jane Doe described as “annoying.” Id. at APP. 188–89. Jane Doe explained that
on the night of October 8, 2015, she had attended a
party at the Pi Kappa Phi fraternity house from
approximately 9:30 p.m. to midnight. Id. at APP.
189. She attended the party with her friend, Student M, and consumed alcohol. Id.; see also Sealed
Joint Suppl. App., ECF No. 134 (providing a reference key for the names of students and witnesses).2
Although Jane Doe could not remember the exact
number of drinks she had consumed, “[s]he
described herself as getting tired and noticing she
was stumbling.” ECF No. 103-1 at APP. 189. Following the house party, Jane Doe went to Peggy’s
Tavern, a nearby bar, with Witness C, Student O,
2
The Court uses this key throughout this Order and,
when necessary, replaces the names of witnesses and students with their identifying letters. See ECF No. 134.

42a
and Witness E. Id. When interviewed by Sirna and
McKinney, the students with Jane Doe at Peggy’s
Tavern reported that she was noticeably drunk. Id.
at APP. 201, 204. Jane Doe stated she only had
“flashes of memories” at Peggy’s Tavern and
believed she had only one rum and Coke drink
while there. Id. at APP 189. Witness F worked as a
bartender at Peggy’s Tavern that night and
informed the investigators that she had refused to
serve Jane Doe because of Jane Doe’s level of intoxication. Id. at APP. 205–06.
After Peggy’s Tavern, Jane Doe went to Drake
Bakery Café and Bar, a nearby restaurant, where
she first interacted with Plaintiff. Id. at APP. 189.
Although she described herself as “pretty drunk,”
she told investigators she believed Plaintiff was
sober because he offered to drive her home. Id. Witness C told investigators he observed Plaintiff with
his arm around Jane Doe and that they were “talking close.” Id. at APP. 201. Witness C stated Jane
Doe was “by far in worse shape” than Plaintiff and
recalled seeing Jane Doe holding onto Plaintiff
while she stumbled. Id. at APP. 201. Witness C
described Plaintiff as walking straight. Id. Witness
A, a bartender at Drake Bakery, told investigators
he believed both Plaintiff and Jane Doe were drinking but could not recall any signs that they were
impaired. Id. at APP. 197. Witness A stated Plaintiff and Jane Doe appeared “flirty and were laughing and touching but not groping.” Id. at APP. 198.
Jane Doe stated she then recalled getting into
the backseat of a car and telling Plaintiff to take
her home because she was drunk. Id. at APP. 189.

43a
Witness B later told investigators that he was
responsible for driving the “sober cab” on the night
of October 8, 2015, to transport intoxicated fraternity brothers home. Id. at APP. 198. Witness B
stated that after receiving a call from Plaintiff at
approximately 1:15 a.m., Witness B picked up Jane
Doe and Plaintiff. Id. Witness B explained that
when he asked where they wanted to go, Jane Doe
stated she wanted to go to Theta Chi. Id. at APP.
198–99. Jane Doe told investigators she recalled
Plaintiff attempting to kiss her and that she told
him she “did not like [him] like that.” Id. at APP.
189. Witness B stated both Jane Doe and Plaintiff
appeared drunk and that “[s]he may have been a
little more drunk than him.” Id. at APP. 199. When
asked about Plaintiff’s level of intoxication, Witness B explained, “He was drunk. He was not belligerently hammered. He was not vomiting.” Id.
When they arrived at Theta Chi, Jane Doe told
Plaintiff she felt ill and ran into the Theta Chi
house. Id. at APP. 189. Witness B stated he
“noticed the girl falling” when she exited the car.
Id. at APP. 199. Another student, Witness L, told
investigators she had observed a woman being
pulled into Theta Chi that evening and that “the
guy was pulling her into the house” while the “girl
was stumbling over herself.” Id. at APP. 219. Witness L stated Plaintiff was walking straight,
“seemed sober,” and was pulling the woman “a distance behind him.” Id.
Jane Doe told investigators she recalled vomiting
in the second floor bathroom after she entered
Theta Chi. Id. at APP 189. After realizing she did

44a
not have her purse, she left the bathroom to look
for Plaintiff, at which point “everything [went]
black.” Id. at APP. 190. Meanwhile, at Pi Kappa
Phi, where Jane Doe began her evening, Witness
E, a student who met Jane Doe at Pi Kappa Phi
earlier that night, told investigators Witness C
approached her and stated he had “lost” Jane Doe
and that she had left “with some random guy from
Theta Chi.” Id. at APP. 204. Witness E, Witness C,
and Student O then went to Theta Chi, where they
were informed that a drunk woman was upstairs
vomiting. Id. Witness E stated she entered the
bathroom stall to check on Jane Doe. Id. at APP.
204–05. According to Witness E, Jane Doe was visibly impaired but still able to converse. Id. at APP.
205. When Witness E asked Jane Doe whether she
needed assistance, Jane Doe stated Plaintiff would
take her home. Id. Witness E then told Plaintiff,
who had entered the bathroom, that he should take
Jane Doe home when she was feeling better. Id.
According to Witness E, Plaintiff was packing a
bowl of marijuana, “was responsive to questions
and didn’t seem that drunk or messed up.” Id. Witness C told investigators that when Witness E and
Student O came back downstairs, they stated Jane
Doe was “pretty drunk” and that Plaintiff had
agreed to take her home. Id. at APP. 202. Witness
E, Witness C, and Student O then left Theta Chi
and returned to Pi Kappa Phi. Id. According to Witness C, on the way back to Pi Kappa Phi, Witness
E told him “I don’t know of anyone who’s a monster
enough to have sex with someone . . . like that.”
Id.

45a
Jane Doe told investigators after she had vomited in the bathroom, she was “fairly certain [she]
passed out” due to alcohol consumption. Id. at APP.
190. Jane Doe explained she then woke up to Plaintiff “on top of [her] and assaulting [her]” in his
room. Id. She stated half of her body was on a beanbag chair and half was on the floor. Id. Jane Doe
reported her pants were unbuttoned and pulled
down and that she was still wearing her underwear
but it had been “pushed to the side.” Id. Jane Doe
told investigators she told Plaintiff to stop, at which
point Plaintiff stated, “Fine. I’ve got whiskey dick
anyway.” Id.3 Jane Doe told Plaintiff she needed to
leave because she was going to be sick. Id.
Jane Doe explained that after exiting Plaintiff’s
room and entering the bathroom, Jane Doe texted
Witness I asking if she could sleep on his couch. Id.
When Jane Doe did not receive a response from
Witness I, Jane Doe walked to Witness I’s house,
which was close to Theta Chi. Id. at APP. 191.
When Jane Doe entered Witness I’s house, she
woke up Student P by jumping on him. Id. Student
P told Jane Doe she was “drunk” and asked her to
get out of his room. Id. Jane Doe explained she
then went to Witness I’s room, where she got into
bed with him, removed her shirt, and began kissing
him. Id. She did not tell Witness I what had happened with Plaintiff. Id. When interviewed, Wit3

The Court understands “whiskey dick” to be slang for
an individual’s inability to maintain an erection due to alcohol consumption. See ECF No. 46 ¶ 90; ECF No. 103-1 at APP
190.

46a
ness I told investigators Jane Doe appeared intoxicated, but not “overly intoxicated” and that there
was nothing unusual about her appearance. Id. at
APP. 211. Witness I explained they talked for
about two or three hours and Jane Doe only said
she felt “weird around [Plaintiff]” and that “[Plaintiff] was being weird.” Id. at APP. 211–12. At
approximately 6:45–7:00 a.m. that morning, Jane
Doe performed oral sex on Witness I and then left.
Pl.’s Sealed App. Supp. Pl.’s Resp. Defs.’ Mot.
Summ. J. at APP. 493, ECF No. 118-5.4 At 3:59
a.m., Plaintiff texted Jane Doe and asked “Make it
back?”, to which Jane Doe responded, “Yeah I’m
good thx babe.” ECF No. 126-1 at APP. 181.001.
After returning to her apartment, Jane Doe told
investigators, she requested Student M, Witness C,
and Student Q come to her apartment in order to
recreate the events of the previous night. ECF No.
103-1 at APP. 191. After discussing the evening
4

Witness I’s statement regarding his sexual encounter
with Jane Doe was in the original investigative report Sirna
filed with Parker. See Sirna Dep. 147:16–148:8, ECF No. 1185 at APP. 451; compare ECF No. 118-5 at APP. 493, with
Overberg Dep. 128:5–20, ECF No. 103 at APP. 35. Overberg
stated a request was made by Jane Doe to redact that information from the original report. Overberg Dep. 129:5–15,
ECF No. 103 at APP. 35. Plaintiff had also requested comments about his father and additional “gossip” regarding that
night be redacted. Overberg Dep. 99:6–24, 128:25–129:3, ECF
No. 103 at APP. 32, 35. Both Plaintiff and Jane Doe’s
requests were followed. Id. The report that was ultimately
submitted to Jerry Foxhoven, the hearing officer, during the
disciplinary hearing did not include the redacted information.
Parker Dep. 130:5–25, ECF No. 103 at APP. 48.

47a
with them, Jane Doe contacted Drake Public Safety
and filed a report against Plaintiff. Id. Jane Doe
then went to Mercy Hospital, where she received a
preliminary exam. Id. Jane Doe told investigators
she began “freaking out” at Mercy, began doubting
herself, and thought: “ ‘[w]hat am I doing?’, ‘[w]hat
if I did consent?’, ‘[w]hat if I’m wrong?’, ‘[w]hat if I
made a mistake?’ ” Id. Jane Doe then declined to
take a forensic sexual exam. Id. When asked about
her doubts, Jane Doe reiterated to investigators
that she did not recall giving consent to Plaintiff
nor did she believe she was capable of giving consent. Id. Jane Doe explained she had retained her
underwear from the night of the assault and that
she had noticed blood stains on her underwear. Id.
Jane Doe agreed to provide a medical release to the
investigators, if necessary. Id. Sirna later stated
that Jane Doe’s medical record and underwear
were not available to her during the investigation.
Sirna Dep. 143:11–16, ECF No. 103 at APP. 066.
On October 23, 2015, investigators interviewed
Plaintiff. Plaintiff did not bring a personal representative and later stated he had not finished reading the email he was sent regarding Jane Doe’s
complaint, which stated he could do so. See Pl.’s
Dep. 176:23–177:14, ECF No. 103 at APP. 015–16.
During the interview, Plaintiff explained he was
friends with Jane Doe and they texted each other,
but they had not “hung out one-on-one.” ECF No.
103-1 at APP. 192–93. Plaintiff reported on the
night of October 8, 2015, he had an assignment
due. Id. at APP. 192. Due to his ADHD and dyslexia, he took Adderall to focus. Id. After he completed

48a
the assignment, Plaintiff explained, he began playing a drinking game with friends, during which he
drank approximately six beers within thirty or
forty-five minutes. Id. He described himself as
“pretty drunk.” Id. Plaintiff explained when he
mixes Adderall and alcohol, he remains sober
longer but then the alcohol “hits him” and his
blackouts are more severe. Id. at APP. 193. However, Plaintiff stated he “still functions during a
blackout.” Id. Plaintiff told investigators he also
experiences a decreased sex drive when he takes
Adderall. Id.
Plaintiff explained, following the drinking game,
he and his friends went to Drake Bakery, where he
had additional drinks. Id. Witness A, a bartender
at Drake Bakery, told investigators he recalled
serving Plaintiff multiple drinks. Id. at APP. 197.
Plaintiff told investigators he remembered Jane
Doe entering Drake Bakery and believed he was
“more drunk tha[n] she was.” Id. at APP. 193.
Plaintiff explained Jane Doe acted in a “flirty way”
toward him and that when he asked if she wanted
to leave, she agreed. Id. Plaintiff then called the
“sober cab,” which arrived at around 1:12 a.m. Id.
Plaintiff reported that although he could not
remember getting into or out of the car, Witness B
told him later that he and Jane Doe were “making
out.” Id. Plaintiff could not tell investigators who
decided to go to Theta Chi. Id.
Plaintiff told investigators he recalled going to
his room with Jane Doe after arriving at Theta Chi.
Id. at APP. 194. Plaintiff stated two fraternity
members, Witness G and Witness H, were playing

49a
video games in his room. Id. Plaintiff explained he
then began to black out. Id. Witness G confirmed
Plaintiff and Jane Doe arrived at Plaintiff’s room
that evening, but stated he did not see Jane Doe
walk or talk at that time. Id. at APP. 207. Witness
G told investigators Plaintiff appeared pretty
drunk and was “tipping a little bit.” Id. He also
stated Plaintiff appeared “zoned out.” Id. Witness
H stated he was playing video games in Plaintiff’s
room and noted Jane Doe had slurred speech. Id. at
APP. 209. When asked about Plaintiff’s intoxication, Witness H said he did not have an opinion. Id.
Plaintiff stated he next recalled Jane Doe performing oral sex on him in his car, which was
parked outside the Theta Chi house. Id. at APP.
194. He was only aware of this for fifteen to twenty
seconds before blacking out again. Id. He reported
he did not believe he ejaculated “because [he] can’t
get stimulated” while drinking. Id.
Plaintiff’s last memory involving Jane Doe was
waking up and finding Jane Doe standing on a
chair next to Plaintiff’s loft bed. Id. He stated he
had no idea how he had gotten onto his loft bed. Id.
Plaintiff reported to investigators he was not concerned about Jane Doe’s state of intoxication
because the chair she was standing on was mesh
and therefore difficult to stand on when the person
was sober. Id. at APP. 179–80. When investigators
asked whether anything physical or sexual had
occurred in his bed, he stated he only remembered
Jane Doe kissing him good night and leaving. Id. at
APP. 194. Plaintiff told investigators he did not
recall having any sexual intercourse with Jane Doe

50a
that night. Id. at APP. 195. He did not remember
Jane Doe appearing sick at any time during the
evening. Id. When asked about his own intoxication
level, Plaintiff explained: “I was not in a state to be
with her” and “I was not able to give consent that
night.” Id. Plaintiff reported Jane Doe was “not as
bad as [he] was.” Id. He stated he was “confused
about the situation” and said: “I don’t know what
happened. I don’t know if we had sex.” Id. He also
explained because of a back injury, he usually
experiences pain after having intercourse, but that
on the morning of October 9, 2015, his back was not
sore. Id. He stated he did not wake up until 12:30
p.m. the afternoon after the alleged assault, and
thus missed his shift at work. Id. Finally, Plaintiff
explained Witness I had told him that, when Jane
Doe came into Witness I’s room, she was “bitching
because you [Plaintiff] couldn’t cum.” Id. at APP.
196. Plaintiff was informed about resources on
campus, including the counseling center. Id.
The investigators also interviewed Plaintiff’s
roommate, Witness J, who was present in his dorm
room during the alleged assault. Both Witness G
and Witness H described Witness J as being intoxicated the night of October 8, 2015. See id. at APP.
207, 209. However, Witness J told investigators he
had not consumed any alcohol or marijuana that
evening. Id. at APP. 212. Witness J explained he
initially went to sleep and remembered Plaintiff
and a “girl” walking into the room. Id. at APP. 213.
He then went back to sleep. Id. Witness J stated
that, approximately 15 minutes later, he heard
“them” get down from Plaintiff’s bed, based on the

51a
sound of Plaintiff’s ladder. Id. Witness J explained
he did not hear anything indicative of people having sex. Id. Witness J also explained Plaintiff knew
he was in the room and never asked him to leave.
Id. Witness J stated when he left to get some
water, he saw Jane Doe in the stall of a bathroom
and observed Plaintiff in the bathroom outside the
stall. Id. at 213. Once he was sure Jane Doe was
taken care of, he returned to the room and went to
bed. Id. The investigators interviewed Witness J a
second time because they believed “Witness J was
being less than forthcoming.” Id. at APP 215. Witness J reiterated what he had previously said. See
id. at APP. 215–16.
The investigators also interviewed Witness K, a
member of Theta Chi. Id. at APP 217. Witness K
explained that, on the morning of October 9, 2015,
Student T was making fun of Plaintiff for leaving
Drake Bakery with a girl. Id. Plaintiff then admitted to “hooking up” with the girl and explained he
had “wasted a condom because he couldn’t cum.”
Id.
Following his interview with Sirna and McKinney,
Plaintiff requested a meeting with Parker and
Overberg in November 2015. Overberg Dep. 62:15–
24, ECF No. 103 at APP. 027. During that meeting,
Plaintiff explained that a friend had told him that
since he could not remember part of the evening of
October 8, 2015, and because Jane Doe had performed oral sex on him, perhaps he was a victim as
well. Overberg Dep. 63:6–12, ECF No. 103 at APP.
027. Overberg stated she was unsure why Plaintiff
was telling them this information and wanted to

52a
ensure that whatever information he wanted to
share would be included in the investigative report.
Overberg Dep. 83:18–84:6, ECF No. 103 at APP.
30. In response to Plaintiff’s comments, Overberg
and Parker set up a second interview with the
investigators. Overberg Dep. 85:24–87:8, ECF No.
103 at APP. 030–31. Overberg then emailed Sirna
and McKinney, explaining they should ask Plaintiff
whether he was “sharing this information in
response to the allegations against [him], or [is he]
asking that a conduct charge be filed against [Jane
Doe] for sexual assault?” Id. at APP. 308. Overberg
directed Sirna and McKinney to get the necessary
information from Plaintiff if he was requesting that
a charge be filed against Jane Doe. Id. Additionally,
Overberg explained to Sirna and McKinney that,
although it was likely they could perform an investigation into both claims simultaneously, they “would
need to be sure the investigation into [Plaintiff’s]
charge was complete.” Id.
On November 10, 2015, McKinney met with Plaintiff in person while Sirna joined them on the phone.
Sirna Dep. 134:16–23, ECF No. 103 at APP. 065;
id. at APP. 182. Plaintiff explained to the investigators that a female friend of Plaintiff’s had suggested he had been sexually assaulted, since Jane
Doe had made fun of Plaintiff for not being able to
ejaculate and Plaintiff had no memory of such an
issue. Id. at APP. 220; see Sirna Dep. 134:1–11,
ECF No. 103 at APP. 065. Sirna asked whether
there was any additional information or witnesses
he wanted to provide at that time concerning his
statement, and he responded “I don’t think so.” Id.

53a
at APP. 182, 220. When asked whether he wanted
to file a complaint against Jane Doe, he stated he
did not want to file a conduct charge at the time
and said: “I’m just verbalizing the issue.” Sirna
Dep. 135:5–13, ECF No. 103 at APP. 065; id. at
APP. 182–83. Sirna asked if Plaintiff needed any
additional resources, Plaintiff explained he was
fine. Id. at APP. 183. Plaintiff later stated he had
told the investigators he was not that bothered by
the investigation because “it took me months to be
able to admit that I was a victim.” Pl.’s Dep. 181:4–
11, ECF No. 103 at APP. 017. Plaintiff’s father,
Thomas Rossley, Sr., stated in a declaration that
during a phone call with Parker, Parker stated the
school would not investigate Plaintiff’s alleged
assault because it was a form of retaliation. Pl.’s
Sealed App. Supp. Pl.’s Resp. Defs.’ Mot. Summ. J.
at APP. 1179–80, Rossley, Sr. Decl. ¶ 10, ECF No.
118-13. Plaintiff stated his father told him about
this meeting and Parker’s belief regarding retaliation. Pl.’s Dep. 153:23–154:5, ECF No. 103 at APP.
012.
On December 9, 2015, Sirna submitted the investigative report to Parker. Id. at APP. 184. In the
course of their investigation, the investigators
interviewed twelve witnesses, including Plaintiff
and Jane Doe. Id. Sirna listed nine other students
they had not interviewed and briefly explained why
they had not been questioned. Id. at APP. 186–87.
For instance, Sirna explained Student P, who Jane
Doe had jumped on after leaving Theta Chi, had a
“limited interaction with [Jane Doe].” Id. at APP.
187. Similarly, Student T, who was present during

54a
the conversation between Plaintiff and Witness K
in which Plaintiff is reported to have said he wasted
a condom, “would [have] provided duplicative
statements.” Id. at APP. 186. The investigators
also did not interview Student N, Jane Doe’s exboyfriend, because Jane Doe had asked them not to
contact him and he had not been present that
evening. Id. at APP. 187.
Sirna ultimately determined there was a preponderance of evidence suggesting a sex act had
occurred and the act was not consensual, because
Jane Doe was either unconscious or incapacitated.
Id. at APP. 221–22. Sirna based this determination
largely on six facts: 1) there were no eye witnesses
and Witness J, Plaintiff’s roommate who was
reportedly in the room during the alleged assault,
had limited credibility because there were inconsistent reports about whether he was drinking that
evening; 2) Plaintiff’s claims regarding his lack of
memory were “contradicted by [his] own words to
Witness K . . . when he . . . stated he ‘wasted a
condom because he couldn’t cum’ ”; 3) although
both parties were drinking that evening, multiple
witnesses corroborated Jane Doe’s “impairment
and eventual incapacitation”; 4) neither Witness I
nor Jane Doe stated that Jane Doe had complained
that Plaintiff had been unable to “cum”; 5) if Jane
Doe had made such a comment, “it was likely she
was merely repeating what [Plaintiff] had told her
when she regained consciousness during the assault”
—namely, that he had “whiskey dick”; and 6) there
was little evidence that Plaintiff was incapacitated,
as the witnesses indicated either they had not

55a
formed an opinion about his level of intoxication or
he wasn’t as drunk as Jane Doe. Id. at APP. 222–
24. In the conclusion section, Sirna noted Jane Doe
was largely credible because Jane Doe had made
statements to investigators “against her own interest,” including an admission she had doubted herself at Mercy Hospital and had engaged in sexual
activity with Witness I following the assault. Id. at
APP. 225. Sirna’s report mentions Plaintiff thought
he might also be a victim during his second interview, but the report does not analyze Plaintiff’s
complaint nor does it make any findings about
these allegations. Id. at APP. 184–225.
2.

The Disciplinary Hearing

After reviewing Sirna’s report, Parker determined a disciplinary hearing on the matter was
warranted. Parker Dep. 73:8–15, ECF No. 103 at
APP. 043. Parker emailed Plaintiff in January
2016 to inform him of this decision and discuss the
report. Parker Dep. 95:14–96:4, ECF No. 103 at
APP. 45.
Jerry Foxhoven was serving as Drake’s hearing
officer at the time. Parker Dep. 102:7–21, ECF No.
103 at APP. 046. Foxhoven had received training
regarding sexual misconduct. Foxhoven Dep.
11:18–12:17, ECF No. 103 at APP. 073. Prior to the
hearing, Foxhoven issued a notice to all parties
(Jane Doe, Parker, and Plaintiff) and their representatives explaining Foxhoven would not admit
“any testimony or evidence of the prior sexual conduct or mental health issues of either” Jane Doe or

56a
Plaintiff. ECF No. 137 at APP. 230. Plaintiff’s personal representative, Matt Kaiser, filed a motion
seeking to admit Witness I’s statement that Jane
Doe performed oral sex on him, arguing the ban on
prior sexual conduct did not apply and that Jane
Doe’s actions were “highly probative of her state of
mind on that night and her capacity to consent
mere hours earlier.” ECF No. 103-1 at APP. 299.
Foxhoven permitted Plaintiff to introduce evidence
regarding Jane Doe’s subsequent actions with Witness I to show Jane Doe’s level of intoxication and
thus her ability to consent. ECF No. 137 at APP
231.
Additionally, Foxhoven considered how much
time each party (Jane Doe, Parker, and Plaintiff)
should have to present their arguments during the
hearing. See ECF No. 103-1 at APP. 294. Foxhoven
first gave each party equal time to make closing
and opening arguments. Id. After considering
Plaintiff’s pre-hearing motion, Foxhoven determined both Jane Doe and Parker would each have
five minutes for an opening statement and ten minutes for a closing, while Plaintiff was given ten
minutes for an opening statement and up to twenty
minutes for a closing statement. Id. at APP. 234.
After Parker argued Title IX requires all parties to
be treated equally, however, Foxhoven amended
his earlier decision. Id. at APP. 227. Under the
amended order, Plaintiff and Jane Doe would both
have five minutes for opening argument and ten
minutes for closing argument. Id. Parker was given
five minutes for both his closing and opening statements, although his argument was limited to “any

57a
position that is inconsistent with the position of
[Jane Doe].” Id.
The disciplinary hearing was held on February
12, 2016. ECF No. 103-1 at APP. 236. After Jane
Doe’s personal representative gave her opening
statement, Parker stated during his opening statement that, based on all the evidence available to
the Dean of Students’ Office, the Office “found
[Jane Doe]’s account of this incident as being more
credible” and thus recommended “the appropriate
sanction be expulsion.” Pl.’s Sealed App. Supp. Pl.’s
Resp. Defs.’ Mot. Summ. J. at APP. 570–71, ECF
No. 118-6. During his opening statement, Plaintiff’s personal representative explained “the two
people who were involved were both blackout
drunk.” Id. at APP. 571. During a later portion of
his opening statement, however, Plaintiff’s personal representative argued, based on the timeline of
the evening, “[w]e can know that [Jane Doe] was
not incapacitated by looking at [the] window of 45
minutes . . . incapacitation doesn’t turn on a
dime.” Id. at APP. 575–76. Based on Plaintiff’s personal representative’s statement that both Plaintiff
and Jane Doe were “blackout drunk” during the
events of the evening, Foxhoven amended his previous order regarding the admissibility of Jane
Doe’s actions after she left Plaintiff’s room. See id.
at APP. 596–98. Foxhoven explained because his
order permitting the evidence was premised on the
issue of whether Jane Doe was incapacitated and
Plaintiff’s personal representative’s concession
that Jane Doe was “blackout drunk” made her incapacitation no longer a contested issue, Jane Doe’s

58a
subsequent actions were irrelevant. Id. at APP.
596, 597. Thus, Plaintiff was not permitted to
inquire into Jane Doe’s actions with Witness I or
Student P after leaving his room.
Along with Jane Doe and Plaintiff, eleven witnesses testified at the disciplinary hearing. See id.
at APP. 559–61. All parties engaged in cross-examination. Id. Per the Code and the Policy, Jane Doe
and Plaintiff did not cross-examine each other
directly; rather, Foxhoven read questions each
party had submitted. See id. at APP. 559, 561; ECF
No. 137 at APP. 122. Additionally, Plaintiff’s personal representative questioned Plaintiff on direct
examination. Pl.’s Sealed App. Supp. Pl.’s Resp.
Defs.’ Mot. Summ. J., ECF No. 118-8 at APP. 771;
see also ECF No. 137 at APP. 121–22.
During her testimony, Jane Doe reiterated what
she had previously told the investigators about the
events of October 8 and 9, 2015. See generally ECF
No. 118-6 at APP. 578–611. However, for the first
time, Jane Doe also testified that because she often
experiences pain when she has vaginal intercourse,
she did not believe she would have consented to
having vaginal intercourse with Plaintiff. ECF No.
118-6 at APP. 590. Plaintiff’s personal representative did not submit a question about the pain Jane
Doe experiences during vaginal intercourse for
Foxhoven to ask during Jane Doe’s cross examination. See id. at APP. 611–22 (transcript showing
Foxhoven asked Jane Doe various questions submitted by Plaintiff’s personal representative but
not about the pain Jane Doe experiences during
vaginal intercourse).

59a
Plaintiff called two individuals who had not been
interviewed by Sirna: Student S and Student T. Id.
at APP. 560. No party called Plaintiff’s roommate,
Witness J, who had been present in Plaintiff’s room
that evening. Id. at APP. 559–61. Additionally, no
party called Witness K, who had previously reported
to investigators that Plaintiff had told Witness K
that Plaintiff had wasted a condom on Jane Doe.
Id.; see also ECF No. 103-1 at APP. 217. However,
Plaintiff did call Student T, who was also present
during that conversation. ECF No. 118-6 at APP.
560. Student T testified that, although Plaintiff
confirmed he had “hooked up” with Jane Doe the
previous night, he did not remember Plaintiff ever
saying he had “wasted a condom” on Jane Doe. ECF
No. 118-8 at APP. 751. Plaintiff’s personal representative also did not call Student P, the individual
Jane Doe jumped on after leaving Plaintiff’s room,
although Plaintiff’s personal representative argued
to Foxhoven that investigators should have interviewed Student P in order to establish a timeline
for the evening. Id. at APP. 619, 620.
On February 17, 2016, Foxhoven filed his order
regarding the case. ECF No. 103-1 at APP. 236–46.
Foxhoven determined first “that a preponderance
of evidence supports the fact that vaginal intercourse between [Jane Doe] and [Plaintiff] was
either attempted or completed on the evening in
question. . . . In any event, it is clear that [Plaintiff] touched the genitals of [Jane Doe] on the
evening in question.” Id. at APP. 237. Foxhoven
also noted no one else appeared to be present in the
room during their interaction and “[n]o sexual

60a
exam of [Jane Doe] was completed, resulting in a
lack of definitive evidence of a sexual assault.” Id.
Instead, Foxhoven based his determination on the
fact that although Jane Doe was “not conscious
during the assault,” she awoke to Plaintiff “violating” her, “[h]er pants were off,” Plaintiff stated he
had “whiskey dick,” and that when Jane Doe left
the fraternity house, “walking was painful in a way
that indicated to her that she had been subjected to
vaginal sex.” Id.
Foxhoven also determined “a preponderance of
evidence supports the fact that [Jane Doe] did not
give her consent to the sexual contact in question,”
as she was incapacitated. Id. Foxhoven considered
the following facts in making his decision: 1) Jane
Doe’s testimony that she experiences pain when
having vaginal intercourse and thus does not have
vaginal intercourse unless she is comfortable and
trusts her partner, “[n]one of [which] apply to the
relationship between [Jane Doe] and [Plaintiff]”; 2)
testimony from Witnesses C, F, A, E, L, H, B, and
G as to Jane Doe’s level of intoxication; and 3) the
argument of “[Plaintiff] and his counsel . . . that
both [Plaintiff] and [Jane Doe] were ‘black out
drunk’ on the night in question.” Id. at 237–40.
Foxhoven also noted although Witness H stated
upon initial contact with Jane Doe, he was not
aware of anything that would have led him to
believe Jane Doe was intoxicated, “he further testified that he believed that the complainant was
extremely intoxicated by the fact that she was vomiting.” Id. at APP. 240.

61a
Foxhoven next discussed Plaintiff’s position that
he was also incapacitated in a section entitled
“[Plaintiff]’s Argument of Mitigation.” Id. at APP.
241. As to Plaintiff’s argument “that he was basically ‘blacked-out’ and that, therefore, he should
not be held responsible for his conduct,” Foxhoven
determined Plaintiff’s account lacked credibility.
Id. Rather, Foxhoven concluded although Plaintiff
had been drinking that evening, the evidence
showed he was “clearly more in control of himself
than [Jane Doe]” and was aware of her level of
intoxication. Id. Foxhoven based this determination on: 1) statements from Witnesses C and L and
Student S regarding Plaintiff’s level of intoxication
at Drake Bakery and when entering the fraternity
house; 2) Witness B’s statement that, although
Plaintiff was intoxicated that evening, Jane Doe
was more intoxicated during the sober cab ride; 3)
Witness E’s testimony regarding Plaintiff’s actions
and ability to “pack[ ] a bowl” in the bathroom at
Theta Chi while Jane Doe vomited; 4) Witness H’s
comment that Plaintiff did not seem intoxicated; 5)
Witness G’s testimony that Plaintiff told him he
“had the situation handled” in reference to Jane
Doe’s vomiting; and 6) Plaintiff’s testimony indicating “that he was able to call the ‘sober cab’ ” and
had likely punched in the security code to enter the
fraternity house, although he stated he did not
remember doing so. Id. at APP. 241–43. Foxhoven’s
findings did not address Plaintiff’s complaint that
he did not consent to Jane Doe giving him oral sex
in the car before his alleged assault of Jane Doe.

62a
Based on his findings, Foxhoven recommended
Plaintiff be expelled. Id. at APP. 245. Acknowledging Plaintiff’s personal representative’s request
Plaintiff be permitted to complete his degree,
Foxhoven noted, due to Jane Doe’s level of intoxication, Plaintiff’s knowledge of Jane Doe’s intoxication, and the “particularly aggravating factor” that
the assault occurred after Jane Doe vomited,
Foxhoven recommended expulsion. Id. at APP. 244.
Plaintiff was informed about his right to appeal. Id.
at APP. 245.
3.

Appeals Panel Decision &
Expulsion

On February 29, 2016, Plaintiff’s personal representative filed a timely notice of appeal. Id. at APP.
248–63. Prior to the appeals hearing, the panel
sent all parties a notice explaining the procedure it
would follow at the hearing. ECF No. 137 at APP.
266–68. The panel concluded each party would be
given twenty minutes to present their argument.
Id. at APP. 267. All parties were permitted to
reserve five minutes for rebuttal. Id. The panel also
noted “each member of the three person appeals
panel has no relationship or connection with either
[Plaintiff] or [Jane Doe].” Id. at APP. 268.
On March 24, 2016, the hearing was held as
scheduled and according to the procedure set forth
in the panel’s notice. ECF No. 137 at APP. 266–268.
After the hearing, the panel affirmed Foxhoven’s
findings and his recommendation of expulsion.
ECF No. 103-1 at APP. 269–70. The panel noted it

63a
had reviewed written responses from the parties
regarding Plaintiff’s appeal, in addition to “all of
the exhibits and documents from the hearing as
well as the audio recording of the hearing.” Id. at
APP. 269; see also Peters Dep. 37:5–40:18, ECF
No. 103-1 at APP. 310. The panel determined
Foxhoven’s decision was supported by substantial
evidence, explaining: 1) witnesses testified as to
Plaintiff’s and Jane Doe’s differing level of intoxication; and 2) Plaintiff corroborated Jane Doe’s testimony that Plaintiff had been using a condom
during a conversation with his friends the next
day. ECF No. 103-1 at APP. 270. The panel
affirmed Foxhoven’s recommendation of expulsion,
noting having sexual intercourse while someone
was incapacitated and unable to give consent “is
the worst kind of sexual assault.” Id.
On April 8, 2016, Parker emailed Plaintiff confirming the panel’s decision and explaining that
the President of the University, Earl Martin, concurred in the decision. ECF No. 103-1 at APP. 271.
Consequently, Plaintiff was officially “expelled
from Drake University effective immediately.” Id.
C. Procedural Background
On December 1, 2016, Plaintiff filed suit against
Defendants, as well as other individually named
defendants. Compl., ECF No. 1. Plaintiff’s complaint alleged eight counts, asserting Defendants
violated: Title IX of the Education Amendments of
1972 (Count I); the Fourteenth Amendment of the
United States Constitution (Count II); and Title II

64a
of the Americans with Disabilities Act (Count VI).
He also brought state law claims based on breach of
contract (Count III), breach of the covenant of good
faith and fair dealing (Count IV), negligent infliction of emotional distress (Count V), and estoppel
and reliance (Count VII). Finally, Plaintiff sought
declaratory relief (Count VIII). On August 2, 2017,
Plaintiff filed an Amended Complaint, in which he
brought the same substantive claims but no longer
filed under a pseudonym. Compare Am. Compl.,
ECF No. 46, with ECF No. 1. On August 11, 2017,
the Court dismissed Plaintiff’s constitutional
claim, Count II, against all Defendants and dismissed all other Counts against the individually
named defendants. Order Defs.’ Partial Mot. Dismiss 10, ECF No. 48.
On May 17, 2018, Defendants filed the current
motion for summary judgment on all counts. ECF
No. 99. Plaintiff resists. ECF No. 111; ECF No. 121.
Defendants have replied. ECF No. 135. The matter
came before the Court for a hearing on July 20,
2018. Hr’g Mins. Defs.’ Mot. Summ. J., ECF No.
143. Attorneys Philip Byler and David Goldman
represented Plaintiff. Id. Attorneys Frances Haas
and Mary Funk represented Defendants. Id.
III. LEGAL STANDARD
Under Federal Rule of Civil Procedure 56(a), the
Court must grant a party’s motion for summary
judgment if there are no genuine issues of material
fact in dispute and the moving party is entitled to
judgment as a matter of law. Celotex Corp. v.

65a
Catrett, 477 U.S. 317, 322-23, 106 S.Ct. 2548, 91
L.Ed.2d 265 (1986) (describing material considered
in a Rule 56 analysis). Partial summary judgment
is also permissible. See Fed. R. Civ. P. 56(a) (allowing summary judgment for “the part of each claim
or defense”). A material fact is one that “might
affect the outcome of the suit under the governing
law.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986). A dispute of material fact is genuine if “ ‘a reasonable
jury could return a verdict for the nonmoving
party’ on the question.” Woods v. DaimlerChrysler
Corp., 409 F.3d 984, 990 (8th Cir. 2005) (quoting
Anderson, 477 U.S. at 248, 106 S.Ct. 2505). The
Court must give the non-moving party all reasonable inferences from the facts presented. Munz, 28
F.3d at 798. The Court does not “weigh the evidence or attempt to determine the credibility of the
witnesses,” Kammueller v. Loomis, Fargo & Co.,
383 F.3d 779, 784 (8th Cir. 2004), and instead must
only “determine whether a dispute about a material
fact is genuine,” Quick v. Donaldson Co., Inc., 90
F.3d 1372, 1377 (8th Cir. 1996).
To defeat a motion for summary judgment, the
non-moving party “may not rest upon the mere
allegations or denials of his pleading, but . . . must
set forth specific facts showing that there is a genuine issue for trial.” Anderson, 477 U.S. at 248, 106
S.Ct. 2505 (omission in original); see also Anda v.
Wickes Furniture Co., 517 F.3d 526, 531 (8th Cir.
2008) (“In order to establish the existence of a genuine issue of material fact, ‘[a] plaintiff may not
merely point to unsupported self-serving allega-

66a
tions’ ” (alteration in original) (quoting Bass v. SBC
Commc’ns, Inc., 418 F.3d 870, 873 (8th Cir. 2005),
abrogated on other grounds by Torgerson v. City of
Rochester, 643 F.3d 1031, 1058 (8th Cir. 2011) ) ).
IV. DISCUSSION
The Court first considers Plaintiff’s negligent
infliction of emotional distress claim (Count V).
ECF No. 46 ¶¶ 225–34. Because Plaintiff does not
resist Defendants’ motion for summary judgment
on this claim, see ECF No. 111 ¶ 6, the Court dismisses it. The Court next considers Plaintiff’s
claim for declaratory judgment (Count VIII). ECF
No. 46 ¶¶ 248–52. The Court finds Count VIII does
not state an independent basis for relief, but that
the remedy of declaratory judgment may be applied
to the other claims if applicable.
The Court then turns to Plaintiff’s Title IX claim
(Count I). Id. ¶¶ 169–88. The Court grants Defendants’ motion for summary judgment for Count I
under Plaintiff’s Title IX erroneous outcome and
deliberate indifference theories, but denies Defendants’ motion for summary on Plaintiff’s Title IX
claim under his selective enforcement theory. The
Court then analyzes Plaintiff’s ADA claim (Count
VI), id. ¶¶ 235–40, and grants Defendants’ motion
summary judgment on that claim. Finally, the
Court turns to Plaintiff’s state law contract claims
(Counts III, IV, and VII). Id. ¶¶ 203–24, 241–47.
The Court finds Plaintiff’s estoppel and covenant of
good faith and fair dealing claims are subsumed by
his breach of contract claim. The Court grants sum-

67a
mary judgment to Defendants on some, but not all,
of Plaintiff’s breach of contract claims.
A. Negligent Infliction of Emotional Distress (Count V)
Defendants request summary judgment as to
Plaintiff’s negligent infliction of emotional distress
claim. ECF No. 99 ¶¶ 14–16. Plaintiff does not
resist Defendants’ motion as to this claim. ECF No.
111 ¶ 6 (“Plaintiff states that he will not proceed
further with the claim for negligent infliction of
emotional distress.”). Consequently, the Court dismisses Count V.
B. Declaratory Judgment (Count VIII)
In Count VIII, Plaintiff asserts an independent
count for declaratory judgment. ECF No. 46 ¶¶ 248–
52.5 Defendants move for summary judgment on
Plaintiff’s claim, asserting the Declaratory Judgment Act, 28 U.S.C. § 2201, “does not create any
new substantive right but rather creates a procedure for adjudicating existing rights.” ECF No. 104
at 40 (quoting W. Cas. & Sur. Co. v. Herman, 405
F.2d 121, 124 (8th Cir. 1968)). At the hearing on
Defendants’ motion, Plaintiff’s counsel conceded
the declaratory judgment he seeks cannot form the
5

Plaintiff also requests a declaration that “Drake’s Code
is unconstitutional as applied.” ECF No. 46 ¶ 252. Because
the Court previously determined Plaintiff may not assert constitutional claims against Defendants, see ECF No. 48 at 4–7,
the Court need not address Count VIII as it relates to this
request.

68a
basis of a separate count. Mot. Summ. J. Hr’g Tr.
22:23–23:2, ECF No. 146. Consequently, to the
extent Count VIII asserts an independent claim for
relief, the Court grants Defendants’ motion.
The Court notes the relief Plaintiff requests in
Count VIII references Plaintiff’s other substantive
claims. See ECF No. 46 ¶¶ 248–49 (referencing
Plaintiff’s previous counts and requesting declaratory judgment based on his assertion that “Drake
has committed numerous violations of the Parties’
contracts and of federal and state law”). Furthermore, Plaintiff reiterates these requests in his Prayer
for Relief. Id. at 59–60. Consequently, although
Count VIII fails to state an independent claim for
relief, both Count VIII and Plaintiff’s Prayer for
Relief identify some permissible remedies for
Plaintiff’s other substantive counts. Specifically,
all of Plaintiff’s requested relief, except a declaration that “Drake’s Code is unconstitutional as
applied” may, if appropriate, be applied to the
applicable counts discussed below.
C. Title IX Claims (Count I)
In Count I, Plaintiff brings a claim under Title IX
based on his disciplinary proceeding and resulting
expulsion as well as Defendants’ failure to investigate Plaintiff’s complaint of alleged sexual assault
by Jane Doe. See ECF No. 46 ¶¶ 180–81, 185.
Title IX claims based on alleged gender discrimination in disciplinary proceedings may be analyzed
under the erroneous outcome, deliberate indifference, or selective enforcement theories. See Roe v.

69a
St. Louis Univ., 746 F.3d 874, 882 (8th Cir. 2014)
(describing deliberate indifference); Yusuf v. Vassar
Coll., 35 F.3d 709, 715 (2d Cir. 1994) (describing
erroneous outcome and selective enforcement). For
the reasons set forth below, the Court determines
Plaintiff has not identified a genuine dispute of
material fact as to whether gender bias caused an
erroneous outcome in his disciplinary proceeding.
Plaintiff also has not identified a genuine dispute
of material fact as to whether Defendants were
deliberately indifferent toward Plaintiff by failing
to investigate his claim that Jane Doe sexually
assaulted him. Plaintiff has identified a genuine
dispute of material fact as to whether gender
affected Defendants’ decision to selectively enforce
a disciplinary process. The Court thus grants
Defendants’ motion for summary judgment as to
Plaintiff’s Title IX claims under the erroneous outcome and deliberate indifference standards but
denies Defendants’ motion for summary judgment
for Plaintiff’s Title IX claims under the selective
enforcement standard.
1.

Erroneous outcome

In order to establish a violation of Title I under
the erroneous outcome theory, a plaintiff must
show: 1) evidence illustrating an “articulable
doubt” as to the accuracy of the outcome of the proceeding; and 2) particular circumstances showing
gender bias was a motivating factor in the erroneous outcome. Doe v. Miami Univ., 882 F.3d 579,
592 (6th Cir. 2018); see Yusuf, 35 F.3d at 715; see

70a
also Doe v. Univ. of St. Thomas, 240 F.Supp.3d 984,
990 (D. Minn. 2017). To show an articulable doubt,
a plaintiff may point to “particular evidentiary
weaknesses behind the finding of an offense such
as a motive to lie on the part of a complainant or
witnesses, particularized strengths of the defense,
or . . . particular procedural flaws affecting the
proof.” Yusuf, 35 F.3d at 715. A plaintiff may illustrate gender bias by identifying “statements by
members of the disciplinary tribunal, statements
by pertinent university officials, or patterns of
decision-making that also tend to show the influence of gender.” Id.
“As a general rule, Title IX is not an invitation
for courts to second-guess disciplinary decisions
of colleges or universities.” Univ. of St. Thomas,
240 F.Supp.3d at 989. Rather, “Title IX should be
construed to give ‘[s]chool administrators . . . the
flexibility they require’ to initiate a reasonable disciplinary response.” Id. at 990 (alteration and omission in original) (quoting Davis ex rel. LaShonda D.
v. Monroe Cty. Bd. of Educ., 526 U.S. 629, 648–49,
119 S.Ct. 1661, 143 L.Ed.2d 839 (1999)); see also
Haidak v. Univ. of Mass. at Amherst, 299 F.Supp.3d
242, 269 (D. Mass. 2018) (granting summary judgment to the defendant and holding the university
disciplinary panel’s “conclusion was supported by
substantial evidence and involved a credibility
determination it was in the best position to make”).
In his Response to Defendants’ Motion for Summary Judgment, Plaintiff identifies various procedural and substantive flaws in the investigation,
disciplinary hearing, and appeals process he

71a
believes led to an erroneous outcome. ECF No. 46
¶¶ 101–09, 142–47, 182. Specifically, Plaintiff contends Foxhoven erred by allowing Jane Doe to testify about her medical condition that made it
painful for her to engage in vaginal intercourse,
information that was not previously disclosed during the investigation, and which Foxhoven then
relied on in determining whether Jane Doe had
consented to sexual intercourse with Plaintiff. Id.
¶¶ 144–45. Plaintiff likewise asserts there was
insufficient medical or physical evidence supporting Jane Doe’s claim that sexual intercourse
occurred, noting Jane Doe did not get a sexual
assault exam and did not provide the underwear
she was wearing at the time of the alleged assault
as evidence in the investigation. Id. ¶¶ 146–48.
Plaintiff also contends Foxhoven erred by allowing
Parker to present evidence and argument, arguing
Parker was not an “independent actor,” as Foxhoven
concluded, but instead presented evidence against
Plaintiff and sought his expulsion. Id. ¶ 152.
As to the appeals process, Plaintiff first contends
Defendants refused to allow Plaintiff’s father to
present Plaintiff’s appeal. ECF No. 46 ¶ 153. Plaintiff additionally asserts the panel never heard the
audio recording of the disciplinary hearing “before
rendering their short and vague affirmation of
guilty against Plaintiff.” Id. ¶ 154. Rather, Plaintiff
contends the panel was a “rubber stamp” for
Foxhoven’s findings. ECF No. 121 at 24.
To show the alleged erroneous outcome was motivated by gender bias, Plaintiff asserts Defendants’
actions, in general, during the investigation, the

72a
disciplinary hearing, and in making the ultimate
decision to expel him reveal gender bias because
they were taken against the weight of the evidence.
ECF No. 121 at 15–24. Plaintiff also specifically
contends the investigators, Foxhoven, Parker, and
the appeals panel were all biased by the genderbased “trauma trope,” which allowed them to
explain away Jane Doe’s inconsistencies and “counterintuitive” behavior that would otherwise discredit her. Id. at 24–25. Plaintiff also argues the
“trauma trope” led Parker to testify that he would
consider it “slut shaming” to imply Jane Doe’s sexual activity after leaving Plaintiff’s room was
inconsistent with having been assaulted earlier. Id.
at 25.
In addition, Plaintiff contends Drake was “victim
centered” against male respondents. Id. at 26. To
show that being victim-centered means being gender-biased, Plaintiff points to evidence that most
claims of sexual misconduct at Drake were brought
by a female complainant against a male respondent. Id. at 26. Plaintiff also asserts the Policy is
gender-biased against respondents, who are “disproportionately” male, because it provides resources
to complainants and labels them as “survivors.”
ECF No. 46 ¶ 185; ECF No. 121 at 27. Plaintiff further asserts the general purpose of the “female protectionist nature of campus sex tribunals” is a
“misconceived political effort to undercut fairness
for respondents.” ECF No. 121 at 27. This political
pressure, Plaintiff argues, stems from a April 2011
“Dear Colleague Letter” issued by the U.S. Department of Education’s Office of Civil Rights which

73a
called on universities to improve their sexual
assault review process or risk losing federal funding. ECF No. 121 at 26–27.
Plaintiff’s Title IX claim cannot survive Defendants’ motion for summary judgment under an
erroneous outcome theory. Plaintiff fails on the second prong of his erroneous outcome claim as a matter of law. Viewing the evidence in the light most
favorable to the Plaintiff, no reasonable jury could
find the undisputed facts show Defendants’ actions
were motivated by gender bias. Because Plaintiff
fails on the second prong of the erroneous outcome
test, the Court need not address the first prong—
whether there is articulable doubt as to the accuracy
of the proceedings.
First, no reasonable jury could find Defendants’
choices regarding the investigative report and the
disciplinary hearing were inherently gender-biased
because Defendants found a male respondent
responsible for sexual assault. Plaintiff asserts
Defendants’ “[r]eliance on hearsay and crediting
the female complainant despite the accumulated
evidence reflected a gender biased reaching for a
conclusion that objective evidence did not permit.”
ECF No. 121 at 16. Plaintiff points to, among other
things, Sirna’s decisions to interview some witnesses and not others, ECF No. 46 ¶¶ 102–104, Sirna’s
finding that Plaintiff’s roommate’s testimony was
not credible, id. ¶ 101, and Foxhoven’s characterization that Plaintiff argued he was intoxicated to
avoid responsibility, ECF No. 121 at 22. Plaintiff
also cites other evidence he claims is objective,
such as his erectile dysfunction and Jane Doe’s

74a
decision not to be medically examined after the
alleged assault, that he claims call for an opposite
conclusion than the one made by Defendants. ECF
No. 121 at 16. In sum, Plaintiff argues that Defendants viewed the evidence through a gender-biased
lens in a way that disfavored Plaintiff and favored
the female complainant.
When ruling on a motion to dismiss under Rule
12(b)(6), some courts have found that an action by
a university official during the disciplinary process
can raise a plausible inference of gender bias.
Prasad v. Cornell Univ., No. 5:15-cv-322, 2016 WL
3212079, at *17 (N.D.N.Y. Feb. 24, 2016). These
accepted inferences have been based on specific
actions and decisions by university officials responsible for investigating or adjudicating complaints.
See Cornell, 2016 WL 3212079, at *17 (“Given the
totality of the circumstances, including that Jane
Doe was treated more favorably than Plaintiff, that
the investigators seemingly slanted the Investigative Report against Plaintiff, . . . Plaintiff plausibly establishes a causal connection between gender
bias and the outcome of his disciplinary proceeding.”); Doe v. Washington & Lee Univ., No. 6:14-CV00052, 2015 WL 4647996, at *10 (W.D. Va. Aug. 5,
2015) (determining it was plausible that gender
bias determined the outcome of university disciplinary proceedings where a university official
depended on an article that posited “sexual assault
occurs whenever a woman has consensual sex with
a man and regrets it because she had internal
reservations that she did not outwardly express”).
However, conclusory allegations of gender bias

75a
based on the procedures of the disciplinary proceedings or decisions about the weight of the evidence are insufficient to defeat a motion for
summary judgment under Rule 56. See Pacheco v.
St. Mary’s Univ., No. 15-cv-1131 (RCL), 2017 WL
2670758, at *15–18 (W.D. Tex. June 20, 2017)
(holding that the plaintiff’s allegations of evidentiary and procedural shortcomings of the disciplinary process did not amount to evidence of
gender-biased decision-making sufficient to defeat
defendant’s motion for summary judgment); see
also Mallory v. Ohio Univ., 76 F. App’x 634, 640
(6th Cir. 2003) (unpublished) (holding plaintiff’s
allegations of procedural problems in the disciplinary process did not amount to gender bias and
granting defendant’s motion for summary judgment).
Plaintiff depends on the United States Court of
Appeals for the Second Circuit’s decision in Doe v.
Columbia University, 831 F.3d 46 (2d Cir. 2016), to
support his general argument about gender bias in
the procedure and outcome of the disciplinary
process. ECF No. 121 at 25. In Columbia University,
the Second Circuit reasoned “[w]hen the evidence
substantially favors one party’s version of a disputed matter, but an evaluator forms a conclusion in
favor of the other side (without an apparent reason
based in the evidence), it is plausible to infer . . .
that the evaluator had been influenced by bias.”
831 F.3d at 57. Columbia University is distinguishable from the facts at hand. First, the Second Circuit in Columbia University was considering a
ruling on a motion to dismiss under Rule 12(b)(6).

76a
Id. at 48. In that procedural context, the plaintiffs
only had to show “plausible minimal inference of
bias” for their claim to move forward. Id. Second,
the climate on Columbia’s campus at the time was
tense (“there was substantial criticism of the University, both in the student body and in the public
media”) and the university official who wrote the
report had herself “suffered personal criticism in
the student body for her role in prior cases.” Id. at
57, 58. Considering those circumstances, the Second Circuit held “[i]t is plausible that [the official]
was motivated to refute those criticisms by siding
with the accusing female and against the accused
male.” Id. at 58.
Although Plaintiff argues Defendants here
viewed the evidence through the same kind of gender-biased lens as the defendant in Columbia University, the different factual context at Columbia as
well as the different legal standard applied at this
later pleading stage make the comparison inapt.
Columbia University does not support Plaintiff’s
argument that a disciplinary hearing that results
in an outcome—which, according to Plaintiff, is in
opposition to the objective evidence—automatically
reveals gender bias. To the contrary, the Court will
not step into the shoes of the university’s decisionmakers and evaluate the weight and credibility of
the evidence Defendants found demonstrated
Plaintiff was responsible for misconduct. See Univ.
of St. Thomas, 240 F.Supp.3d at 989–90 (citing
Davis, 526 U.S. at 648–49, 119 S.Ct. 1661).
Second, no reasonable jury could find that Defendants’ application of the concept of trauma in their

77a
decision-making or Defendants’ overall victimcentered procedure reveal they were motivated by
gender bias. Plaintiff asserts “Sirna’s misuse of
‘trauma’ to rationalize away Jane Doe’s behavior
plainly inconsistent with a sexual assault having
occurred is gender biased bad science.” ECF No.
121 at 17. Plaintiff also asserts Parker’s testimony
that he would consider it “slut-shaming” to imply
sexual activity after being assaulted was inconsistent behavior for a victim was a gender-biased comment. ECF No. 121 at 25. Plaintiff retained an
expert witness who opined Sirna and other officials
justified Jane Doe’s “inconsistent behaviors” and
memories and thought Jane Doe could reasonably
“behave in any way whatsoever post-assault.” Pl.’s
Sealed App. Supp. Pl.’s Resp. Defs.’ Mot. Summ. J.
at APP. 1148–49, ECF No. 118-12. Based on Plaintiff’s expert’s conclusion, Plaintiff asserts that
Drake’s decision-makers relied on “gender biased
junk science.” ECF No. 121 at 17–18.
Even if a reasonable jury found Plaintiff’s expert’s
theories6 demonstrated the system was slanted
toward Jane Doe because of the trauma-based
approach, a trauma-based approach does not mean
a gender-biased one. Courts have found a victimcentered approach does not raise an inference of
gender bias. See Doe v. Univ. of Colo., Boulder ex
rel. Bd. of Regents of Univ. of Colo., 255 F.Supp.3d
1064, 1075, 1076, 1079 (D. Colo. 2017) (granting
the defendant’s motion to dismiss, and acknowledg6
The Court does not rule on the admissibility of the
expert’s report.

78a
ing “the possibility of gender-specific stereotypes
influencing [an] investigation” when the majority
of accusers are women and the accused are men but
agreeing with other courts that “if anything, the
inference of pro-victim bias is an obvious alternative explanation that overwhelms any potential of
gender bias”); Univ. of St. Thomas, 240 F.Supp.3d
at 991 (citing Sahm v. Miami Univ., 110 F.Supp.3d
774, 778 (S.D. Ohio 2015) (granting the defendant’s
motion to dismiss and noting a university official
showing bias in favor of alleged victims is not
equivalent to demonstrating bias against male students).
The Court similarly concludes a victim-centered
approach does not create an inference of gender
bias without evidence of gender bias in its formulation or application. Plaintiff cannot show the trauma-based theories used by Defendants were used
because Plaintiff is a man. The statements Plaintiff
suggests demonstrate Sirna’s victim-centric approach
were gender-neutral. For instance, McKinney stated
in her deposition that “people behave differently”
after a traumatic event. McKinney Dep. 50:6–
51:22, ECF No. 118-3 at APP. 285. When Sirna was
asked if she thought Jane Doe’s behavior directly
after the traumatic event was relevant to her credibility, Sirna stated: “victims often engage in counterintuitive behavior after a sexual assault. It’s
very common for them to want to regain control,
and so they go and they have sex that’s consensual
with somebody else.” Sirna Dep. 172:9–15, ECF No.
118-5 at APP. 457; see also Pl.’s Sealed App. Supp.
Pl.’s Resp. Defs.’ Mot. Summ. J. at APP. 430, Sirna

79a
Dep. 64:10–12, ECF No. 118-4 (noting “[v]ictims
often engage in counterintuitive behavior.”). Plaintiff argues a system focused on victims, even if stated in gender-neutral terms, is gender-biased
because victims are women. ECF No. 121 at 26.
Plaintiff asserts “females being both victims and
accused” is a “theoretical but non-existent possibility.” Id. Plaintiff does not cite any evidence for this
proposition.
In addition, Plaintiff argues the Policy is genderbiased because it provides resources for victims
and lists ways to prevent sexual assault but does
not provide any resources for accused students. Id.
at 27. But these sections also use gender-neutral
language. See Pl.’s Sealed App. Supp. Pl.’s Resp.
Defs.’ Mot. Summ. J. at APP. 087–117, ECF No.
118-1. Moreover, the Policy itself states it “applies
regardless of sexual orientation or gender identity.”
ECF No. 118-1 at APP. 099. Plaintiff asserts the
gender-neutral language is “a pretext for Drake’s
anti-male discrimination.” ECF No. 46 ¶ 50. Notwithstanding his conclusory allegations discussed
here, Plaintiff does not show how victim-centric or
trauma-informed language reveals a gender-biased
approach.
Here, at the summary judgment stage when
Plaintiff has had the opportunity to review discovery to demonstrate gender bias, the Court finds
Plaintiff is unable to do so. Without more, a jury
could find the statements and decisions by Defendants and the Policy itself reveal a victim-centered,
trauma-informed approach, but could not find they
reveal a bias toward one gender.

80a
Third, no reasonable jury could find the data
about the gender of those accused of sexual misconduct at Drake reveal Defendants operated their
nonacademic disciplinary procedure with genderbiased motives. Plaintiff asserts that because all 51
respondents in sexual misconduct disciplinary proceedings at Drake during the 2015–2016 academic
year were male, the disciplinary system is infected
with gender bias. ECF No. 121 at 26. Defendants
point out the tracking chart provided by the Drake
University Title IX coordinator indicates that
although no respondents for sexual misconduct are
labeled as female, there is no information provided
about the gender of the respondent in numerous
cases. ECF No. 135 at 1 n.1; see generally ECF No.
118-13 at APP. 1195–1254. Even when viewing the
statistics as Plaintiff presents them, this data is
not enough to show gender bias.
Courts have declined to infer a gender-biased
motive on the part of university officials from the
disparity in gender among those who are accused of
sexual assault, noting that schools are not responsible for which students choose to report sexual
misconduct. Doe v. Trs. of Bos. Coll., 892 F.3d 67,
92 (1st Cir. 2018) (“It is unreasonable to draw such
an inference from this information rather than recognize that other non-biased reasons may support
the gender makeup of the sexual misconduct
cases.”); Doe v. Cummins, 662 F. App’x 437, 454
(6th Cir. 2016) (unpublished) (reasoning there were
“more innocent” causes for the gender disparity
between male and female respondents in sexualmisconduct cases than gender bias); Tsuruta v.

81a
Augustana Univ., No. 4:15-CV-04150-KES, 2015
WL 5838602, at *4 (D.S.D. Oct. 7, 2015) (“The fact
that males are more often the subject of disciplinary (or criminal) proceedings stemming from allegations of sexual assault does not suggest that
those proceedings are tainted by an improper
motive.”).
The Sixth Circuit, on the other hand, has reasoned it is plausible to infer gender bias from data
showing all men accused of sexual misconduct during an academic year were found responsible for
the alleged violation and data showing nearly ninety
percent of students accused of sexual assault over
several years had male first names. Miami Univ.,
882 F.3d at 593. As with the Second Circuit’s decision in Columbia University, discussed above, this
reasoning is distinguishable from the procedural
setting of this case. Miami University was decided
on a motion to dismiss under Rule 12(b)(6). Id. at
584. In noting the allegations were sufficient to
raise an inference of gender bias at the motion to
dismiss stage, the Sixth Circuit noted “[d]iscovery
may reveal that the alleged patterns of genderbased decision-making do not, in fact, exist.” Id. at
594. Here, on a motion for summary judgment
under Rule 56, the court finds the Court of Appeals
for the First Circuit’s decision in Boston College
more persuasive. In Boston College, the First Circuit reasoned “after the parties have engaged in
substantial discovery, a complete lack of evidence
—whether direct or circumstantial—will not allow
a party to survive a motion for summary judgment.
Conclusory allegations are not enough.” Bos. Coll.,

82a
892 F.3d at 92. As in Boston College, the Court concludes no reasonable jury could find the statistics
Plaintiff relies on are anything more than conclusory allegations of gender bias.
Finally, no reasonable jury could conclude Defendants were influenced by outside pressure to carry
out sexual misconduct investigations and disciplinary hearings that impermissibly favored women
and unfairly punished men. Plaintiff asserts the
“Dear Colleague Letter” pressured universities to
create tribunals with the purpose of finding men
responsible for sexual assault or risk losing federal
funding. ECF No. 121 at 26–27; ECF No. 46 ¶¶ 20,
51. Again, courts have not found this argument
persuasive—particularly at the summary judgment
stage. See Bos. Coll., 892 F.3d at 92–93; Doe v.
Purdue Univ., 281 F.Supp.3d 754, 780 (N.D. Ind.
2017); Univ. of Colo., 255 F.Supp.3d at 1078 (“Moreover, pressure from the federal government to
investigate sexual assault allegations more aggressively—either general pressure exerted by the
Dear Colleague Letter or specific pressure exerted
by an investigation directed at the University, or
both—says nothing about the University’s alleged
desire to find men responsible because they are
men.”); Univ. of St. Thomas, 240 F.Supp.3d at 992.
For the reasons discussed above, Plaintiff’s claim
for erroneous outcome cannot survive Defendants’
motion for summary judgment. The Court therefore
grants summary judgment in Defendants’ favor on
this theory.

83a
2.

Deliberate indifference

As part of Plaintiff’s Title IX claim, Plaintiff
asserts Defendants “demonstrated deliberate indifference when they refused to investigate and dismissed the sexual assault claim by Plaintiff, a male
complainant, as well as by Plaintiff’s father, a
trustee of the college.” ECF No. 46 ¶ 135. Plaintiff
contends Parker’s statement that Drake would not
investigate Plaintiff’s claim of sexual assault
because it was a form of retaliation indicates deliberate indifference. ECF No. 121 at 33–34. Defendants contend Plaintiff’s claim fails because one
assault does not constitute a “systematic” denial of
an education program and Drake’s conduct did not
cause Plaintiff’s alleged assault or make him vulnerable to it. ECF No. 104 at 23–24. As explained
below, the Court grants Defendants’ motion for
summary judgment as to this theory because Plaintiff has not shown how Defendants’ alleged inaction
subjected him to harassment.
For a school to incur liability under a Title IX
deliberate indifference claim, “it must be (1) deliberately indifferent (2) to known acts of discrimination (3) which occur under its control.” Shrum ex rel.
Kelly v. Kluck, 249 F.3d 773, 782 (8th Cir. 2001).
Because Plaintiff’s claim is premised on Defendants’ failure to investigate peer-on-peer sexual
harassment (specifically Jane Doe’s alleged sexual
assault of him), Plaintiff must also establish the
discrimination was “so severe, pervasive, and
objectively offensive that it can be said to deprive
[him] access to the educational opportunities or

84a
benefits provided by the school.” K.T. v. CulverStockton Coll., 865 F.3d 1054, 1057 (8th Cir. 2017)
(quoting Davis, 526 U.S. at 650, 119 S.Ct. 1661).
Finally, the “deliberate indifference must either
directly cause the abuse to occur or make students
vulnerable to such abuse.” Shrum, 249 F.3d at 782;
see also K.T., 865 F.3d at 1058 (noting “while [the
plaintiff] was dissatisfied with [the school]’s
response,” because the plaintiff only reported emotional distress following the alleged assault, “the
response cannot be characterized as deliberate
indifference that caused the assault ”).
Plaintiff’s deliberate indifference claim cannot
survive Defendants’ motion for summary judgment. Specifically, Plaintiff does not claim Defendants’ alleged failure to investigate his sexual
assault caused him to experience any separate
harassment following his assault. The Eighth Circuit requires such a showing. See K.T., 865 F.3d at
1058 (dismissing the plaintiff’s deliberate indifference claim because “at most, [the plaintiff’s complaint] link the [the defendant’s] inaction with
emotional trauma [the plaintiff] claims she experienced following the assault”); see also Davis, 526
U.S. at 644, 119 S.Ct. 1661 (explaining a plaintiff
reporting student-on-student harassment must
show the school’s deliberate indifference caused the
student to be “subject[ed] to harassment”). Furthermore, as the Eighth Circuit and other courts
have noted, failure to follow Title IX regulations is
not a sufficiently severe form of discrimination to
give rise to a deliberate indifference claim. See,
e.g., St. Louis Univ., 746 F.3d at 883–84; Sanches v.

85a
Carrollton-Farmers Branch Indep. Sch. Dist., 647
F.3d 156, 169 (5th Cir. 2011) (noting that although
a school district’s Title IX policy required the principal to contact the district’s Title IX coordinator in
the event of a sexual misconduct allegation, “just
because [the principal] failed to follow district policy
does not mean that her actions were clearly unreasonable” and thus deliberately indifferent); Klocke
v. Univ. of Tex. at Arlington, No. 4:17-CV-285-A,
2018 WL 2744972, at *6 (W.D. Tex. June 7, 2018)
(determining the plaintiff had failed to state a
claim for relief for deliberate indifference based on
the school’s violations of Title IX regulations); Doe
ex rel. Doe v. Saint Paul Conservatory for the
Performing Arts, No. 17-5032 (DWF/FLN), 2018
WL 2431849, at *3 (D. Minn. May 30, 2018) (same);
Haidak, 299 F.Supp.3d at 270 (determining on
summary judgment that because the plaintiff only
asserted one instance of sexual assault, “[e]ven
with the court accepting [p]laintiff’s claim that he
declined to pursue a charge against [the complainant] because Defendants indirectly discouraged him from doing so, this evidentiary
insufficiency is fatal to any claim of a pervasive
environment of harassment”).
Moreover, to the extent Plaintiff asserts part of
the harassment he faced was also due to Defendants’ decision to investigate and ultimately expel
him for sexual assault, Plaintiff’s claim fails. See
ECF No. 46 ¶¶ 135–36; ECF No. 121 at 32–34.
Plaintiff does not explain how the adjudication of
Jane Doe’s complaint and his expulsion are connected to Plaintiff’s alleged assault and Defen-

86a
dants’ alleged failure to investigate. Both the disciplinary proceedings against Plaintiff and his ultimate expulsion were triggered by Jane Doe’s
complaint, rather than by Plaintiff’s own assertions regarding the sexual assault he allegedly
experienced. Significantly, Plaintiff concedes
Defendants were required to investigate Jane Doe’s
complaint against him. See ECF No. 121 at 30.
Consequently, Defendants’ decision to investigate
Plaintiff and expel him cannot form the basis of his
deliberate indifference claim.
For the reasons discussed above, even if Defendants failed to investigate Plaintiff’s report of sexual harassment, because Plaintiff cannot show how
such a failure subjected him to “severe and pervasive” harassment, his claim is insufficient as a matter of law. The Court thus grants Defendants’
motion for summary judgment as to this theory.
3.

Selective enforcement

Plaintiff also asserts Defendants subjected him
to selective enforcement. ECF No. 121 at 28. A
Title IX selective enforcement claim is premised on
the allegation that “regardless of the student’s guilt
or innocence, the severity of the penalty and/or the
decision to initiate the proceeding was affected by
the student’s gender.” Yusuf, 35 F.3d at 715. To
support a claim of selective enforcement, Plaintiff
“must demonstrate that a female was in circumstances sufficiently similar to his own and was
treated more favorably by the University.” Mallory,
76 F. App’x at 641.

87a
There are factual questions as to whether Defendants’ decision to initiate disciplinary proceedings
against Plaintiff but not Jane Doe—even though
they were both accused of sexual misconduct—was
motivated by gender. These factual questions make
it impossible for the Court to grant Defendants’
motion for summary judgment on Plaintiff’s selective enforcement claim. In considering Defendants’
motion as to this claim, the Court addresses two
factual questions. First, were Plaintiff and Jane
Doe treated equally when they brought their
respective complaints of sexual misconduct? In considering this question, the Court must also consider whether Plaintiff and Jane Doe were similarly
situated. Second, if Plaintiff and Jane Doe were
treated differently, was the disparate treatment
motivated by gender?
Plaintiff contends comparison to “similarly situated” individuals is not required for a selective
enforcement claim. ECF No. 121 at 29. Plaintiff
asserts Yusuf, 35 F.3d 709, which first articulated
this theory, does not establish such a requirement.
ECF No. 121 at 29. However, the Yusuf court
implied the gender of the plaintiff and other
accused students must be taken into account in
order to bring a selective enforcement claim. Yusuf,
35 F.3d at 716. Specifically, while the court determined the plaintiff had sufficiently alleged an erroneous outcome claim, it dismissed the plaintiff’s
selective enforcement allegation based primarily
on the fact that both the plaintiff and his comparator were male. Id. Plaintiff also argues the cases
cited by Defendants requiring opposite-gender

88a
complaints were called into question by the Second
Circuit’s decision in Doe v. Columbia University,
831 F.3d 46. ECF No. 121 at 28–30. Although the
court in Columbia University overturned the district court’s decision that had inquired into
whether the plaintiff and comparator were “similarly situated,” nothing in Columbia University
touched on the actual elements for such a claim or
called into doubt the district court’s formulation of
the theory. See generally Columbia Univ., 831 F.3d
46. Rather, the Second Circuit focused on whether
outside pressure could indicate gender bias under
Title IX in general. Id. at 57–58.
Furthermore, following the decision in Columbia
University, courts have continued to require a
plaintiff asserting a selective enforcement claim to
point to a similarly situated individual of the opposite gender who was treated more favorably. See,
e.g., Plummer v. Univ. of Houston, 860 F.3d 767,
778 (5th Cir. 2017) (determining plaintiffs had failed
to assert a selective enforcement claim because, in
part, “during the discipline process they—a male
and a female— were treated equally”); Cummins,
662 F. App’x at 452 n.10 (finding plaintiffs’ selective enforcement claim inapplicable because plaintiffs did not allege a similarly accused female was
treated differently); Stenzel v. Peterson, No. 17-580
(JRT/LIB), 2017 WL 4081897, at *4–5 (D. Minn.
Sept. 13, 2017) (finding the male plaintiff’s selective enforcement claim failed because plaintiff
could not show he and the female complainant were
similarly situated); St. Mary’s Univ., 2017 WL
2670758, at *18 (examining whether the plaintiff

89a
and the female accuser were similarly situated).
These cases do not provide a detailed analysis of
how the test for a selective enforcement claim
should be applied. Nonetheless, the Court concludes, consistent with the reasoning in these
cases, a plaintiff asserting a selective enforcement
Title IX claim must demonstrate a similarly situated individual of the opposite sex was treated more
favorably than the plaintiff.
There is a genuine issue of material fact as to
whether Jane Doe and Plaintiff are similarly situated. Although Jane Doe and Plaintiff both alleged
sexual misconduct by the other, they reported their
allegations in different manners. See ECF No. 103-1
at APP. 155, APP. 182–83. Jane Doe reported she
had been assaulted to the Department of Public
Safety. Id. at APP. 155. As required by the Policy,
the Department of Public Safety reported her complaint to the Dean of Students. ECF No. 103 at
APP. 139; ECF No. 103-1 at APP. 155. The Dean
of Students then investigated the complaint, a
process required by the Code. ECF No. 137 at APP.
116. Plaintiff first alleged he was also a victim of
sexual assault during a meeting with Overberg and
Parker after the initial interviews regarding Jane
Doe’s assault had taken place. Overberg Dep. 63:6–
12, ECF No. 103 at APP. 027. In response, Overberg set up a time for Plaintiff to meet with
investigators Sirna and McKinney to talk about his
allegations. Overberg Dep. 87:5–10, ECF No. 103
at APP. 031. Overberg also instructed Sirna and
McKinney to ask Plaintiff if he wanted to initiate a
conduct charge against Jane Doe and to get all the

90a
relevant information from him about it. ECF No.
103-1 at APP. 308. When investigators asked
Plaintiff how he wanted to proceed, he told them he
did not want to file a conduct charge against Jane
Doe “right now” and he was just “verbalizing the
issue.” Id. at APP. 182–83.
An accused student and his or her accuser can be
compared to show selective enforcement if the parties
allege misconduct against each other. See Stenzel,
2017 WL 4081897, at *5–6. But if the accused student did not similarly initiate or attempt to initiate
a complaint against his or her accuser, the two cannot be compared. In Stenzel v. Peterson, the court
held the plaintiff’s selective enforcement claim
failed as a matter of law because the plaintiff had
not filed a formal complaint even though the plaintiff who was accused of sexual assault told a university employee that his accuser engaged in
nonconsensual sexual contact with him and the
university failed to follow up on his complaint.
2017 WL 4081897, at *6. The court found without
an “allegation that [the plaintiff] was not encouraged to file a report or was dissuaded from filing a
report,” “there are not specific facts to indicate [the
plaintiff] was treated differently during the process
because of his gender.” Id.7 In Doe v. Amherst Col7

Plaintiff argues the United States District Court for
the Southern District of Ohio’s ruling in Gischel v. University
of Cincinnati indicates whether an accused student filed a
formal complaint is irrelevant if the university had actual
knowledge of the alleged conduct. Notice ¶ 1, ECF No. 140.
The Gischel court relied on Doe v. Miami University, 882 F.3d
579 (6th Cir. 2018) for this holding. Order 2–4, Gischel v.

91a
lege, however, school officials encouraged the
female student to file a complaint against the male
plaintiff but did not do the same for the male plaintiff even though he also made allegations of sexual
misconduct against the female student. 238
F.Supp.3d 195, 223 (D. Mass. 2017). The court
found these factual allegations of active encouragement by the school of the female student’s complaint were sufficient to survive a motion for
judgment on the pleadings. Id.
Here, there is a genuine issue of material fact as
to whether Defendants dissuaded Plaintiff from
initiating his complaint. If Plaintiff was discouraged from filing his complaint, then Jane Doe and
Plaintiff would be similarly situated—they both
were in the position to initiate complaints of sexual
misconduct. Jane Doe was successful in initiating
formal disciplinary proceedings. Plaintiff was not.
Plaintiff claims he chose not to initiate his complaint because he was told it would be retaliatory.
Pl.’s Dep. 151:13–152:25, 153:14–154:5, ECF No.
118 at APP. 38–39. Defendants respond that all
accused students, male or female, receive the same
Univ. of Cincinnati, No. 1:17-cv-00475-SJD, (S.D. Ohio June
26, 2018), ECF No. 27. In Miami University, however, the
Sixth Circuit found the filing of a formal complaint is not necessary to show the school had actual knowledge of misconduct
for the plaintiff to bring a deliberate indifference claim. 882
F.3d at 590–91. Miami University did not consider the plaintiff’s selective enforcement claim and did not discuss whether
a formal complaint versus informal notification impacts
whether two students can be compared. Id. at 594–95. Hence,
the Court does not find Gischel persuasive.

92a
general warning that they may not retaliate
against their accuser. Parker Decl. ¶¶ 4–5, ECF No.
103-1 at APP. 306. The Code includes a general
prohibition of retaliation. The Code states: “[r]etaliation occurs when action is taken against another
because they have sought guidance, filed [a] complaint or participated in an investigation.” ECF No.
137 at APP. 115. “Examples of retaliation include,
but are not limited to, any action that has an
adverse impact on the complainant’s employment,
compensation or work assignments, or, in the case
of students, grades, class selection or any other
matter pertaining to [the] student.” Id. at APP.
115–16. This same language was included in the
email that Plaintiff received initially informing
him he was the subject of a complaint. ECF No.
103-1 at APP. 152–53. These general warnings
against retaliatory actions, although not an
exhaustive list, do not specifically mention countercomplaints of sexual misconduct against a student’s accuser.
Plaintiff alleges he was told a counter-complaint
would be retaliatory, Pl.’s Dep. 153:14–154:5, ECF
No. 118 at APP. 39, and the general warning
against retaliation in the Code does not list counter-complaints as an example of retaliatory action.
ECF No. 137 at APP. 115–16. Viewing the evidence
in the light most favorable to Plaintiff, a reasonable jury could find Plaintiff was dissuaded from
filing a complaint.
There is also a genuine issue of material fact as
to whether the allegations of Plaintiff and Jane
Doe were treated differently and whether this dis-

93a
parate treatment was motivated by gender. It is
undisputed Plaintiff told the Dean of Students he
might be a victim of sexual assault. Overberg Dep.
62:15–63:12, ECF No. 103 at APP. 27. It is disputed,
however, if the Dean of Students investigated or
dismissed his complaint. According to the Code,
the Dean of Students can initiate an investigation
of sexual misconduct. ECF No. 137 at APP. 116.
Plaintiff contends Parker told his father on a phone
call before the disciplinary hearing that “Drake
would not be investigating [Plaintiff’s] claim
because they believed [Plaintiff’s] claim to be retaliatory.” Rossley Sr. Decl. ¶ 10, ECF No. 118-13 at
APP. 1180. Defendants, however, contend Plaintiff’s complaint was “effectively investigated and
adjudicated and found to be without merit.” ECF
No. 104 at 20. As evidence of the investigation of
Plaintiff’s allegations, Defendants rely on Sirna’s
findings from the investigation and Foxhoven’s ruling after the disciplinary hearing that indicated
Plaintiff lacked credibility. ECF No. 103-1 at APP.
220–25, 241. Sirna and Foxhoven, however, made
this credibility determination about Plaintiff
regarding Jane Doe’s allegations of sexual assault
by Plaintiff—not specifically about Plaintiff’s allegations of sexual assault by Jane Doe. Thus, there
is a dispute of material fact as to how Plaintiff’s
allegations of sexual misconduct by Jane Doe—and
subsequent decision not to initiate disciplinary proceedings against Jane Doe—were treated by Defendants.
Although Defendants claim Plaintiff cannot
allege facts to show any possible disparate treat-

94a
ment was motivated by gender, the disputed facts
themselves—whether an arguably similarly situated man and woman were treated differently—raise
the specter of gender bias. Defendants have provided different explanations for their approach to
Plaintiff’s allegations. Parker is reported to have
told Plaintiff’s father that Plaintiff’s complaint
would not be investigated, while Defendants have
argued that the allegations were investigated and
found to be without merit. ECF No. 118-13 at APP.
1180; ECF No. 104 at 20. These differing explanations can be evidence of pretext. Cf. Fitzgerald v.
Action, Inc., 521 F.3d 867, 873 (8th Cir. 2008) (finding that defendant employer’s varying explanations
for its decision to terminate plaintiff employee
“raise a question [as to] the true reason for its decision”). This inquiry of gender-based motivations is
distinct from the inquiry of gender bias in Plaintiff’s erroneous outcome claim. Plaintiff cannot
show evidence that gender bias influenced the disciplinary process followed to determine if sexual
misconduct against an alleged victim, Jane Doe,
had occurred. Victim-centric disciplinary proceedings do not equate to gender-biased, female-centric
disciplinary proceedings. See Univ. of Colo., 255
F.Supp.3d at 1075, 1079; Univ. of St. Thomas, 240
F.Supp.3d at 991. But when contrasting the experiences of two alleged victims—one a woman and the
other a man—and noting the possible disparate
treatment, it is reasonable for a jury to consider
gender-biased motivations based on these facts.

95a
Defendants’ motion for summary judgment is
therefore denied as to Plaintiff’s Title IX claim
under a selective enforcement theory.
D. ADA Claim (Count VI)
In Count VI, Plaintiff asserts Defendants violated Title III of the American with Disabilities Act by
failing to provide Plaintiff with reasonable accommodations during the investigation, disciplinary
hearing, and appeals hearing. ECF No. 46 ¶ 239.8
Specifically, Plaintiff claims due to his ADHD,
dyslexia, and word-retrieval issues, Defendants
should have provided the following accommodations during the disciplinary process:
(i) having someone else with him in the room
[during] the meeting with the investigator; (ii)
having questions by the investigators written
down before [the Plaintiff] would be expected
to answer them; and (iii) time and a half, or at
least more time at the hearing in a situation
where it was two ‘parties’ . . . versus one
‘party.’
ECF No. 121 at 39; see also Pl.’s Dep. 125:12–
128:23, 133:7–136:24, ECF No. 103 at APP. 008,
8
Although Plaintiff’s Amended Complaint was brought
under Title II of the ADA, both parties agree Plaintiff’s claim
is only actionable under Title III, as the former applies to
public institutions and the latter applies to private institutions. See ECF No. 104 at 26; ECF No. 121 at 35. Because
both parties treat Plaintiff’s claim as if it were brought under
Title III, the Court does as well.

96a
APP. 010. Defendants assert they are entitled to
summary judgment on this count as Plaintiff never
requested a reasonable accommodation; and the
accommodations Plaintiff now identifies were
either offered to him, are speculative, or would
have amounted to an undue burden. ECF No. 104
at 26–30.9 Because the Court determines no reasonable jury could find Plaintiff requested an
accommodation, the Court grants Defendants’
motion for summary judgment as to Count VI.
1.

Applicable Law

Under Title III of the ADA, it is unlawful for “any
place of public accommodation” to “fail[ ] to make
reasonable modifications in policies, practices, or
procedures, when such modifications are necessary
to afford such goods, services, facilities, privileges,
advantages, or accommodations to individuals with
disabilities.” 42 U.S.C. § 12182(b)(2) (A)(ii); see also
Mershon v. St. Louis Univ., 442 F.3d 1069, 1076
(8th Cir. 2006) (“Discrimination under Title III
specifically includes the failure to make reasonable
modifications.”). However, an entity need not
accommodate an individual if “the entity can
demonstrate that making such modifications would
fundamentally alter the nature of such goods, serv9

Defendants also assert Plaintiff’s claim “fails because
[Plaintiff] failed to generate any evidence that his expulsion
was based upon his disability.” ECF No. 104 at 30 (citations
and internal quotation marks omitted). As explained below,
in cases asserting failure to accommodate under the ADA, a
plaintiff is not required to separately establish a defendant’s
actions were based on discriminatory animus.

97a
ices, facilities, privileges, advantages, or accommodations.” 42 U.S.C. 12182(b)(2)(A)(ii). Because the
“discrimination” in a failure to accommodate claim
“is framed in terms of the failure to fulfill an affirmative duty,” a plaintiff is not required to separately show the defendant’s actions were motivated
by intentional discriminatory animus. Peebles v.
Potter, 354 F.3d 761, 767 (8th Cir. 2004) (“The concern is compelling behavior, not policing an
employer’s actions that, when accompanied by an
invidious discriminatory intent, are unlawful.”);
see also Mershon, 442 F.3d at 1076–77 (listing the
elements for a failure to accommodate claim under
Title III without reference to intentional discrimination).
Thus, in the context of higher education, an individual bringing a failure to accommodate claim
under Title III of the ADA must show:
(1) that the plaintiff is disabled and otherwise
qualified academically,
(2) that the defendant is a private entity that
owns, leases or operates a place of public
accommodation (for ADA purposes) . . . , and
(3) ‘that the defendant failed to make reasonable modifications that would accommodate
the plaintiff’s disability without fundamentally
altering the nature of the public accommodation.’
Id. at 1076 (quoting Amir v. St. Louis Univ., 184
F.3d 1017, 1027 (8th Cir. 1999)). “As to the third
requirement, [the plaintiff] bears the initial burden

98a
of demonstrating that he requested reasonable
accommodations.” Id. at 1077. Such requests must
specifically identify the particular accommodations
and “explain how each requested accommodation
was necessary to enable [the plaintiff] to participate in light of his disabilities.” Id.
2.

Analysis

Defendants do not contest that Plaintiff can
establish the first two elements of his ADA claim.
See Mershon, 442 F.3d at 1076–77. See generally
ECF No. 104 at 26–28. As to the third element, the
parties dispute whether Plaintiff sufficiently
requested a reasonable accommodation under the
ADA. Id.; ECF No. 104 at 27; ECF No. 121 at 36–
39. Based on the parties’ arguments, the Court first
considers if Plaintiff specifically requested an
accommodation during the disciplinary process.
The Court then examines whether Defendants
were nonetheless on constructive notice and if
Plaintiff’s father sufficiently requested accommodations for the disciplinary hearing.
a.

Specific request

The Court determines there are no genuine
issues of material fact indicating Plaintiff or his
attorney ever specifically requested an accommodation during the investigation, disciplinary hearing,
or appeals hearing. It is undisputed Plaintiff suffers from a mild form of dyslexia, ADHD, and wordretrieval issues. ECF No. 133 ¶ 1; Pl.’s Dep. 129:
1–9, 172:20–173:4, ECF No. 103 at APP. 009, APP.

99a
014–15; Pl.’s Sealed App. Supp. Pl.’s Resp. Defs.’
Mot. Summ. J. at APP. 775–76, Hr’g Tr. 218:17–
219:12, ECF No. 118-8. Due to his disabilities,
Plaintiff regularly requested, and received, academic accommodations from Defendants. See Pl.’s
Dep. 169:16–170:24, ECF No. 103 at APP. 14; ECF
No. 104 at 27. As Plaintiff explained in his deposition, although he was generally awarded “time and
a half” for exams, the accommodations he requested
and utilized “varie[d] class to class.” Pl.’s Dep.
170:6–14, ECF No. 103 at APP. 014; Pl.’s Dep.
130:8–131:8, ECF No. 118 at APP. 033. Furthermore, Plaintiff stated in order to secure accommodations, Plaintiff met with each professor
individually to determine what accommodations
were necessary. Pl.’s Dep. 169:23–170:5, ECF No.
103 at APP. 014. Because he initiated these
requests, Plaintiff had not discussed whether the
disability coordinator was authorized to speak to
professors independently about Plaintiff’s disabilities. Pl.’s Dep. 171:16–172:16, ECF No. 103 at APP.
014.
The evidence also indicates during the disciplinary process, Plaintiff did make Parker, the investigators, and Foxhoven aware of his disabilities,
and some of the associated symptoms. See, e.g.,
Parker Dep. 232:2–233:7, ECF No. 103 at APP. 050
(mentioning Plaintiff’s parents statements to Parker
about Plaintiff’s disabilities); ECF No. 103-1 at
APP. 192 (noting Plaintiff’s statements about his
disabilities to the investigators); Pl.’s Sealed App.
Supp. Pl.’s Resp. Defs.’ Mot. Summ. J. at APP. 775–
76, Hr’g Tr. 218:17–219:12, ECF No. 118-8 (noting

100a
Plaintiff’s statements about his disabilities during
the disciplinary hearing with Foxhoven). However,
both Plaintiff and Plaintiff’s personal representative stated they never requested Plaintiff be provided accommodations. Pl.’s Dep. 120:19–121:10,
129:10–130:10, ECF No. 103 at APP. 006–07, 009;
Defs.’ Second Suppl. App. at APP. 314, Kaiser Dep.
25:18–26:13, ECF No. 132. Plaintiff also did not
request accommodations during the investigation.
Sirna Decl. ¶ 4, ECF No. 103-1 at APP. 301. Rather,
Plaintiff stated he assumed Defendants would follow up about any necessary accommodations once
he revealed he had taken Adderall on October 8,
2015, due to his ADHD. See Pl.’s Dep. 120:23–
123:13, ECF No. 103 at APP. 006–07. Furthermore,
although Plaintiff’s personal representative
requested Plaintiff be given extra time during the
disciplinary hearing, these requests were consistently raised as an issue of procedural fairness,
rather than Plaintiff’s disabilities. See Hr’g Tr.
6:14–19, ECF No. 118-6 at APP. 563 (arguing “having ten minutes arguing that [the Plaintiff] is
responsible and we get five minutes to rebut that is
not fair”); ECF No. 137 at APP. 233; see also Foxhoven Dep. 23:15–24:6, ECF No. 103 at APP. 076;
Pl.’s Dep. 133:7–19, ECF No. 103 at APP. 010
(“[E]ven my accommodations aside, we should have
gotten double anything anyway. But on top of my
accommodations, I already deserved time and a
half for anything and everything.”). The Court
determines no reasonable jury could find Plaintiff
or his attorney affirmatively requested any accom-

101a
modations during the investigation, disciplinary
hearing, or appeals hearing.
b.

Constructive notice

Absent an affirmative request for an accommodation, Plaintiff contends Defendants were constructively on notice of Plaintiff’s disabilities due to his
academic accommodations and statements regarding his ADHD, dyslexia, and word-retrieval issues.
ECF No. 121 at 37–38. Consequently, Plaintiff
asserts Defendants were required to affirmatively
engage with Plaintiff regarding possible accommodations. Id. Plaintiff relies on two cases, both outside the Eighth Circuit, to support his argument.
Id. at 38 (citing Nathanson v. Med. Coll. of Pa., 926
F.2d 1368 (3d Cir. 1991) and Redding v. Nova
Southeastern Univ., Inc., 165 F.Supp.3d 1274 (S.D.
Fla. 2016)). Both cases are distinguishable. First,
in Redding, the United States District Court for
the Southern District of Florida considered claims
brought by a dismissed medical student under the
ADA and § 504(a) of the Rehabilitation Act of 1973.
165 F.Supp.3d at 1279. The plaintiff claimed she
had been dismissed from medical school because of
her disability and had also been denied reasonable
accommodations. Id. at 1289, 1295 (noting the
plaintiff’s failure to accommodate claim was
premised on her academic training, while her dismissal claim only focused on her subsequent clinical rotations). As to the plaintiff’s failure to
accommodate claim, the court noted although it
was unclear whether a student’s failure to follow a

102a
formal procedure nullified an informal request for
an accommodation, the plaintiff’s argument was
ultimately moot as the plaintiff testified she had
attempted to comply with the formal procedure and
had previously received accommodations outside
the school’s formal process. Id. at 1296 & n.25.
Additionally, in examining the defendant’s decision
to dismiss the plaintiff, the court ultimately determined the plaintiff was not a “qualified individual”
during her clinical rotation as she had not identified or requested the reasonable accommodations
that would permit her to satisfy the program’s
essential requirements. Id. at 1293–94. While
Redding thus stands for the proposition that formal requests may not be required, particularly
when informal requests have previously been
granted, Redding does not support Plaintiff’s position.
First, unlike Plaintiff, the Redding plaintiff’s
informal requests actually identified the accommodations she was requesting. Id. at 1296. Plaintiff
has not identified any informal requests he made
during the disciplinary process that specified the
accommodations he now contends were necessary.
Second, as noted above, the Redding court ultimately determined the plaintiff had not requested
a reasonable accommodation during her clinical
rotation, and was thus not a “qualified individual.”
Id. at 1293–94. The court specifically distinguished
the plaintiff’s earlier approved accommodations,
which were given during her academic training,
with any accommodations she may have requested
during her clinical rotation. Id. (“[The plaintiff]

103a
requested accommodations only in relation to the
make-up exam policy, and it was incumbent on her
to request additional accommodations if she sought
accommodations related to the clinical rotation
attendance policy.”). Similarly, Plaintiff only
points to his past requests for academic accommodations to support his claim that Defendants were
on constructive notice as to his requests for accommodations during the investigation and subsequent
hearings. Although Plaintiff asserts his academic
accommodations put Defendants on notice of his
need for the disciplinary accommodations he now
identifies, the academic accommodations addressed
different contexts than the disciplinary procedures
set out in the Code and the Policy. For instance,
“time and a half” during an exam is not procedurally
or substantively comparable to “time and a half”
during a disciplinary procedure involving credibility
and factual determinations. Furthermore, while
there was no formal process to request accommodations during the disciplinary procedure, to receive
academic accommodations Plaintiff had previously,
he had to, at the very least, affirmatively approach
a professor regarding his request and identify the
particular accommodations he needed. He stated
the disability coordinator had told him he needed
to be more “accountable” regarding this affirmative
responsibility. Pl.’s Dep. 230:2–24, ECF No. 118 at
APP. 058. Thus, although he may not have been
required to follow a formal procedure to request an
accommodation, Plaintiff understood he must, at a
minimum, ask that his disabilities be accommo-

104a
dated. As discussed above, he failed to do so during
the disciplinary procedure.
Nathanson is similarly distinguishable. In
Nathanson, the Court of Appeals for the Third Circuit considered the plaintiff’s failure to accommodate claim under § 504 of the Rehabilitation Act.
926 F.2d at 1370. Noting the school “must know or
be reasonably expected to know of [the plaintiff]’s
handicap” to be liable under the Act, the court ultimately concluded there were genuine issues of
material fact as to whether the school was on notice
of the accommodations the plaintiff sought. Id. at
1381, 1385. Specifically, the court noted either the
school was on constructive notice due to the plaintiff’s repeated statements that she was unable to
attend the school without an accommodation, or
the school was on direct notice due to the plaintiff’s
“direct requests for accommodations.” Id. at 1382–
83, 1387. Although Nathanson provides a closer fit
to the facts at issue here than Redding, Nathanson
is also ultimately distinguishable. First, unlike
Plaintiff, the student in Nathanson repeatedly
requested a particular accommodation (a type of
desk) as it applied to her general ability to attend
school. Id. at 1381–82. In contrast, while Plaintiff
requested and received academic accommodations,
he did not request such accommodations for his disciplinary procedures. Rather, his requests were
specifically directed to his academic pursuits.
Plaintiff did not indicate that, due to his disabilities, he would be unable to participate in the inves-

105a
tigation or subsequent hearings.10 Second, to the
extent the court determined constructive notice
triggers some duty to accommodate absent a
request for an accommodation, the Court is bound
by Eighth Circuit precedent to the contrary. See
Mershon, 442 F.3d at 1077 (noting under both Title
III of the ADA and the Rehabilitation Act, a party
bringing a failure to accommodate claim “bears the
initial burden of demonstrating that he requested
reasonable accommodations, and that those accommodations would render him otherwise qualified
for admission”); see also Pierre v. Univ. of Dayton,
No. 3:15-cv-362, 2017 WL 1134510, at *10 (S.D.
Ohio Mar. 27, 2017) (holding a student in a disciplinary proceeding failed to state a claim for failure to
accommodate “because he did not mention a need
for any accommodation until after his disciplinary
hearing” and noting “[t]hat the University’s Office
of Learning Resources department knew that [the
plaintiff] had a disability does not trigger an obligation on every department of the University to
offer him accommodations when dealing with
him”). Thus, the Court concludes Plaintiff’s argu10

The Court notes during his disciplinary hearing, Plaintiff explained: “I also have a . . . word-based learning disability where I’m very bad at retrieving words and––like literally
what is happening now––I guess like a word-retrieval issue
and a mild form of dyslexia as well.” Hr’g Tr. 219:8–12, ECF
No. 118-8 at APP. 776. However, as detailed above, Plaintiff
did not explain he was unable to participate in the hearing
due to this issue, nor did he––nor his personal representative––request an accommodation during the hearing following Plaintiff’s statement.

106a
ment that Defendants were on constructive notice
of his need for accommodations fails as a matter of
law.
c.

Third-party request

Finally, Plaintiff contends even if he did not
request an accommodation during the disciplinary
procedure, his father, Thomas Rossley, Sr. requested an accommodation on his behalf. ECF No. 121 at
38–39. In his declaration, Plaintiff’s father stated
during a “contentious” phone call with Parker in
December 2015, he “demanded” that Parker “accommodate [Plaintiff]’s disabilities in the upcoming
hearing” and that “Parker never addressed this
request for disability accommodations.” Rossley,
Sr. Decl. ¶ 10, ECF No. 118-13 at APP. 1179–80.
Further, he explained he “was infuriated that
[Plaintiff] had to defend himself against Dean
Parker’s call for [Plaintiff]’s expulsion with no
accommodations that [Plaintiff’s father] had
requested for [Plaintiff]’s ADHD, anxiety, and language-based learning disabilities.” Rossley, Sr.
Decl. ¶ 14, ECF No. 118-13 at APP. 1182.
Plaintiff does not cite to any case law to support
his claim that a third party may request an accommodation on behalf of an adult student during a
disciplinary procedure. See ECF No. 121 at 38–
39.11 Although the Court has identified cases from
11

At the hearing on this motion, Plaintiff pointed the
Court to both Nathanson and Redding to support this contention. Mot. Summ. J. Hr’g Tr. 51:8–52:5, ECF No. 146.
However, neither case involves a third-party request for an

107a
other Circuits in which the courts, in dicta, determined a third party could sufficiently request an
accommodation on behalf of a disabled individual,
these cases are inapposite. First, they involve discrimination in employment (Title I of the ADA),
rather than private education (Title III of the
ADA). See, e.g., E.E.O.C. v. C.R. England, Inc., 644
F.3d 1028, 1049 (10th Cir. 2011); Taylor v.
Phoenixville Sch. Dist., 184 F.3d 296, 303, 313–14
(3d Cir. 1999) (determining the plaintiff sufficiently requested an accommodation through her son
after being admitted to a psychiatric hospital);
Corbett v. Nat’l Prods. Co., No. 94-2652, 1995 WL
133614, at *4 (E.D. Pa. Mar. 27, 1995) (finding the
plaintiff had requested an accommodation “in
essence when his wife called to inform [his employer]
of his entry into the treatment program”). In determining the plaintiffs in those cases sufficiently
requested accommodations, the courts relied on the
employer’s duty to engage in an interactive
process. See Taylor, 184 F.3d at 314 (noting once
the school had notice of the plaintiff’s disability, it
was required to engage in an interactive process to
accommodate any requested accommodation, and
thus “it would be especially inappropriate to insist
that [the plaintiff]’s son must have specifically
invoked the ADA” to begin that process); see also
C.R. England, 644 F.3d at 1049 (noting the interacaccommodation; rather, both plaintiffs requested their own
accommodations during their respective academic programs.
Nathanson, 926 F.2d at 1370; Redding, 165 F.Supp.3d at
1293–94.

108a
tive process was envisioned to facilitate reasonable
accommodations and that in the employment context, the request does not need to “be made by the
employee” (quoting Taylor, 184 F.3d at 313)).
Meanwhile, the Eighth Circuit has noted its skepticism as to whether institutions are required to
engage in an interactive process under the ADA
generally and in the academic setting specifically,
thus further limiting the applicability of the above
cases. See Koester v. Young Men’s Christian Ass’n
of Greater St. Louis, 855 F.3d 908, 912 & n.2 (8th
Cir. 2017) (noting it was “assuming with a hefty
dose of skepticism that these concepts [of the interactive process] are applicable in this Title III
case”); Mershon, 442 F.3d 1069 (explaining “even if
such an interactive process is required in an academic setting,” the plaintiff would bear the burden
of showing he needed accommodations to gain
entry to graduate school (citing Stern v. Univ. of
Osteopathic Med. & Health Scis., 220 F.3d 906, 909
(8th Cir. 2000))).
Moreover, unlike the current case, the plaintiffs
in Taylor and Corbett were both incapable of
requesting the accommodations themselves, as
they were in treatment facilities. See Taylor, 184
F.3d at 302; Corbett, 1995 WL 133614, at *1. Plaintiff was capable of requesting accommodations for
himself, as evidenced by the fact that he consistently did so in the academic setting and understood he was required to raise the issue of
individual accommodations with his professors.
During the hearing on this motion, Plaintiff’s
counsel also asserted, because Plaintiff had waived

109a
his rights under the Family Educational Rights
and Privacy Act (FERPA), his father was serving as
his representative when he requested accommodations from Parker. Mot. Summ. J. Hr’g Tr. 52:5–14,
ECF No. 146. However, FERPA only protects a student’s privacy as applied to his academic and medical records; it does not provide a parent with
representative authority once the FERPA rights
are waived. See generally 20 U.S.C. § 1232g. This is
particularly true when, as here, the adult student
is capable of requesting accommodations for himself and is represented by independent counsel. See
Pl.’s Dep. 194:7–14, ECF No. 103 at APP. 019 (stating that at the time Plaintiff had the second meeting with the investigators, he had an attorney);
ECF No. 103-1 at APP. 219 (noting the second
interview occurred on November 10, 2015); Rossley, Sr. Decl. ¶ 12, ECF No. 118-13 at APP. 1180–81
(stating Rossley, Sr. spoke with Parker regarding
Plaintiff’s disabilities in December 2015). Plaintiff
stated he understood his attorney was responsible
for discussing any accommodations he might need
with Defendants and that he “delegated [that duty]
to [his] lawyer.” Pl.’s Dep. 126:8–22, ECF No. 103
at APP. 008. For the reasons set forth above, Rossley, Sr. could not request an accommodation for his
adult son and Defendants were not required to
engage with Plaintiff in response to his father’s
statements.
Finally, even if Plaintiff’s father could request an
accommodation for his adult son, the record does
not provide any indication of what accommodations
Rossley, Sr. specifically requested. Rossley, Sr.’s

110a
declaration states he “demanded” that Defendants
“accommodate [Plaintiff]’s disabilities in the
upcoming hearing” and that he was “infuriated”
that Defendants had not provided the “accommodations that [he] had requested for [Plaintiff]’s
ADHD, anxiety, and language-based learning disabilities.” Rossley, Sr. Decl. ¶ 12, 14, ECF No. 11813 at APP. 1179, 1182. This declaration does not
indicate what accommodations were necessary in
the hearing, which accommodations Rossley, Sr.
believed should have been provided during the
investigation, and how Defendants should accommodate Plaintiff’s disabilities. Although Plaintiff
received academic accommodations, as noted
above, those accommodations were provided in a
separate process and involved accommodations for
different requirements under the Code. As the
Eighth Circuit has explained, plaintiffs seeking
accommodations must “request[ ] reasonable specific accommodations.” Mershon, 442 F.3d at 1077.
Looking at the facts in the light most favorable to
Plaintiff, the Court thus determines there is no
genuine dispute of material fact that Plaintiff, his
attorney, or his father, requested any reasonable
accommodations. Because Plaintiff is required to
show he requested such an accommodation as a
basis for his ADA claim, the Court thus grants
Defendants’ motion for summary judgment as to
Count VI.

111a
E. Contract Claims (Counts III, IV, and
VII)
Plaintiff brings three state law contract claims:
breach of contract (Count III), breach of the
covenant of good faith and fair dealing (Count IV),
and estoppel and reliance (Count VII). ECF No. 46
¶¶ 203–19, 220–24, 241–47. All of Plaintiff’s claims
are premised on, and encompassed by, the contractual language contained in the Code and the Policy.
For purposes of summary judgment, Defendants
concede the Code and the Policy constitute contracts under Iowa state law. See ECF No. 104 at 34.
Defendants argue Plaintiff’s contractual claims fail
because: 1) Plaintiff cannot show Defendants violated any contractual rights due to him under the
Code or the Policy, including the requirement to
conduct a fair hearing; 2) Plaintiff’s covenant of
good faith and fair dealing claim would alter the
terms of the contract; and 3) the Code and the Policy explained all of the promises made to Plaintiff,
and by conducting a fair and equitable hearing,
Defendants kept their promise. Id. at 34–40.
The Court first considers whether Plaintiff’s
claims asserting estoppel and breach of the
covenant of good faith and fair dealing are subsumed by his claim alleging breach of contract.
Determining they are, the Court next examines
whether Plaintiff has identified genuine issues of
material fact as to whether Defendants breached
their contractual duties to Plaintiff under the Code
or Policy. The Court finds Plaintiff has shown that

112a
some, but not all, of the alleged breaches include
genuine issues of material fact.
1.

Estoppel & covenant of good faith
and fair dealing (Counts IV and
VII)

In Count VII, Plaintiff asserts a claim for estoppel and reliance. Plaintiff alleges “Drake’s various
policies constitute representations and promises
that Drake should have reasonably expected to
induce action or forbearance by Plaintiff,” including the “express and implied promises that Drake
would not tolerate, and Plaintiff would not suffer,
harassment by fellow students” and that Drake
“would not deny Plaintiff his procedural rights
should he be accused of a violation of Drake’s policies.” ECF No. 46 ¶¶ 242–43. Because Plaintiff
asserts he suffered harm after reasonably relying
on “representations and promises” by Defendants,
the Court understands Plaintiff to be making a
promissory estoppel, rather than equitable estoppel, claim.12
Under Iowa law, “[t]he theory promissory estoppel allows individuals to be held liable for their
promises despite an absence of the consideration
typically found in a contract.” Schoff v. Combined
Ins. Co. of Am., 604 N.W.2d 43, 48 (Iowa 1999).
12

Equitable estoppel is based on a misstatement of fact;
promissory estoppel requires a plaintiff show he detrimentally relied upon a promise. See Merrifield v. Troutner, 269
N.W.2d 136, 137 (Iowa 1978) (discussing these distinctions).

113a
Consequently, in order to establish a claim for
promissory estoppel, a plaintiff must show:
(1) [A] clear and definite promise; (2) the
promise was made with the promisor’s clear
understanding that the promisee was seeking
an assurance upon which the promisee could
rely and without which he would not act; (3)
the promisee acted to his substantial detriment
in reasonable reliance on the promise; and (4)
injustice can be avoided only be enforcement of
the promise.
Id. at 49. Because promissory estoppel is a form of
equitable relief and applies only where a contract
otherwise does not exist, a plaintiff may not assert
a claim of promissory estoppel if the promise at
issue is encompassed by a written and formal contract. See, e.g., PFS Distrib. Co. v. Raduechel, 574
F.3d 580, 599 (8th Cir. 2009) (affirming dismissal
of the employee’s promissory estoppel claim and
explaining “[the employee]’s allegations do not sufficiently show the statements of [the employer’s]
officers created oral contracts or warrant promissory estoppel because the alleged statements, at
most, restated the terms of [the employee]’s written compensation agreement”); John T. Jones Constr. Co. v. Hoot Gen. Constr., 543 F.Supp.2d 982,
1021 (S.D. Iowa 2008) (“Because [the plaintiff] has
a complete remedy at law for breach of contract
there is no reason to resort to equity.”); Blackledge
v. Puncture Proof Retread Co., 190 Iowa 1303, 181
N.W. 662, 664 (1921) (reasoning an “oral contract
must be independent in fact, and must not be a con-

114a
tradiction, modification, or qualification of the
written contract, either as to its enforcement, its
consideration, or its executory obligation”); 28 Am.
Jur. 2d, Estoppel & Waiver § 54 (1964 & Aug. 2018
Update) (“A promissory estoppel claim is precluded
by the existence of an enforceable contract, and in
fact, promissory estoppel does not apply when the
dispute arises out of a valid contract between the
parties.”).
As applied to this case, Plaintiff claims he reasonably relied upon Defendants’ promises “that
Drake would not tolerate, and Plaintiff would not
suffer, harassment by fellow students” and that
Drake “would not deny Plaintiff his procedural
rights should he be accused of a violation of Drake’s
policies.” ECF No. 46 ¶¶ 242–43. Apart from the
plain language contained in the Code and the Policy,
Plaintiff does not point to any “clear and definite”
statements by of Defendants relating to these
alleged promises. See Schoff, 604 N.W.2d at 48.
Plaintiff asserts Parker, Martin (President of
Drake), and Vanessa Macro, the Chief Administrative Officer for Drake, stated respondents in sexual
misconduct investigations must be treated fairly
during the disciplinary process and are entitled to
due process. See ECF No. 121 at 42–43. However,
these statements by Parker, Martin, or Macro were
made during depositions after Plaintiff was
expelled and thus cannot form the basis of a promissory estoppel claim. Plaintiff does not identify
any statements Defendants made to him before he
matriculated at Drake which were intended to provide “an assurance upon which [Plaintiff] could

115a
rely and without which he would not [have]
act[ed].” Schoff, 604 N.W.2d at 49.
Furthermore, even if Plaintiff could point to
affirmative statements by Defendants regarding
due process or equitable proceedings made by
Defendants before the disciplinary proceedings,
such statements are encompassed by the Code and
the Policy. See ECF No. 137 at APP. 111–12, 134
(defining “sexual assault” as a form of nonacademic
misconduct); id. at APP. 138 (explaining, per the
Policy, “[t]he University disciplinary process will
include a prompt, fair, and impartial investigation
and resolution process”); see also id. (noting when a
complaint of sexual misconduct is filed against a
student, the Policy and the Code follow the same
disciplinary procedure). Thus, to the extent Defendants promised Plaintiff a fair and equitable disciplinary procedure and assured him he would not be
subjected to sexual harassment, any alleged breach
of such promises is encompassed by the Code and
the Policy and it thus limited to a remedy at law for
breach of contract. See PFS Distrib. Co., 574 F.3d
at 599 (dismissing the employee’s promissory estoppel claim when “the alleged statements, at most,
restated the terms of [the employee]’s written [contract]”); John T. Jones Constr., 543 F.Supp.2d at
1021 (determining there is no reason “to resort to
equity” when the plaintiff’s remedy is encompassed
by his breach of contract claim).
For similar reasons, the Court determines Plaintiff’s claim for breach of the covenant of good faith
and fair dealing is subsumed by his breach of contract claim. In Count IV, Plaintiff asserts Defen-

116a
dants “breached and violated the covenant of good
faith and fair dealing implied in the agreement(s)
with Plaintiff by meting out the disproportionately
severe sanction of expulsion where there was a lack
of credible evidence concerning the claims against
him.” ECF No. 46 ¶ 222. Plaintiff identifies two
examples of Defendants’ alleged breach: 1) Foxhoven’s decision to “allow[ ] Jane Doe to admit to
her own sexual assault of Plaintiff,” “lie in her testimony without consequences,” and “doctor her text
message evidence to try to prove the plaintiff was
stalking her”; and 2) Defendants’ refusal to take
action against Jane Doe for these violations of the
Code. Id. ¶ 221. Defendants contend Iowa law does
not recognize Plaintiff’s claim as Plaintiff is seeking to alter the terms of the Code and the Policy.
ECF No. 104 at 38. Defendants also assert Plaintiff
was only expelled after he was found responsible
for sexual misconduct in accordance with the Code;
the Code does not give Plaintiff “a contractual right
to have Drake initiate disciplinary action against
other students”; and Defendants followed the terms
of the contracts by providing all the evidence they
had to Plaintiff before the disciplinary hearing. Id.
at 38–39.
Iowa law recognizes an implied covenant of good
faith and fair dealing in all contracts. See Alta
Vista Props., LLC v. Mauer Vision Ctr., PC, 855
N.W.2d 722, 730 (Iowa 2014); Bagelmann v. First
Nat’l Bank, 823 N.W.2d 18, 34 (Iowa 2012). “The
underlying principle is that there is an implied
covenant that neither party will do anything which
will have the effect of destroying or injuring the

117a
right of the other party to receive the fruits of the
contract.” Am. Tower, L.P. v. Local TV Iowa, LLC,
809 N.W.2d 546, 550 (Iowa Ct. App. 2011) (quoting
13 Richard A. Lord, Williston on Contracts § 38.15,
at 435 (4th ed. 2000). The covenant thus “prevents
one party from using technical compliance with a
contract as a shield from liability when that party
is acting for a purpose contrary to that for which
the contract was made.” Mid-America Real Estate
Co. v. Iowa Realty Co., 406 F.3d 969, 974 (8th Cir.
2005). Importantly, however, the covenant “does
not give rise to new substantive terms that do not
otherwise exist in the contract.” Bagelmann, 823
N.W.2d at 34 (quoting Mid-America Real Estate,
406 F.3d at 974). Thus, an implied covenant of good
faith and fair dealing is contained in the Code and
the Policy. Plaintiff’s alleged violations of the
covenant of good faith and fair dealing are subsumed by his breach of contract claims. Because
Counts IV and VII are more appropriately considered as part of Plaintiff’s breach of contract claims,
the Court grants summary judgment in Defendants’ favor on Counts IV and VII.
2.

Breach of Contract (Count III)

Plaintiff alleges Defendants breached its express
and implied agreements with Plaintiff. ECF No. 46
¶ 205. Under Iowa law, to prevail on a contract
claim, a plaintiff must prove: 1) the existence of a
contract; 2) the terms and conditions of the contract; 3) that the plaintiff has performed all the
terms and conditions required under the contract;

118a
4) the defendant’s breach of the contract in some
particular way; and 5) that the plaintiff has suffered damages as a result of the breach. Molo Oil
Co. v River City Ford Truck Sales, Inc., 578 N.W.2d
222, 224 (Iowa 1998). Contracts between a university and a student have been construed narrowly.
See Jackson v. Drake Univ., 778 F.Supp. 1490,
1493 (S.D. Iowa 1991) (holding financial aid documents included express terms of an agreement but
did not contain an implicit agreement for the student to play basketball). The Court relies on Plaintiff’s Amended Complaint—which identifies specific
contract terms he alleges were breached by Defendants—and not on Plaintiff’s Response in which
Plaintiff argues generally that Defendants treated
him unfairly in violation of their agreement. Compare ECF No. 46 ¶¶ 203–19, with ECF No. 121 at
42.
The first breach Plaintiff alleges is that Defendants failed to conduct an equitable investigation
of Jane Doe’s claims. ECF No. 46 ¶¶ 207–08. Plaintiff contends this breach violates the Policy term
which states: “[t]he University disciplinary process
will include a prompt, fair, and impartial investigation and resolution process.” ECF No. 137 at APP.
138. Plaintiff next alleges Defendants failed to conduct an equitable investigation of Plaintiff’s claim
of sexual misconduct by Jane Doe. ECF No. 46
¶¶ 209–213. Plaintiff claims Defendants’ failure to
do so violates the term of the Code stating the Dean
of Students will investigate student complaints.
ECF No. 137 at APP. 116. Third, Plaintiff alleges
Defendants breached the Code by discriminating

119a
against Plaintiff on the basis of sex. ECF No. 46
¶¶ 214–15. Plaintiff alleges this discrimination violates the term of the Code stating Drake prohibits
discrimination on the basis of sex. ECF No. 137 at
APP. 099. Fourth, Plaintiff alleges Defendants
breached the contract by failing to apply the proper
burden of proof during the disciplinary proceedings. ECF No. 46 ¶¶ 216–17. Plaintiff claims that
this breach corresponds with the term in the Code
that provides “[a] violation of this Code is established upon proof of a charge by a preponderance of
the evidence; a preponderance of the evidence
exists when it is more likely than not, or the
greater weight of the evidence suggests, a violation
occurred.” ECF No. 137 at APP. 122.
Plaintiff’s first and last identified breaches—that
Drake failed to conduct an equitable investigation
and failed to apply the correct burden of proof—do
not present a genuine issue of material fact.
Although Plaintiff challenges various procedural
characteristics of the disciplinary process, Plaintiff
provides nothing more than conclusory allegations
that the process was biased and partial. Plaintiff
claims Defendants failed to provide “procedural
equity” and argues, among other things, that “[t]he
investigation report was positioned to support Jane
Doe’s accusation of lack of consent and incapacitation” and the “[s]anction was unwarranted and disproportionate in light of the circumstances.” ECF
No. 46 ¶ 208. Similarly, Plaintiff argues the wrong
burden of proof was applied because “[a] fair reading of the evidence” calls for a different outcome.
Id. at ¶ 217.

120a
Plaintiff expresses disagreement with the procedure and the outcome, but does not demonstrate a
genuine issue of material fact that shows the proceeding was not prompt, fair, and impartial. Plaintiff agreed to accept the Code’s “rules, regulations
and policies” through “voluntary entrance into
Drake University.” ECF No. 137 at APP. 103. A
Drake student also “acknowledges the right of
the University to initiate disciplinary procedures
when an allegation or a complaint of non-academic
misconduct is made and to impose disciplinary
sanctions when it has been determined that nonacademic misconduct has occurred.” Id. Because
Plaintiff has not pointed to any genuine issue of
material fact beyond his opinions about partiality
and unfairness, Defendants’ motion for summary
judgment is granted as to these alleged breaches of
contract.
However, there is a genuine issue of material fact
as to Plaintiff’s claim that Defendants breached the
contract by failing to conduct an equitable investigation of Plaintiff’s allegations against Jane Doe.
There is also a genuine issue of material fact as to
whether this failure was motivated by sex discrimination. The Code requires the Dean of Students
conduct investigations into student complaints of
sexual misconduct. ECF No. 137 at APP. 116.
There are genuine issues of material fact as to
whether Plaintiff filed a complaint, what Defendants decided to do with Plaintiff’s complaint if it
was initiated, and, finally, if any of these decisions
were the result of sex discrimination. A jury must
weigh the evidence to answer these questions and

121a
determine if Defendants breached their contract
with Plaintiff. See Amherst Coll., 238 F.Supp.3d at
218 (holding the specific factual allegations that
“the [defendant] responded differently to similar
reports when the genders of the potential victims
and aggressors were different” sufficient to show a
breach of an agreement to hold a fair hearing to
survive a motion for a judgment on the pleadings).
Thus, Defendants’ motion for summary judgment is
denied as to the alleged breaches of contract that
Defendants failed to conduct an equitable investigation of Plaintiff’s claim and Defendants discriminated against Plaintiff on the basis of sex.
V. CONCLUSION
The Court grants in part and denies in part
Defendants’ Motion for Summary Judgment. Plaintiff did not contend dismissal of his negligent infliction of emotional distress claim. Plaintiff did not
request a reasonable accommodation and thus cannot maintain his ADA claim. Plaintiff has not identified genuine issues of material fact to support his
deliberate indifference and erroneous outcome
claims under Title IX. The Court thus grants summary judgment in favor of Defendants on Plaintiff’s
negligent infliction of emotional distress claim, his
ADA claim, and his Title IX claim under his erroneous outcome and deliberate indifference theories.
However, there are genuine issues of material
fact as to whether Defendants selectively enforced
their Code and Policy against Plaintiff in violation
of Title IX. The Court thus denies Defendants’

122a
motion for summary judgment on Plaintiff’s Title
IX claim under a selective enforcement theory.
Plaintiff may not maintain an independent claim
for declaratory judgment, so the Court grants
Defendants’ motion for summary judgment as to
that claim. Plaintiff’s estoppel and covenant of
good faith and fair dealing claims are subsumed by
his other contractual claims. Consequently, Defendants’ motion for summary judgment on Plaintiff’s
estoppel and covenant of good faith and fair dealing
claims is granted.
However, there are genuine issues of material
fact as to whether Defendants breached their contract with Plaintiff by failing to investigate his
claim of sexual misconduct. The Court denies
Defendants’ motion for summary judgment on
Plaintiff’s contract claims as to these two breaches.
Summary judgment is granted in favor of Defendants on all of Plaintiff’s other breach of contract
claims.
IT IS SO ORDERED that Defendants’ Motion for a
Summary Judgment, ECF No. 99, is GRANTED IN
PART and DENIED IN PART. The Court GRANTS
Defendants’ Motion for Summary Judgment on
Plaintiff’s Title IX claim (Count I) under Plaintiff’s
erroneous outcome and deliberate indifference theories. The Court DENIES Defendants’ Motion for
Summary Judgment on Plaintiff’s Title IX claim
(Count I) under Plaintiff’s selective enforcement
theory. The Court GRANTS Defendants’ Motion for
Summary Judgment on Plaintiff’s breach of contract claim (Count III) regarding Defendants’ failure to conduct an equitable investigation and to

123a
apply a proper burden of proof. The Court DENIES
Defendants’ Motion for Summary Judgment on
Plaintiff’s breach of contract claim (Count III)
regarding the Defendants’ failure to investigate
Plaintiff’s allegations of sexual misconduct and its
discrimination against Plaintiff on the basis of sex.
The Court finds Plaintiff’s estoppel and covenant of
good faith and fair dealing claims (Counts IV and
VII) are subsumed by Plaintiff’s breach of contract
claim and thus GRANTS Defendants’ Motion for
Summary Judgment on Counts IV and VII. Defendants’ Motion for Summary Judgment on Plaintiff’s
claim of negligent infliction of emotional distress
(Count V) is not resisted by Plaintiff and is thus
DISMISSED. The Court GRANTS Defendants’ Motion
for Summary Judgment on Plaintiff’s ADA claim
(Count VI). Plaintiff’s claim for a declaratory judgment (Count VIII) does not constitute an independent claim of relief. The Court thus G RANTS
Defendants’ Motion for Summary Judgment on
Plaintiff’s Count VIII for declaratory judgment.
The parties are responsible for their own costs.

